<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2019                                  
 _______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                           _________________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES
                          

                  JOHN ABNEY CULBERSON, Texas, Chairman

  HAROLD ROGERS, Kentucky            JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama        DEREK KILMER, Washington
  JOHN R. CARTER, Texas              MATT CARTWRIGHT, Pennsylvania
  MARTHA ROBY, Alabama               GRACE MENG, New York
  STEVEN M. PALAZZO, Mississippi
  EVAN H. JENKINS, West Virginia 
  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.




               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                                _________

                                  PART 6

  National Aeronautics and Space Administration..................     1
  
  Members' Day...................................................    73
  
  Statements of interested individuals 
  and organizations..............................................    87
                                                                     
  Department of Justice..........................................   357
                                                                   

                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                         ____________         
                
                U.S. GOVERNMENT PUBLISHING OFFICE
		                   
 31-511                  WASHINGTON : 2018                
                          
                
 


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\              NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama              MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                       PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas              ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                    DAVID E. PRICE, North Carolina
  KEN CALVERT, California                  LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                       SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida               BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania            BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                      TIM RYAN, Ohio
  KEVIN YODER, Kansas                      C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                   DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska               HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee        MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington        DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                     MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California             GRACE MENG, New York
  ANDY HARRIS, Maryland                    MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                     KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                   PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus 
  
  
   

                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   
                             C O N T E N T S

                              ----------                              

     APRIL 12, 2018--National Aeronautics and Space Administration

                                                                   Page
Culberson, Hon. John Abney, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
Serrano, Hon. Jose E., a Representative in Congress from the 
  State of New York, opening statement...........................     2

                                Witness

Lightfoot, Robert M., Acting Administrator, National Aeronautics 
  and Space Administration.......................................     4
    Answers to submitted questions...............................    42

                      APRIL 17, 2018--Members' Day

Culberson, Hon. John Abney, a Representative in Congress from the 
  State of Texas, opening statement..............................    73
Serrano, Hon. Jose E., a Representative in Congress from the 
  State of New York, opening statement...........................    73

                               Witnesses

Hill, Hon. J. French, a Representative in Congress from the State 
  of Arkansas....................................................    81
    Prepared statement...........................................    82
Moore, Hon. Gwen S., a Representative in Congress from the State 
  of Wisconsin...................................................    73
    Prepared statement...........................................    75
Watson Coleman, Hon. Bonnie, a Representative in Congress from 
  the State of New Jersey........................................    78
    Prepared statement...........................................    80

                           Submitted Material

Chu, Hon. Judy, a Representative in Congress from the State of 
  California, submitted statement................................    84
Rosen, Hon. Jacky, a Representative in Congress from the State of 
  Nevada, submitted statement....................................    84
Statements of interested individuals and organizations...........    87

                 APRIL 26, 2018--Department of Justice

Culberson, Hon. John Abney, a Representative in Congress from the 
  State of Texas, opening statement..............................   357
Frelinghuysen, Hon. Rodney, a Representative in Congress from the 
  State of New Jersey, opening statement.........................   359
Serrano, Hon. Jose E., a Representative in Congress from the 
  State of New York, opening statement...........................   358

                                Witness

Sessions, Hon. Jeff, Attorney General, U.S. Department of Justice   361
    Answers to submitted questions...............................   395

                                 (iii)
                                 
                                 


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2019

                              ----------                              

                                          Thursday, April 12, 2018.

          NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

                                WITNESS

ROBERT M. LIGHTFOOT, ACTING ADMINISTRATOR, NATIONAL AERONAUTICS AND 
    SPACE ADMINISTRATION
    Mr. Culberson. The Commerce, Justice, Science Appropriation 
Subcommittee will come to order. It is our privilege today to 
have before us the acting administrator of the National 
Aeronautics and Space Administration, Robert Lightfoot.
    We know that you have recently announced your retirement at 
the end of the month. I personally want to thank you on behalf 
of the American people for your extraordinary service to the 
country, to the space program. You have done a magnificent job 
and it has just been a real privilege to work with you. And I 
know Mr. Serrano and members of this subcommittee feel the same 
way.
    We have worked arm in arm to make sure that you got the 
resources you need to finally begin to do everything that you 
have got on your plate and we have got you headed in the right 
direction, and we are looking forward to your testimony today. 
But above all, thank you for your service to the country. As a 
token of our appreciation, we are having a statement printed in 
the Congressional Record noting your achievements, your long 
record of service to NASA and to the country, and we genuinely 
want to thank you from the bottom of our hearts, Robert, for 
all that you have done for the nation's space program.
    And I would be happy to recognize Mr. Serrano for any 
opening remarks he would like to make.
    Mr. Serrano. Thank you, Chairman Culberson. And I would 
like to join you in welcoming NASA Acting Administrator Mr. 
Robert Lightfoot, to the subcommittee. I was saddened to learn 
of your impending departure from the Agency and just wanted to 
take a moment to thank you for your dedication and service to 
our nation. It means a lot to all of us.
    NASA is in charge of conducting civilian space activities 
and science and aeronautics research. I am a strong supporter 
of NASA, have always been, and believe that its program helps 
America maintain itself as a world leader in space exploration 
and the scientific arenas that develop those technologies.
    Not only does NASA's mission inspire so many people around 
the world, but they also help us innovate and address 
challenges that confront our nation. The budget blueprint for 
fiscal year 2019 requests 19.9 billion for NASA, which is an 
844 million dollar decrease from the 2018 enacted level.
    While NASA provides funding for a number of science and 
exploration activities, the budget proposal reduces funding for 
a number of important areas. I am particularly concerned that 
although funding is continued for the education activities of 
NASA's Science Mission Directorate, this request zeroes out 
funding for three long-standing programs within NASA's Office 
of Education that help inspire the next generation of 
scientists.
    I strongly oppose the elimination of these programs. Mr. 
Chairman, I hope that we can work together in a bipartisan 
manner to preserve these programs that so greatly benefit the 
American people, just as we did for fiscal year 2018 just a few 
weeks ago.
    I would further like to call attention to President Trump's 
inadequate request for Earth Science, which is a cut of $136.8 
million below fiscal year 2018. We need to place a high 
priority on NASA's Earth Science research. And I look forward 
to discussing this topic further today. In addition, I am 
concerned by the intent to eliminate the Wide Field Infrared 
Survey Telescope. This project received 150 million in 2018 and 
was ranked as the highest scientific priority space 
astrophysics mission by the 2010 decadal survey. We need to 
have a serious conversation on this project.
    I also look forward to hearing from Acting Administrator 
Lightfoot on NASA's long-term plans for Human Space 
Exploration, which will require significant amounts of money 
for research and advanced communication systems. By the way, if 
you are short of people to send up, the Chairman and I could 
give you a list of a couple of people.
    To grow in communications, descent, and landing 
capabilities, and ways to protect astronaut health during long, 
deep space missions, among other things, all of these 
improvements will require massive amounts of money over a long 
period.
    Lastly, Mr. Chairman, as you very well know, I am also a 
strong supporter of the Arecibo Observatory and believe that we 
must maintain strong support for its mission. NASA's fiscal 
year 2019 budget request includes funding for NASA activities 
at the observatory, and I would like to hear more about this 
work.
    NASA helps drive scientific research and innovation in our 
nation. For almost 60 years now, our country has stood behind 
NASA by making investments to explore space and the cosmos, as 
well as to research our own planet and to develop cutting edge 
aeronautics technologies.
    Thank you once again, Acting Administrator Lightfoot, for 
joining us today, and I look forward to discussing these 
important issues with you. The Chairman surprised me by not 
making an opening statement, and I thought of not making one, 
but then I wouldn't be on the record.
    Mr. Culberson. No, we are--as you know, NASA is one of 
those things that we work together arm in arm on. I am very 
grateful for your support, Joe, and everyone on this 
subcommittee is a strong supporter of the work that NASA does 
and that reflects the will of the country, that there is 
unanimous support for the work that NASA does. And we have been 
working together to make sure that NASA had a record level of 
increase. We have gotten you almost to 21 billion. We were 
committed to get you north of 20 and we did so, with the help 
of Chairman Shelby. He has been a terrific supporter. Mr. 
Aderholt, the State of Alabama, the State of Mississippi, we 
have strong support for NASA across the country.
    With that increased funding comes increased responsibility. 
And we are confident that you and your new CFO are going to be 
good stewards of our constituents' hard earned tax dollars.
    One of the things I do want to focus on, and I hope you 
will mention it in your testimony, and I will talk about in my 
opening questions is the 51-year roadmap that we enacted into 
the 2018 appropriations bill, beginning with a search for life 
in other worlds and moving on to identify the nearest earthlike 
planet and then launching humanity's first interstellar mission 
no later than the 100th anniversary of Neil Armstrong setting 
foot on the moon.
    So we hope you will talk about that. And the reason I 
didn't really mention much about the budget, as you know, the 
appropriations bill is what matters.
    Mr. Serrano. Right.
    Mr. Culberson. So the budget----
    Mr. Serrano. I know.
    Mr. Culberson. We try not to get too worked up about the 
budget in this committee. That is just a recommendation for the 
Congress. The President proposes and the Congress will dispose.
    Mr. Serrano. Yes.
    Mr. Culberson. But we have your back, Administrator 
Lightfoot, and we are glad to have you here today and look 
forward to your testimony. To the extent you can summarize it, 
it would be appreciated. And then we will enter, of course, 
your testimony in its entirety----
    Mr. Serrano. Mr. Chairman, if I may for a second.
    Mr. Culberson. Yes, sir.
    Mr. Serrano. To go off a little bit here, but as you leave, 
I hope you spread the word around that this Member of Congress, 
and I know the Chairman agrees with me, I have been in public 
office for 44 years, State Assembly and in Congress, and there 
is nothing more exciting to bring to a school than an 
astronaut. When you bring an astronaut to a school, it is total 
mayhem and ooh aah. I mean, it is just wonderful. `And how did 
you stay up there and what did you do?'
    And I remember one year we flew the Puerto Rican flag and 
then seven years later, we flew the Dominican flag. And we had 
a presentation at a local college and astronauts came. And 
astronauts are heros and sheros. So please, on your way out the 
door, say, `hey, let's keep working with the schools.'
    Mr. Culberson. Yea, there is no better way to ignite a 
spark of enthusiasm and excitement in kids' hearts than 
introducing them to an astronaut, the possibility that they 
might be one. I am very grateful for my letter of rejection as 
an astronaut. Thank you very much. I was proud to apply and to 
be rejected. I have it framed on my wall.
    Mr. Kilmer. Was that last year?
    Mr. Culberson. I did. I applied for the last class. And if 
we can't be an astronaut, we can be there to help you to make 
sure that they keep flying and that America's program is the 
best on earth. So we welcome your testimony. And your testimony 
in its entirety, if there is no objection, will be entered into 
the record. And we look forward to hearing from you. Thank you 
so much, Robert, for being with us today.
    Mr. Lightfoot. All right. Thank you, Mr. Chairman and 
members of the subcommittee for the opportunity to testify this 
morning. But before I begin, I do want to thank you, all of 
you, for the outstanding support with the 2018 budget recently 
enacted. That is going to enable us to do the kind of things 
you talked about, Mr. Chairman, and I think that for us that 
lets us move forward pretty aggressively across our entire 
portfolio. As you said, you are going to get us upwards of 20 
billion and you did.
    Mr. Culberson. I would be grateful as a part of your 
comments today if you would mention how important it is that 
there be no recisions when it comes to NASA and how important 
all of those things that we funded are.
    Mr. Lightfoot. Yes. You have my support on that one, but I 
don't know if I control that. I think the 2019 budget that we 
have provided does continue to place NASA at the forefront of 
the global effort to advance humanity's future in space.
    NASA is focused on our core exploration mission. In many 
ways, this mission returns value to the U.S. I think through 
the mission, we are going to produce knowledge and discoveries 
as you have talked about to strengthen our economy and 
security, deepen our partnerships internationally, and as just 
stated, really inspire the next generation. This is what we 
want to do to help provide the solutions here on earth.
    The proposal this year really initiates what we call our 
exploration campaign. NASA is going to pursue an exploration 
and development of the moon and deep space by leading 
innovative new commercial, and international partnerships and 
leveraging and advancing the work we have already been doing in 
low earth orbit with our International Space Station.
    Our successful investment with the U.S. space industry in 
the low earth orbit allows us to focus our energies on further 
horizons. As private companies continue their successful cargo 
missions to low earth orbit, we will once again launch 
astronauts from American soil beginning with test flights this 
year.
    In low earth orbit, the International Space Station, or 
ISS, as I said, is our cornerstone for an integrated approach. 
We believe it is a perfect platform for us to understand the 
full potential of what we need to do while we still have it. We 
are proposing ending U.S. funding in 2024 for the ISS and we 
have put money in to hopefully stimulate commercial energy in 
the low earth orbit economy as we move forward.
    In the vicinity of the moon and its surface, the Space 
Launch System (SLS) and Orion are our critical backbone 
elements of the future in deep space. Their momentum continues 
this year toward the first integrated launch of the system in 
fiscal year 2020, with a mission with crew in 2023. In 2019 in 
particular we will have an important test for us, the Orion 
Launch Abort System will test. That will advance our 
understanding in safety critical areas that we are going to 
need when we actually fly crew.
    We will also begin to build the in space infrastructure for 
long-term exploration and development of the moon by delivering 
to lunar orbit a power and propulsion element. It is the 
foundation of what we call the Lunar Orbital Platform-Gateway. 
This Gateway will expand what humans can do in the lunar 
environment and provide opportunities to support those 
commercial and international missions to the surface, but also 
in the area around the moon with the technologies we need for 
further exploration.
    Our plan is going to draw on the interesting capabilities 
of industry and international partners and we are going to 
develop progressively more complex robotic missions to the 
surface of the moon with scientific and exploration objectives 
in advance of human return.
    In collaboration with our robust scientific activity across 
the NASA portfolio, these new lunar robotic missions will 
stretch the capability of industry and international partners, 
while returning science and knowledge we can use for human 
missions.
    For the deep space domain, the technology will drive our 
exploration there. As you both stated, both human and robotic 
missions help us solve the problems in space and on earth. It 
lays the groundwork for our future missions. We have some 
technologies we need to work on and we need to make sure we 
have those before we press further into space. Those technology 
investments will be focused on that, as you said, the longer 
term application and what we want to do in deep space.
    Our incredible science portfolio will continue to increase 
the understanding of our planet and our place in the universe. 
We will pursue civilization level discoveries, such as whether 
or not there is life elsewhere in the universe. I know that is 
of personal interest to you, Mr. Chairman, and we will scout 
for the knowledge to inform us where we want to take future 
human--do future human advancement.
    Our scientific platform activity includes a Mars rover, 
lander, and sample return missions, the Europa Clipper mission, 
which will further the search of life beyond earth, diverse 
earth science missions, and spacecraft to study the sun and how 
it influences the very nature of space.
    Powerful observatories, including the James Webb Space 
Telescope will study other solar systems and their planets and 
peer back to the dawn of time through other galaxies.
    NASA's work has always strengthened our security and 
economy and our ongoing research and testing of new aeronautics 
technologies is critical in these areas. As you know, we just 
announced the low boom flight demonstrator contract award last 
week. It is an exciting time for us. It is going to help us 
lead the world in the global aviation economy, with increasing 
benefits worldwide. We believe commercial supersonic flight, 
unmanned aviation systems and the next generation of aircraft 
are some of the critical focuses of this important program for 
our nation.
    NASA's mission will continue to inspire the next generation 
to pursue Science, Technology, Engineering, and Mathematics 
studies. We want them to join us on this journey of discovery. 
We want them with us. They need to be sitting in this chair one 
day, the kids that are out there today and we need to inspire 
them as we go forward. We will look for every opportunity to 
engage them.
    I do believe our budget this year places NASA once again at 
the forefront of the global effort to advance humanity's future 
in space and draws on our nation's great capacity for 
innovation exploration to raise the bar of human potential and 
improve life across the globe.
    On a personal note in closing, I want to thank the 
committee for supporting me during this time of being acting 
administrator. It has been an interesting time, I will say, but 
it has been great to have such proponents of what we are doing 
who work with us on a daily basis. I always felt like you guys 
had great support for the Nation's space program and I was glad 
to just be the face of it for 15 months. Thank you very much 
and I look forward to your questions.
    [The information follows:]

                       **********INSERT**********

    Mr. Culberson. Thank you. Thank you, Administrator. We are, 
each one of us, keenly interested in making sure that the human 
space flight program stays on time, on track. And concerned I 
know about the slips in the SLS program. I wonder if you could 
to talk to us about why EM-1 is slipping. What is on the 
critical path at this point? We have provided significant 
support for SLS to make sure it stays on track. We have made 
sure that you have got the additional mobile launcher that you 
are going to need to--for the exploration upper stage to be 
sure that SLS stays on track. What are some of the difficulties 
or problems that are causing the slippage in EM-1 and what is 
the status of the European Service Module? That is a real 
source of concern that that critical piece is in the hands of 
somebody else that we are relying on.
    Mr. Lightfoot. Yes, so as you know, SLS and Orion continue 
to make good progress. We moved the targeted date to December 
of 2019 and we said we would have four to six months of risk 
associated with that when we first changed that. Orion is on 
track. It is doing fine. The European Service Module and the 
core stage are our two items that really pace each other on the 
critical path, depending on really what week you are at.
    Most of the challenges we are having are because this is 
the first time we are building these pieces of hardware. And 
so, with first time build things pop up and occur.
    Mr. Culberson. What is popping up?
    Mr. Lightfoot. Well, just what I would call for European 
Service Module, for instance, valves that are provided by a 
company in the U.S. We are having trouble getting the valves to 
them. Some of the design challenges with some of the tanks on 
the SLS side, some of the welds we had a real struggle getting 
some of the welds to work to the strength that we thought we 
needed.
    Now the sections of the core stage, what we call the engine 
section which is where the--all the RS-25s are going to be 
mounted in the bottom. Just the physical amount of work inside 
that engine section, you just don't have enough room to get 
everybody in there that needs to be working at the same time. 
We are learning the process flow situations. The testing so 
far, the hardware that we have taken forward for structural 
testing has worked out fine. We have had really good results so 
far. We are pretty confident.
    Mr. Culberson. They are building two of them?
    Mr. Lightfoot. We are building the structural articles. We 
are building the ones for the first launch. We already started 
processing even for EM-2. I think it is fairly important that 
everybody remembers we are not just building one launch 
vehicle, we are building a program that we can launch once a 
year to bring these elements that we need to deep space.
    Mr. Culberson. What is your estimate, best estimate, of the 
launch of EM-1?
    Mr. Lightfoot. Of EM-1? We are still working to December 
2019. I think we have lost a couple of months just that we are 
trying to get back. I don't know if we will, honestly. I think 
that is where we are. We are still within the four to six 
months that we talked about before.
    Mr. Culberson. That is a result primarily of problems with 
the service module?
    Mr. Lightfoot. The core stage.
    Mr. Culberson. The core stage?
    Mr. Lightfoot. Those two I can tell you we meet quarterly--
--
    Mr. Culberson. Right.
    Mr. Lightfoot [continuing]. Or I meet quarterly with them. 
They get a lot more meetings with other people, but I meet with 
them quarterly and those two battle back and forth.
    Mr. Culberson. I had heard that one of the problems of the 
core stage is difficulties with the solid rocket engines, the 
exhaust. Is there any problem with the heat or the exhaust 
produced by the solid rocket motors causing any damage or 
problem to the rocket nozzles on the liquid fuel center stage?
    Mr. Lightfoot. Yes. To kind of summarize where that one is, 
we think we are going to get past that issue. We are not that 
worried. That is not a driver. The issue is that if you go back 
to the shuttle program, the main engines, which are the version 
of the RS-25 that we are flying now, space shuttle main 
engines, they were located geographic, if you think height-
wise, they were much higher than the exhaust of the boosters. 
On SLS, they are pretty close to each other from a height 
perspective. When the engines start, you get heating, and then 
when the boosters start you get heating.
    The question is will the heating affect the main engines 
differently than what we saw under the shuttle program. That is 
what we are working on. I don't think that is going to be a 
show stopper at all.
    Mr. Culberson. OK. What are some of the other problems of 
the core stage?
    Mr. Lightfoot. Like I said, the welds, getting the welds 
done on the tanks to make sure they have got the right strength 
that we are----
    Mr. Culberson. I thought that was solved with the stir?
    Mr. Lightfoot. It is. We went with friction stir welding on 
this. If you remember, we had a challenge with that to start 
with. Getting through those first builds of that were 
important. We have gotten those through now, but it is one of 
the reasons that we had a delay.
    We have done our proof test on some of the tanks and we are 
comfortable with that. The other big piece right now is the 
engine section, which is the part where the tanks mount into a 
structural piece and the four engines, four liquid engines, sit 
in the--the RS-25 sit in the bottom there. The space to work 
inside of there is limited, so the amount of work we have to do 
in there, I can't put as many people in there as I would 
normally do.
    Mr. Culberson. Sure. Now, I heard you mention you think you 
have already had a few months slip, so you are already looking 
at early 2020?
    Mr. Lightfoot. Yes.
    Mr. Culberson. For the first launch?
    Mr. Lightfoot. I think that is when it will be right now. 
That is what I believe. We are also trying to work to see if we 
can pull that back. I just don't know if we can.
    Mr. Culberson. OK. When will you have launch cost estimates 
available for SLS? I have heard estimates ranging from 500 
million to a billion for each launch and that is certainly not 
sustainable and something I know that the subcommittee, all of 
us, would like to get--see you do a better cadence. The more 
you launch, the more you bring that cost down.
    Mr. Lightfoot. Right. I think right now we are still 
sticking with the same number that we showed last year because 
we haven't gotten through the first builds of all these yet.
    Mr. Culberson. Which is?
    Mr. Lightfoot. It was 0.9 to 1.2 billion. We know it is 
going to come down. We just don't know what that is yet. We 
have got several initiatives in place for affordability and 
issues. We are working with each contractor on how do you get 
more----
    Mr. Culberson. It is crucial.
    Mr. Lightfoot. Absolutely. We know it is crucial. Those are 
the initiatives we have in place. Once we get through the first 
builds, we will have a better feel for what it is going to take 
from a sustaining perspective. That is where we are today. We 
don't want to change that number yet until we get the first 
build done.
    Mr. Culberson. I am confident a private sector commercial 
company is going to help also drive down that cost.
    Mr. Lightfoot. I think so.
    Mr. Culberson. Competition is always a good thing.
    Mr. Lightfoot. Yes, sir.
    Mr. Culberson. Thank you very much. Mr. Serrano.
    Mr. Serrano. Thank you. I also support the Chairman going 
up in space, but only on--with the condition that he allows me 
to be the one who wakes him up with one of my opening 
statements. And that is--that will guarantee that he will 
oversleep, but anyway. Badumbump.
    Mr. Lightfoot, as you have----
    Mr. Culberson. We are casual today.
    Mr. Serrano. I tried it as a career and it didn't work, so 
I said why can't it work here. You know?
    Mr. Kilmer. You want someone else to do the badumbump?
    Mr. Serrano. Yes. Yes. Mr. Lightfoot, as you have noted in 
your testimony, the administration is proposing significant 
funding over many years for a Lunar Orbital Platform-Gateway to 
enable missions on and around the moon. In an era of 
challenging federal budgets and competing priorities, what are 
the best arguments for how this is worthy of significant public 
investment? How will this program differ from the work of the 
Apollo program 50 years ago? Is there a case to be made that 
this is a new endeavor that pushes the envelope of space 
exploration or is this mostly a repeat of the activities of the 
Apollo program?
    Mr. Lightfoot. Yes, sir. I actually believe this is a new 
endeavor. We are going to stay. We are going on a sustainable 
approach, and we are also not just going to the moon. We are 
building systems that allow us to use those systems to even go 
onto Mars eventually. I think what I see as the value of this 
endeavor is so many things. The engagement of our industrial 
base in this country in a new endeavor is big. Our 
international partner relationship, including them, is going to 
be big. The biggest thing I think you are going to get out of 
this is a whole new leadership and inspiration piece that we 
bring to the next generation.
    If you go back to Apollo--that is one thing I would say is 
going to be like Apollo--if you go back to Apollo and you look 
at engineering schools before we tried to do what we did, the 
ripple effect of doing Apollo through our culture and what it 
did from an educational perspective, we expect the same thing. 
I think that is what great nations do is they take these 
challenges and it brings other people along with them. I think 
that is why it is worth it.
    Mr. Serrano. This object, what do we call it, what is going 
to go around the moon?
    Mr. Lightfoot. The Gateway. The Lunar Orbital Platform or 
Gateway.
    Mr. Serrano. OK. It will stay there for how long?
    Mr. Lightfoot. As long as we can keep it there. Several 
years. It will be reused. It will not have humans on it all the 
time. It will just be a platform that we can go to and from 
earth to there. Our objective, our thought is that we will use 
landers, whether they are scientific or human, and they can go 
to and from the moon to the platform. We can reload the 
landers. We can do everything we want to do from the platform.
    The other advantage to the platform with the propulsion 
system we are building is you can move it around. Unlike the 
Space Station which has a certain inclination, you know, we 
can't change this inclination today, around the moon you can do 
stuff on the back side of the moon. You can get in different 
areas with the propulsion system that we have got. It allows 
you to actually do science, study the sun, other kinds of 
science you can do that is not just lunar from the Gateway 
because you are not blocked by the Earth, things we can't do on 
the space station today.
    We had a conference in Denver about a month ago and we had 
74 or 75 strong proposals of things you could do that--yes, 
lunar science, but also other kinds of sciences you can do 
from----
    Mr. Serrano. Well, that was my next question. You know, we 
always know that we learn more every day, but what do you think 
will come out of this, or you expect to come out of this, that 
we didn't learn before?
    Mr. Lightfoot. Well, I think if we go for the long duration 
here, we are going to talk about learning what we can do with 
the--the goal would be with these landers is the first ones 
will go almost as our scouts to start to tell us where to go 
look for volatiles in the regolith surface of the moon. We will 
take another set, then go back and see what can we prospect. It 
will be like a step up one version. We will start trying to 
prospect to see if--to say there is water ice there. Can we 
pull that ice out and can we then--do something with it because 
it could become propellent, for us to use in the future or a 
source of oxygen if we need it in the future.
    Ultimately that would lead to human landings, and we would 
go there in a more sustainable way. All of those things we are 
doing are things we are going to need to do if we ever go to 
Mars. These are the kind of systems we are going to have to 
build. It is different at the moon, because there is no 
atmosphere, but there are still life support systems and things 
we will have to work on.
    That is just at the moon. The platform itself is going to 
have the ability to put instruments on it just like we do on 
the space station to look out from an astrophysics perspective 
or look at the sun from a heliophysics perspective when you are 
not blocked by the earth.
    Mr. Serrano. Right. One more question here, Mr. Chairman. 
The Trump administration is proposing a significant cut to NASA 
STEM education efforts, including the complete elimination of 
the Space Grant Program and the Minority University Research 
and Education Program. To what extent could the elimination of 
these programs hurt the nation's ability to produce impressive 
numbers of talented space scientists? To what extent would it 
compromise NASA's ability to continue to attract a talented 
future workforce?
    Mr. Lightfoot. Yes. If you remember last year we talked 
about this. We had proposed a cancellation of the education 
program then, and in the 2018 approps it was put back in. We 
are ready to execute as we were asked to do in 2018. What we 
also did last year is a study on how to be more effective with 
our STEM engagement. You are going to see soon an 
organizational change that comes up and instead of the Office 
of Education, we are going to call it the Office of STEM 
Engagement, Next Generation STEM, so that we are focused on 
that next generation with the education office we have.
    In this FY 2019 proposal, we proposed again the 
cancellation of it. Our focus is going to be more on what can 
we do through the missions, what can we do through 
International Space Station down links and things like that--
astronauts in schools. That is going to be how we are going to 
try to inspire the next generation as we go forward. We think 
we have got mission--I would call it mission excitement that 
gets people inspired again to go.
    Our missions and our centers actually fund a lot of 
internships. If you look at the amount of internships NASA does 
each year, we do about 1,400 and over 1,000 of those are not 
funded by the Office of Education. They are funded by the 
missions and the centers themselves. We think we still have a 
good footprint to be able to inspire and bring in the next 
generation.
    Mr. Serrano. You know, Mr. Chairman, in closing, one of the 
not well-kept secrets is that years ago, NASA went to the 
University of Puerto Rico, Mayaguez campus. Mayaguez happens to 
be a place where I was born. And since then, there has been a 
very serious presence of people graduating from that campus and 
then going on to NASA.
    Mr. Lightfoot. We still recruit heavily there.
    Mr. Serrano. It certainly would make both of us very happy 
if that relationship continues.
    Mr. Lightfoot. Yes. We still recruit heavily and I think we 
have got a CubeSat coming from one of the universities in 
Puerto Rico----
    Mr. Serrano. That is right.
    Mr. Lightfoot [continuing]. Flying here pretty soon.
    Mr. Serrano. Yeah. Thank you, Mr. Chairman.
    Mr. Culberson. Strong support for that education program, 
whether it be New York, Pennsylvania, Washington State, 
Alabama, Mississippi, all over the country. We are glad you are 
keeping it intact. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. Administrator 
Lightfoot, it is great to see you again. Congratulations on 
your retirement. Thank you for your leadership at NASA and your 
decades of service. It doesn't go unnoticed and it is very 
appreciated.
    Mr. Lightfoot. Thank you, sir.
    Mr. Palazzo. So I will just jump straight into it. My first 
question is can you please describe how the fixed price 
programs have encouraged innovation while controlling cost? I 
am specifically referencing the COTS Program?
    Mr. Lightfoot. Yes, what we have seen is that through the 
fixed price processes we have relinquished a little bit of what 
I would call our control, but we have also learned from those 
programs. Those folks have come in with new ideas and new ways 
to approach what they are doing for us from a delivery of 
hardware.
    We are learning from them, but we are also providing them 
feedback in areas that we have enough insight and oversight in 
the process to allow us to actually say okay, no, that won't 
work. They have also challenged us on our requirements. I have 
seen learning going both ways. I think that is what has been 
the most positive thing about it to me is we are learning from 
some of the, what I would call different suppliers than we have 
had in the past. I would say they are not constrained by our 
history in some ways. But we are also able to articulate why 
our history is what it is and where we can do that. We have 
struck a pretty good balance there. It has been interesting to 
see both sides learn from each other.
    Mr. Palazzo. I assume NASA found it essential to pursue 
other ways of having, you know, because with the limitation of 
funds and NASA's flat and stable budget, you know, you had 
the--and we want to focus on deep space, and going further, and 
deeper, that this was just a natural ascension to--for 
commercial companies to come into low earth orbit?
    Mr. Lightfoot. Yes, we think the public/private partnership 
process is working pretty well for us and think we can extend 
it. We still have to make sure we have the right level of 
oversight from our perspective going forward.
    Mr. Palazzo. With President Trump signing the NASA 
Transition Authorization Act of 2017, have the attitudes or the 
morale in NASA, how would you gauge that as the administrator? 
Because I kind of feel like the seven years I have been 
involved in NASA, it seems like when there was no mission, no 
roadmap, it was like where are we going. It just didn't seem 
like there was a lot of motivation. Can you tell me now that 
there is roadmap, we are putting funding, into the systems, 
what just your thoughts are, what are you seeing?
    Mr. Lightfoot. Yes. I think what I have seen, probably the 
biggest impact on that, Congressman, is that the National Space 
Council and the Vice President's engagement--obviously the 
President's engagement, but the Vice President's engagement has 
been a tremendous boost to our teams. He has been to four of 
our centers, or three of our centers, but one of them twice 
since he has been on board. He gave us the action, NASA the 
action to do the 45-day study on the lunar plans and that is 
what is codified in this budget.
    I would say historically, not even in the last seven years, 
but in my experience in my 29 years is we do a lot of those 
kind of studies and plans and they end up on a shelf.
    Mr. Palazzo. Right.
    Mr. Lightfoot. These guys actually put it in the budget. 
That is a pretty exciting thing for us and from a human 
spaceflight side, they are rallying around in a big way. The 
aeronautics guys are excited because they have the first big X-
plane they have had in a while. I think the morale is pretty 
good and people are pretty focused on what we are going to do.
    The plan which we provided to the Administration, and which 
they supported with some tweaks along the way was it really 
provided this kind of roadmap for what we want to do in the 
decade of the 2020s. We kind of knew what we wanted to do in 
the 2030s, get to Mars. We knew what we were doing now with the 
ISS. This really filled a gap for us in terms of defining the 
mission set that we need to do in the 2020s.
    I think people are excited about what we are doing.
    Mr. Palazzo. That is good. That is fantastic. I have been 
reading in the news this week where there seems to be a lot of 
articles talking about there is probably going to be some form 
of war in space in the future. We are constantly struggling and 
having a defense background and formerly being on the Armed 
Services Committee and career reservist and guardsmen, you 
know, we know the near peer competitors are challenging us, 
Russia, China, others. Maybe not in the civilian space domain, 
even though we do partner with Russia a lot and on the 
International Space Station.
    Going back to the history of NASA, NASA was very vulnerable 
in theft of secrets compared to other military and scientific 
agencies. You know, there was 2015 Langley Chinese--someone was 
sponsored and he had access to a laptop. There was the network 
hacking that we thought the Russians and Chinese were involved 
in. And so this is, you know, the absolute theft of our 
information on satellites, rocket engines, our space systems. 
And, you know, we spend billions of dollars--we spend in 
appropriation billions of dollars and we are putting all of 
this money, all of the work into it, the brain, energy, and 
they just come in and steal this stuff.
    And what we have noticed previously under the prior 
administrator was that there seemed to be a lax attitude at 
some point. Can you tell me, have we cracked down on that? You 
know, are the scientists and the NASA employees, are they 
taking this seriously that we can't let laptops walk out of the 
buildings in Ames, or Langley, and places like that?
    Mr. Lightfoot. Yes. I think we have had a pretty good 
campaign internal to the agency about those threats and about 
the protection of that. When the situation occurred in 2015, we 
brought in NAPA to do an assessment for us on our Foreign 
National Access Program, for instance. And we learned a lot 
from that and we are still implementing some of those 
recommendations.
    It was kind of sequential. You couldn't do them all at 
once. You had to get this done, then you could do that. We are 
about done meeting all of those and we have met all of the 
milestones required.
    In the cyber world, our teams are working really hard. Our 
CIO, we actually increased the budget for that this year in our 
2019 submit to try to help--make sure we have got all of the 
tools in place we need to know when we are being--when we have 
the potential releases.
    The challenge, honestly, for us is culturally. In 1958, we 
were stood up as a wide open, share everything organization. If 
you read the Space Act, it is supposed to be civilian and 
share. We have had a lot of progress in that area because we 
had to. We had to, right? In 1958, nobody thought this was the 
kind of thing we would be dealing with, but yes, we have had a 
lot of progress, sir, and I think we are making--I think our 
CIO is making great progress.
    I have also started up what is called an Enterprise 
Protection Program inside the Agency, which looks at ground 
systems, the integration of ground systems, flight systems, and 
the potential threats to those so that we have a way of 
managing and we work with other government agencies to 
understand the threats that we might not know because we are 
again, we are a civilian Agency. We work very closely with 
other agencies to understand threats to our systems, here on 
the ground but also in space and in the air.
    Mr. Palazzo. Thank you, Administrator. Thank you, Mr. 
Chairman. I yield back.
    Mr. Culberson. I hope you are also complying with the 
language we have got in our bill that requires NASA to ensure 
that any telecommunications, information technology systems 
that you guys purchase, that you have to certify--have the 
FBI--get the FBI standard certifications.
    Mr. Lightfoot. Yes. We also have that with the visits that 
we have with potential visits with the Chinese. We have the 30-
day requirement where we have to go through the FBI, all of 
those things. We are still confirming with----
    Mr. Culberson. Keep the Chinese out of our business as we 
can, thank you. Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman. And thank you, Mr. 
Administrator, for being with us. I want to start by asking 
about--and we have been looking at efforts to sort of further 
promote the development of the commercial space industry. And 
we have heard that space situational awareness is a critical 
step to safe and effective operations in space. And I know that 
NASA currently works with the U.S. Air Force on space 
situational awareness, providing services for robotic and human 
space flight missions and on research associated with better 
understanding space debris.
    Given that NASA operates, you know, dozens of U.S. 
government spacecraft in earth orbit, could you speak about how 
essential that established relationship is to your successful 
operations in orbit?
    Mr. Lightfoot. Yes, we use the Air Force to help us with 
our warnings that we need associated with things that could be 
getting close to our spacecraft so that we can do what we need 
to do from a maneuvering perspective. We are dependent on that. 
As you know, there is a lot of debris up there and there are a 
lot of things we have to pay attention to. We routinely get 
warnings and we routinely move the things we need to move 
around to avoid them. I think overall the orbital policy part 
of this is something that we have already talked to Space 
Council about how this would be a good thing for the Space 
Council to take up so that everybody knows what swim lane they 
are in. Everybody, not just us, Commerce, Transportation, and 
the DoD, we all have an interest in this. I think that is 
something right now is pretty clean and we are trying to make 
sure it stays that way in terms of those relationships.
    Mr. Kilmer. I guess I wanted to get at the particular value 
of the kind of the established relationship with the Air Force 
on this front.
    Mr. Lightfoot. It is critical to us, I don't know how else 
to say it any other than we have quite a bit of partners in 
there. Our teams work with their teams daily.
    Mr. Kilmer. OK.
    Mr. Lightfoot. Based on the emails I get, daily----
    Mr. Kilmer. OK.
    Mr. Lightfoot [continuing]. Is what I would tell you.
    Mr. Kilmer. I want to ask another issue that kind of 
piggybacks on that. And, you know, we are--I am from Washington 
State. We have actually seen amazing emergence of private 
industry on this front: everything from Blue Origin, and space 
flight, and SpaceX, and Aerojet, Systema, and you know, all of 
these companies. Some get significant NASA support, but also 
inject a whole bunch of private funds into advancing the 
mission.
    At the same time, we have got some universities, U-Dub, 
Washington State University that also do some outstanding 
research and education programs that--some of which are funded 
by NASA, and again, sort of advance the mission.
    You know, we have been thinking in our office about sort of 
that intersection, the interface between the private sector and 
public educational institutions and NASA. In the Pacific 
Northwest and in some other states too, like Colorado, where 
there is no permanent mission directorate, you know, I think 
there is a concern about lost opportunities, you know, sort of 
to advance the U.S. mission in space.
    So I guess I was looking for a little bit of--maybe this is 
an overly parochial question, but it is not intended to be. You 
know, so how can states that don't have a permanent mission 
directorate work more closely with NASA to create those 
synergies and enhance those ties between the private sector and 
NASA?
    Mr. Lightfoot. Yes, I think what we can do, and I would 
like to offer to provide it to you, we have several offices 
that people can reach into, emerging space kind of activities 
that they can do, but not just space. We will get that to you 
for the record so you can provide it to your constituents 
whenever--hopefully, they come to us.
    Mr. Kilmer. Yes.
    Mr. Lightfoot. We have several ways that they can get to us 
to help with our missions. We meet with industry pretty 
routinely. We have several different ways: whether it is small 
business, HubZone, even large industry to try to show what we 
are doing. Next week, I am at Colorado Springs for the Space 
Symposium. We are having industry come in. I am meeting with 
Blue, for instance, about what our big roadmaps are and see 
where they can--where they think they can come in.
    That is the way that we do it through these space offices 
that we have. I will get you that information and make sure you 
have that. If somebody asks you about it, you can tell them 
where they can reach out and get in touch with us.
    Mr. Kilmer. Yes.
    Mr. Lightfoot. I think we have a pretty good program for 
not only working with universities, but also any businesses 
that want to come, and we want them to come. We need the help. 
We have got a large task in front of us with this exploration 
campaign.
    Mr. Kilmer. Yes. Terrific. I appreciate that. I think even 
our local economic development leadership is very interested 
in, you know, how do we further foster this.
    Mr. Lightfoot. Yes. By the way, several of the local 
economic development for areas, they come see us quite often, 
right? They come in and we meet with them and say this is what 
we are doing and they take that back. We are also open to those 
kind of discussions as well.
    Mr. Kilmer. Super. Thank you. I know my time is up. I yield 
back, Chairman. Thank you.
    Mr. Culberson. Thank you very much. Mr. Aderholt.
    Mr. Aderholt. Thanks, Mr. Chairman. Administrator 
Lightfoot, welcome. It is a bittersweet day because I am 
pleased to have you here today in Congress, but it is sad to 
see you retire and we appreciate your service, as I mentioned 
before. But as I have also mentioned, I know you have a bright 
career ahead of you in the next chapter of your life.
    I have a feeling that you won't be going to a retirement 
home anytime soon. Especially knowing that you and I are about 
the same age. As I have mentioned before, you and I share a 
same first name. Our wives share the same first name. But also, 
we share a desire to see NASA remain a healthy and bold Agency, 
not only for this nation, but as a leader for the world and 
human achievement in the sciences and also in exploration.
    I want to explore a couple of topics with you. So I have a 
couple of questions as we move forward. Like one of your 
predecessors, someone I think we probably both greatly respect, 
Mike Griffin, I think we should continue to explore innovative 
ways to let companies compete for business in terms of letting 
public funds and private funds work together faster on 
appropriate projects.
    What concerns many of us, at least at times, is the desire 
of some persons to make it an all or nothing for either of 
these parties. And that leads to some inaccurate attacks on our 
government programs and some exaggerated claims for private 
sector efforts which have not been fully demonstrated. Would it 
be correct to say that the SLS program, the Space Launch 
System, is very close to the $9.7 billion development price 
that was carefully negotiated back in 2011 between NASA and the 
prime contractors?
    Mr. Lightfoot. I believe we are.
    Mr. Aderholt. Yes.
    Mr. Lightfoot. Yes.
    Mr. Aderholt. Also, is it correct to say that the 
capability of a rocket to take large, heavy payloads to space 
and insert those payloads, often has to do with whether it is 
vertically integrated as opposed to integrated in a horizontal 
position?
    Mr. Lightfoot. That is a part of it. You can do things in a 
vertical integration that you can't do in a horizontal. But you 
can still take a lot of payloads from a horizontal perspective 
as well. The big one definitely is easier from a vertical 
perspective, though.
    Mr. Aderholt. The SLS would be vertical, right?
    Mr. Lightfoot. Yes.
    Mr. Aderholt. Vertically integrated?
    Mr. Lightfoot. Yes, sir.
    Mr. Aderholt. Has any of the individual private sector 
launch companies invested in building their own vertical 
integration infrastructure or are they expecting the government 
to build those facilities free to the companies?
    Mr. Lightfoot. I am not aware either way, honestly. I have 
seen proposals, but I don't know if they have invested any of 
that yet from that standpoint.
    Mr. Aderholt. But you are not aware that they invested?
    Mr. Lightfoot. No.
    Mr. Aderholt. OK. My understanding is that the SLS, even if 
its first version carries 70 to 90 metric tons to orbit, would 
it be safe to say that it would be difficult for other heavy 
class rockets to carry more than 10 metric tons to orbit, as 
long as they remain integrated in a horizontal position?
    Mr. Lightfoot. Can I get that data back without trying to 
do it off the top of my head?
    Mr. Aderholt. OK.
    Mr. Lightfoot. We can get you the comparison--
    Mr. Aderholt. All right.
    Mr. Lightfoot [continuing]. From that standpoint. I do want 
to say the big thing about the SLS is it is human rated. It is 
being designed as being human rated from day one, and that does 
bring some other----
    Mr. Aderholt. Dynamics to the table that you don't----
    Mr. Lightfoot [continuing]. Dynamics to the build that 
aren't on some of the other vehicles that are being built.
    Mr. Aderholt. Well, I think it is clear that SLS remains a 
valuable national asset for a couple decades, and we--of 
course, we see other companies working to increase their 
payload capacity. As you know, the shuttle had a very large 
payload and my understanding is that you could fit a school bus 
in the payload.
    To construct the International Space Station, it would have 
taken many dozens of launches of rockets that we now use to 
take the cargo to the station, and that would, of course, have 
been very costly. Can you comment on the significant length and 
circumference of the SLS fairing and how it makes SLS relevant, 
both to government missions and for partnerships with 
commercial launch vehicles?
    Mr. Lightfoot. Yes, I think the advantage to the large 
size, the large diameter that we have for SLS, is that if you 
look at a mission like James Webb that we have today, a lot of 
the construction and design is associated with folding 
everything up so that it fits inside the fairing, right?
    Mr. Culberson. Of the Ariane?
    Mr. Lightfoot. Of the Ariane, yes, or whatever launch 
vehicle you have got, which is smaller than what we are talking 
about here.
    Mr. Culberson. How big is the Ariane berth?
    Mr. Lightfoot. Don't make me do that off the top of my 
head, Mr. Chairman.
    Mr. Culberson. How big is the SLS fairing?
    Mr. Lightfoot. I don't want to do that one either. I will 
get you the information, exactly, because we have different 
versions we are looking at, but I think the big challenge there 
is you can change your spacecraft design.
    So often we talk about mass. We worry about mass, how hard 
it is to get mass. Volume is just as important. If you have a 
large volume and you can put--you can actually not have to fold 
things up, there are mechanisms you don't have to deal with 
that can fail when you get on orbit. That, to me, is the big 
value.
    Plus if you can do a big piece, you can do all your 
integration testing on the ground. It is all integrated on the 
ground instead of putting it together in space. We put the 
space station together piece by piece. It took several 
missions, just like you said, to get it to that point, and we 
had to deal with a lot of integration challenges, you know, 
making sure the parts were going to work when we got up there.
    If you can put them all together in one piece and throw it 
one time, that is a huge advantage. I think the other advantage 
SLS has is you can actually--what we call the trunk, the area 
behind the crew module, you can actually take hardware. You can 
take the crew and the hardware at the same time so that if you 
have anything that you have to deal with, you have got people 
there to work on it. That is some of the bigger pieces.
    The big one to me, the big qualifier is we are building it 
human rated to start with, and it can take crew and cargo.
    Mr. Aderholt. All right. Thank you. I think my time is up, 
so thank you.
    Ms. Meng. Thank you, Mr. Administrator for your service and 
for being here today.
    My district in Queens, New York is between LaGuardia and 
JFK Airports. Aircraft noise, pollution is consistently one of 
the top concerns for my constituents. We have met with NASA. I 
know that NASA is investing in air traffic management 
operations which would limit the effect of noise, particularly 
in communities around airports. We also know that NASA has been 
working on developments in terms of potentially quieter engines 
as well.
    The Aerospace Operations and Safety Program was cut by 
almost a quarter. What are you doing, or what can be done, to 
address airplane noise, and what kind of commitment can we get 
that this proposed reduction won't affect this important flight 
noise research?
    Mr. Lightfoot. Yes, we think we still have a really good 
plan in place for that. The things we are doing--we believe our 
job is the research and technology, and working with our 
partners at the FAA is how do we reduce noise because that is 
one of the largest, challenges with the infrastructure we have, 
and it actually limits our capacity in the airspace, for what 
we can do.
    There are several things we are working on that start with, 
to your point, immediate things that we can do with the current 
air systems we have. That is what the teams are working on, but 
the bigger things we are working on that I think are important, 
are things like fairings in front of the landing gear. Landing 
gear are actually one of the loudest noise generators that you 
have. We are building special fairings that will cut that noise 
down. We are doing research on that, can you put a fairing, 
almost a block, in front of that so they still perform their 
function, but to reduce the noise.
    We are looking at new airframe designs other than--today 
what we would call tube and wing, a standard airplane that 
everybody sees a tube with two wings. We are looking at 
different designs that actually put engines on top so that they 
protect the noise--the body of the aircraft actually protects 
the noise from the environment around.
    Those are the kind of things we are working on, the 
research we are working on, but it is very researched, and then 
once we get to a point where we think the research is at the 
level where we can implement, then we begin to work with our 
industry and our FAA partners to say OK, how are we going to do 
this going forward? We have several areas of research we are 
trying to work on noise. It is always going to be something we 
work on because we think that is being environmentally 
responsive, right? That is what we do, so.
    Ms. Meng. Thank you. I am also deeply concerned that the 
budget request for NASA proposes to entirely eliminate NASA's 
education program. As a mom of two young boys in Queens, New 
York, and I have also met with young students, college and 
graduate students, and scientists who have talked about how 
they benefitted and were inspired by NASA's education programs, 
we have had programs for many years throughout Queens and 
throughout New York City at colleges and for college, and even 
younger, students. Just last year, I took my kids to NASA's--
one of their traveling exhibits that I have a picture right 
here, and they got to experience, for the first time, the 
amazing work that NASA does.
    At a time when the administration is proposing to grow 
NASA's space exploration capabilities, how can you justify 
cutting programs that will literally and directly impact this 
next generation of scientists?
    Mr. Lightfoot. Yes, we did the balance of the entire budget 
for 2019, our goal was to use the missions that we do. You 
showed a picture there of a EVA, a spacesuit, that we take out. 
We do those exhibits through the mission program--the missions 
as well, not just through the Office of Education, and we think 
we have an opportunity through our missions to still inspire 
folks as we go forward.
    As I said earlier, the missions in the centers that we have 
throughout, they fund things like--the internships is a great 
example of where we have 1,400, but roughly 1,000 of those are 
funded not by the Office of Education, but the other missions. 
We still think we have things in place. I am sure that will be 
a point of debate, as it was last year. I understand the 
concerns, this is just the balance of the dollars that we made 
a decision on that.
    Ms. Meng. Great. We, in New York City, and specifically in 
Queens, New York, we have so many historically under-
represented communities and children, and any ways that we can 
partner together to, in the future you and your team, to bring 
these programs into Queens, we would love to collaborate.
    Thank you. I yield back.
    Mr. Culberson. Ms. Meng, remind everyone of the ages of 
your sons.
    Ms. Meng. Eight and ten.
    Mr. Culberson. That is exactly the right age----
    Mr. Lightfoot. Perfect age.
    Mr. Culberson [continuing]. To be inspired.
    Mr. Lightfoot. Yes.
    Mr. Culberson. Thank you.
    Ms. Meng. Thank you.
    Mr. Culberson. The chair would recognize the gentleman from 
Kentucky.
    Mr. Rogers. Well, Mr. Chairman, thank you. Thank you very 
much for the recognition. Mr. Administrator, good to see you 
again.
    We enjoyed our visit when you came to Kentucky some time 
back, and saw that exciting new space science curriculum and 
building at Morehead State University, turning out graduates 
with degrees in space exploration, which is phenomenal to me in 
a small mountain university that is doing--making satellites 
and programming satellites, and they have that dish there, 
which is one of your, what, 9 or 12 tracking stations 
worldwide?
    Mr. Lightfoot. Yes, for the space communication network. 
Yes, sir.
    Mr. Rogers. The only one that is not owned by NASA. So we 
are going to charge you rent for that.
    Mr. Lightfoot. OK. Lovely.
    Mr. Rogers. Anyway, congratulations on----
    Mr. Lightfoot. Thank you.
    Mr. Rogers. [continuing]. What you are doing. When I was a 
younger guy--and I can speak for I guess most Americans in this 
regard--when I was a younger guy, the NASA name was gold and 
magic. It was an inspiration to people like me at that time. It 
got me back in school and enrolled in physics. Well, I wanted 
to be a part of the space program, but the university wanted me 
to study math. I wanted to shoot rockets right off. It inspired 
people of my age to do some magic things, and NASA has done 
just that through all of the moon landing sequences that we 
went through.
    With that landing on the moon, the first man, the magic 
quickly wore off. We had beat the Russians to the moon. We had 
successfully landed a man on the moon and brought him back, and 
we quickly moved to other ambitions in the country. That first 
landing on the moon was the apex, if you will, of I think of 
that period of time.
    What I want to ask you is how can we recapture that magic 
time which meant so much to the advancement of science and 
manufacturing, and everything else in this world, 
miniaturization, electronics, and cyber everything, how can we 
recapture that magic time?
    Mr. Lightfoot. For me, right, since I was an outcome of the 
Apollo generation. I wasn't in the Apollo generation. I was 
watching it on a black and white TV, I think, when I was six or 
seven, right? I honestly believe we still have a magic time.
    I was part of building the ISS and part of launching space 
shuttles that put Hubble up, that put those up, some of the 
greatest observatories we have done. Now we have this orbiting 
platform called the International Space Station, just amazing, 
that has been--that has had humans on it continuously for 18 
years. That means the kids that graduate from high school this 
year will have never lived a day in their life without someone 
living in space.
    The challenge to me is not that we don't have the magic, 
the challenge is educating people on what that magic is, to 
your point, right? I think when we go back to the moon, and we 
go back not to just go to the moon by itself, but go to it in a 
sustainable fashion that we are proposing in this budget, you 
are going to inspire not only the NASA team, but you are going 
to inspire international partners and our industry partners in 
this country to go along with this.
    I think that is the thing--you know, it has been 50 years. 
Think how many people weren't there. I mean, I am going to more 
meetings now when you ask who was there when we landed on the 
moon where the arms are--there are fewer arms going up than 
there used to be, and I think that is what we want to do is 
capture that imagination. That is a good next step on our way 
to Mars.
    The thing about Apollo was we went and we stopped. Now, we 
need to go and stay, and I think that is what we are proposing 
here, and also not just stay at the moon, but be thinking about 
going to Mars, and that is what this exploration campaign that 
we have been asked to put together by the administration does. 
I think that is going to get the people inspired and ready to 
stick with us.
    Mr. Rogers. Yes, we didn't have another goal to take up 
after we reached the moon. We threw away all the experience, 
and all that talent, and all that manpower, and training, and 
equipment, and understanding. All of that was more or less 
thrown in the trash heap. Now, we are sort of having to start 
over again, which is a huge cost, but also a good deal of 
stupidity that we did not have a followup follow on 
(inaudible).
    I think one of the main reasons that era, that time, so 
captured everyone's imagination was it was a race with Russia, 
the Soviet Union. The nation successfully transformed that 
competition into a real concrete and speeded up process. Can we 
recapture that kind of imagination without something like a 
race against the Soviets? Do we have to have something like 
that to make it appealing to us?
    Mr. Lightfoot. I am probably biased because I am in this 
business. I don't think I need the race. I need more than one 
year at a time thinking, right? I need multi-decadal thinking 
for what we are trying to do, and to me that is the difference, 
right?
    I think what we have gotten from this administration this 
time is--when the Vice President asked us to put together this 
45-day study, it is roughly a two-decade plan, and if we can 
stick with it, I think you are going to see that it is not just 
low earth orbit where the International Space Station is. It is 
that, plus the moon, plus keeping an eye on Mars.
    To your point, when we went to the moon, we won, and we 
kind of we didn't have anything else--we didn't have that next 
thing there. Now, I have still got Mars there. I have got 
several things there as the next piece. I think, to me, I 
think--you know, in my opinion, I don't need the race, but I am 
also part of the team. I love what I get to do every day. I 
don't know the interests outside of my team. We are kind of 
buffered by the fun things we get to do every day to pursue 
this exploration journey. I think the magic is there.
    Mr. Rogers. More power to you, and I will always want to be 
helpful in your success.
    Mr. Lightfoot. Yes, and I--by the way, I did enjoy my visit 
to Kentucky. Ben Malphrus is doing some amazing things there. 
Fascinating. They are going to fly a CubeSat on EM-1, the first 
SLS Morehead had, and they showed me the CubeSat they are 
building. It is pretty fascinating.
    Mr. Rogers. Thank you. They enjoyed your visit.
    Mr. Lightfoot. Yes.
    Mr. Rogers. They were greatly excited.
    Mr. Lightfoot. Good folks.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Thank you, Mr. Chairman. Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman, and thank you 
Administrator Lightfoot for being here today and for many years 
of service.
    Mr. Lightfoot. Thanks.
    Mr. Cartwright. And I congratulate you on your impending 
retirement. I also want to commend you on the progress you have 
made in NASA and bringing about a new-- really a new space age 
that positions our country as the leader in commercial space 
revolution. But you just touched on something that I want to go 
into, and you said I need multi-decadal thinking, and I think 
that makes great, good sense, and it fits so squarely with the 
way NASA has always worked.
    And I want to go into that because NASA has unparalleled 
knowledge, and satellite engineering expertise that is 
virtually impossible to replicate in another agency. I am 
concerned about the deep proposed cuts to earth and climate 
science in this NASA budget. It almost represents an 
abandonment of the wisdom of our scientific community.
    Our own science agencies including NSF, NOAA, and USGS came 
together with university researchers and experts across the 
country to agree on long-term priorities in the 2010 
astrophysics decadal survey and the 2017 earth science decadal 
survey and--published by the National Academies of Science. 
These decadal surveys are the road maps for future science 
research. They are agreed to across all the agencies, major 
research institutions, and experts in the field. They are 
designed to enable coordination and cooperation on large scale 
and important science missions, and they are all about multi-
decadal thinking.
    But instead of respecting the expertise behind the 
recommendations in the earth science and astrophysics decadal 
surveys, the current administration is shelving our next 
flagship space telescope and cancelling four critical earth 
science missions that were highly prioritized in the 2010 and 
2017 decadal surveys, including one mission that is already 
operational and has been flying for over three years.
    And now, Chairman Rogers very wisely just mentioned the 
high cost involved in stopping and starting these missions, 
particularly when we are talking about decadal length types of 
missions. I want to go into that.
    NASA, more than any other agency, engages in these long-
term missions, and the question is how do abrupt deviations 
from these missions develop based on carefully constructed 
decadal surveys, increase costs for taxpayers, how correct is 
what Chairman Rogers said?
    Mr. Lightfoot. When we look at our science decadal that we 
have today that we just got, the 2017 one was just released, we 
are evaluating that now to see how it fits in our current set 
of portfolio missions. We still have well over 20 missions 
flying in Earth science portfolio, and we have 65 aircraft that 
we use for airborne science as well. We feel like we have got a 
good portfolio in our science. The focus for this budget simply 
was around exploration that I talked about a minute ago, human 
exploration with a mix of science in it.
    For the astrophysics decadal, you are talking about WFIRST, 
which is the mission that we are proposing cancelling, that was 
not based on science or based on progress. That was based just 
purely on the amount it was going to cost us to do that, and 
when we balanced that across the entire budget that we have to 
keep, it became a budget discussion more than it did whether we 
are meeting the decadals or whether we're not. That was the 
difference.
    Obviously, in the 2018 budget, all of those earth science 
missions, and WFIRST were put back in. We are continuing. We 
have been continuing on them--because we proposed the same ones 
in the earth science arena last year, except for RBI, which we 
cancelled for performance reasons, not for the reasons of a 
budget proposal.
    Mr. Cartwright. Well, WFIRST is being cut, right?
    Mr. Lightfoot. We are proposing to cancel it in 2019, but 
we are working on it fully because it was funded in the 2018 
appropriations.
    Mr. Cartwright. Well, there is the question. How much time 
and money has already been invested in WFIRST, for example?
    Mr. Lightfoot. About $320 million, and its estimated range 
right now is 3.2 to 3.9 billion.
    Mr. Cartwright. And how much knowledge and monetary 
investment will be lost if WFIRST is cancelled?
    Mr. Lightfoot. That would be speculation on my part. I 
don't want to go there, but it is--clearly, we have spent 320 
million, today.
    Mr. Cartwright. So the question is how can NASA guarantee 
to American taxpayers that we will see the benefits of the time 
and money that have been invested already in WFIRST?
    Mr. Lightfoot. Well, we clearly are working on instrument 
technology that we think can go forward into future missions, 
depending on how we go to capture the decadal science. You have 
to remember the decadal is about the science, not necessarily 
the mission. We are trying to figure out if we can do the 
science in a different way than what we are doing with this 
larger mission.
    Mr. Cartwright. And is it just WFIRST, or isn't it also 
PACE, and CLARREO Pathfinder, and DSCOVR, and OCO-3?
    Mr. Lightfoot. Yes, those are in the earth science side. 
The other one is astrophysics, but we believe we have missions 
today on orbit to give us data similar to what we would get out 
of those missions, and it becomes just a budget discussion 
around that as we go forward.
    Mr. Cartwright. I am out of time. I yield back.
    Mr. Culberson. Just to reinforce the subcommittee's 
agreement with where Mr. Cartwright is coming from, you know, 
we have--since I became subcommittee Chairman in FY2015, we 
have included report language directing NASA to follow the 
recommendations of the decadal survey in each of the major 
study areas, and the budget again is just a recommendation.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Culberson. We don't get too worked up over the budget 
because they need to follow--they will follow the 
appropriations bill.
    Mr. Cartwright. In that case, I will not be asking for a 
subpoena of the reasons for your rejection from NASA.
    Mr. Culberson. No worries. I have also--we are going to 
have a hearing--we are tentatively shooting for May 9th on the 
astrophysics decadal, and on the WFIRST, Webb, looking at the 
next generation of space telescopes and that precise question. 
We should be thinking long term and give NASA the freedom to 
plan more than one year at a time, and we will be working on 
that in this year's CJS bill as well.
    Mr. Cartwright. Thank you.
    Mr. Culberson. Mr. Jenkins.
    Mr. Jenkins. Thank you very much, Mr. Chairman, and I just 
want to thank you for your leadership. The time we have had the 
opportunity to talk, I appreciate your passion. You know, 
having the right people at the right spot at the right time, 
and I know that this area is your dream job. So thank you for 
your leadership. I only understand about every fifth word you 
describe. I am trying to catch up.
    Administrator, thank you for being here. Thinking about 
Chairman Rogers' very eloquent and appropriate reminiscing, you 
know, I am from West Virginia. The only rockets I shot off were 
little Estes rockets growing up, but my district is the home of 
Homer Hickam. My district is the Rocket Boys. My district is 
October Sky.
    What you have been asked about previously, and I know it is 
going to be a little bit of piling on and I want to associate 
myself with the comments and the questions you have been asked 
about the space grant and NASA EPSCoR programs, and just the 
whole investment in education and STEM inspirational efforts. 
It is about your future, our future, it is about the kids of 
West Virginia, or any state that are inspired to shoot higher, 
dream big.
    I am--like the others here, and I know it is somewhat 
repetitive, I just wanted to make sure you heard also from me, 
a very deep concern about cutting; elimination and reductions 
in what I see is the potential focus of NASA in the education 
programs.
    I know you have probably said it now multiple times, but I 
need to hear the reassurance again that you are going to 
continue and in what form and fashion to inspire education, and 
research, and STEM activities because this is your feeder 
system and we can't give up on our kids.
    Mr. Lightfoot. Yes, and as I have said earlier, we are 
proposing cancelling the education office, the Office of 
Education. For us, we are going to use our missions that we 
have through our mission directorates to inspire the next 
generation. We have several educational activities we do there, 
whether it is the internships we do, some of the research 
programs we have through space technology and those kind of 
areas. That is the way we are going to try fill that void.
    Admittedly, you know, that is going to be a concern. 
Whether that can actually fill the void or not, I understand 
that completely going forward, but that is the way we have done 
it, and all I know is as long as we are getting appropriated 
the money, we will have an education office that executes what 
you guys have asked us to do.
    Mr. Jenkins. Why don't you--since you have labeled it as a 
void, and you have said very clearly--you have a way to try to 
address the void, but whether or not it actually fills the 
void, describe for me in your words, rather than my words, what 
you see the void that is being created by the proposed 
elimination of this office is, and how you think and hope and 
desire; I think that through your other approach that that void 
will be filled? What is the void that you are creating by this 
budgetary action?
    Mr. Lightfoot. Yes, the education program we have today 
reaches people that we might not be able to reach if we are not 
paying attention to the specific area, MUREP, EPSCoR, Space 
Grant, the way those work today. We think we have a way to 
reach the same people using our mission activities.
    The advantage to the education program, honestly, is that 
it gives us three very specific areas to focus on. We would 
like to make sure those are aligned with what we are trying to 
do as an Agency going forward, and when you see the way we are 
reorganizing education today, that this next gen STEM 
organization, we would look for more alignment even if we keep 
those programs. We would look for changes inside those programs 
to make sure they are aligned with what we are trying to do so 
that when that workforce comes onboard they are with us. They 
are already part of our program.
    Mr. Jenkins. What techniques and strategies under this new 
realignment do you envision putting in place to make sure that 
they have a conscious awareness that they have a role in their 
alignment to fill this void and to hold them accountable, so to 
speak, ways to make sure that through this new realignment, 
that we don't get years down the road and say well, you know, 
we had good intentions, but nobody was really watching the 
store, and it got away from us.
    Mr. Lightfoot. Yes, I think what we are trying to do, and 
again, we haven't executed this yet, but this would be if we 
didn't have the education budget. We are looking at ways to do 
that, and again, that is proposed in 2019. We are not doing 
this in 2018----
    Mr. Jenkins. Right.
    Mr. Lightfoot. [continuing]. Because we have got education 
money in 2018. I want to be really clear about that.
    Mr. Jenkins. Yes.
    Mr. Lightfoot. What we are doing is we are bringing in the 
mission directorates, Human Exploration, Aeronautics, Space 
Technology, and Science. We are bringing them in to articulate 
with the team that works Next Gen STEM now. I have a small 
group that still does that, and they will make sure that the 
work those four mission directorates are doing is aligned. We 
use the missions to be the voices of that.
    Mr. Jenkins. And final question. Do you think we can--and I 
appreciate your emphasis, and we have all worked very hard. 
Again, thank you, Mr. Chairman, about the continuity for fiscal 
year 2018, and yes, we are thinking ahead. Can you again 
reassure us that, while I will certainly be fighting to 
continue the funding, but if I am not successful and this heads 
in a different direction, that we have the appropriate, things 
in place to plan to make sure that no void has occurred, you 
know, adequate preparation for that day.
    Mr. Lightfoot. Yes, I'll be glad to take that one and bring 
you back the plan, and show you what we are talking about doing 
in the absence of an Office of Education.
    Mr. Jenkins. Right.
    Mr. Lightfoot. Is that fair?
    Mr. Jenkins. Yes, thank you very much.
    Mr. Lightfoot. Yes. Thank you.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Serrano. You ran out of questions?
    Mr. Culberson. No.
    Mr. Serrano. NASA's Earth Science division works to develop 
a scientific understanding of the Earth and its responses to 
natural and human-induced changes by using innovative 
satellites to collect data on the Earth's surface and 
atmosphere. In short, this information ultimately helps protect 
American lives and infrastructure in the face of extreme 
weather events such as hurricanes.
    The President's budget is proposing a significant reduction 
to NASA Earth Science, including a cancellation of several key 
Earth Science missions. Why is the administration proposing to 
reduce NASA's investment in earth science? Shouldn't we place 
an equally high priority on the study of our own planet, 
particularly in light of last year's hurricanes that struck 
Texas, Florida, Puerto Rico, and the U.S. Virgin Islands?
    And by the way, we made an agreement yesterday that since 
climate change upsets some people in the House, I am just 
referring to something is going on, and we will leave it at 
that.
    Mr. Lightfoot. Well, I think we have a good portfolio of 
science missions. We think the budget is adequate, and if you 
look at the entire cycle, what we call the Bretherton cycle of 
what is the earth's system, all the different things: clouds, 
ice, water levels, color, ocean color, rainfall, all the 
different things we measure. We believe we have a measurement 
in all those areas that allows us to look at the earth as a 
system and provide the data to folks that we need.
    Even when we made the selections we made on cutting the 
missions that we talked about in the 2019 budget, they were 
based on our prioritization of what we needed to be able to 
still understand the earth as a system. That is why we made the 
decisions we made within the budget allocations that we had. I 
think we are comfortable. We still have the whole earth system 
understood--or not understood, but we have data that help us to 
understand that going forward. We don't have a gap in those 
areas.
    Mr. Serrano. You know, the difficulty, believe it or not, 
in having you as a witness is that you have a lot of respect 
from this Committee, a whole lot of respect. So we don't want 
to argue with you, you know, and in any way try to make your 
life difficult here before this Committee, but again, to the 
people you talk to back home in your home office, this is not 
the right time to be doing this.
    I mean, the hurricane season in the Caribbean hasn't 
started yet. It starts soon. We have no idea what will pile up 
on top of what already has happened and then in Florida and in 
other places. So this just--you might be surprised to find that 
this has a bipartisan look where people say `why are we cutting 
this at this time?'
    Administrator, you are aware of my interest in the Arecibo 
telescope in Puerto Rico, a 1,000-foot wide telescope used for 
radio astronomy, atmospheric science, and radar astronomy. 
Could you explain for our audience some of the most important 
ways that NASA and the nation continue to benefit from 
utilizing this telescope and why it is important to maintain 
the robust funding for this facility? And I am hoping you agree 
with me, otherwise the question is a terrible question.
    Mr. Lightfoot. Yes, well we use Arecibo for 
characterization of near-earth objects. That is one of the 
things that we do from a radio----
    Mr. Serrano. I am sorry. I------
    Mr. Lightfoot. For near-earth objects. We use it to 
understand--it is just part of the story. There is the radio--
as you said. The radio astronomy that we get from Arecibo, we 
combine it with other assets we have across the nation to help 
identify what the shape, the size, the trajectory of these 
objects are. I think NASA anticipates roughly about 4 million 
in 2019 that we would spend there, to help with the 
characterization of these objects. It is definitely a piece of 
our infrastructure that we use, and we work closely with NSF on 
using it.
    Mr. Serrano. Do you know if the repairs have taken place 
after the hurricane, because I know it took a hit also.
    Mr. Lightfoot. Yes------
    Mr. Serrano. Everything took a hit.
    Mr. Lightfoot [continuing]. I was going to say. I do not 
know if they are completely done yet. I would have to ask NSF 
for that one.
    Mr. Serrano. OK. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano. Administrator, if I 
could, I wanted to talk about commercial crew.
    We budgeted--the budget that the OMB proposes includes 173 
million for commercial crew, but we see that the launch dates 
for Boeing and SpaceX have both slipped significantly, and the 
contractors have determined they are not going to be able to 
meet their original 2017 certification dates. Why are both 
programs delayed, and if you could, describe NASA's process of 
overseeing these contracts, especially when it comes to crew 
safety?
    Mr. Lightfoot. Yes, both companies are making great 
progress. Very similar to SLS and Orion, we are running into 
first-time builds and some of the challenges we are learning in 
tests as we go forward. We still expect to see the first test 
flights at the end of this year.
    Mr. Culberson. The end of 2018?
    Mr. Lightfoot. Yes, from both the providers.
    Mr. Culberson. From both? Boeing and SpaceX?
    Mr. Lightfoot. This would be the uncrewed flights.
    Mr. Culberson. Uncrewed?
    Mr. Lightfoot. We are working through that now. As far as 
our assurance and our oversight there, our safety engineering, 
and health, and medical areas, what we call our technical 
authorities, are practicing a shared assurance program where 
they are sharing the validation of the requirements across both 
suppliers, and that is going fine.
    There is clearly going to be a bow wave at the end where we 
have to verify that. The actual design certification for these 
vehicles is actually approved to by the associate 
administrator. Steve Jurczyk, who is going to be replacing me 
in that job going forward, will have that role to do the design 
certification review and approval.
    Flight to flight will be handled by the head of Human 
Exploration and Operations Mission Directorate which is Bill 
Gerstenmaier now, of course.
    Mr. Culberson. He does a great job, by the way, and we----
    Mr. Lightfoot. Yes.
    Mr. Culberson [continuing]. Let him know how much we all 
support him.
    Mr. Lightfoot. Yes, you have supported him very well, and 
he----
    Mr. Culberson. Right where he is.
    Mr. Lightfoot. We are very appreciative of that.We have a 
process in place that allows us to still have the technical 
oversight that we need going forward, so it is good.
    Mr. Culberson. Now, the fact that the commercial crew 
launch dates have been slipping, will there be any sort of a 
gap between the last seats on Soyuz's and the ability of Boeing 
and SpaceX to get American astronauts to the space station?
    Mr. Lightfoot. Yes, right now we don't show a gap, but we 
are looking at options for what can we do to not have a gap 
because we don't want a gap. You may have seen recently, we 
asked Boeing to look at putting a third crew member and 
extending the stay of the first crewed flight, which was going 
to be shorter. That is one thing we have done.
    The other thing is we are working with our partners, our 
Russian partners, on can we have longer increments between--you 
know, for crew members that go up so that we don't have a 
situation where we cannot get up. We are working with all the 
partners, and working all the options, but right now we still 
show margin to having the ability to get our crews there on the 
commercial entities.
    Mr. Culberson. So the commercial first uncrewed mission 
launch will be before the end of 2018----
    Mr. Lightfoot. That is correct.
    Mr. Culberson [continuing]. For both Boeing and SpaceX? 
When are they estimating that they will have the first crewed 
launch?
    Mr. Lightfoot. Let me get that back to you. Let me just 
take that for record, because I am focused on the uncrewed 
one----
    Mr. Culberson. OK.
    Mr. Lightfoot [continuing]. Right now in my head. We will 
get you that.
    Mr. Serrano. Still trying to get on a flight, huh?
    Mr. Culberson. We are going to make sure we get as many 
American astronauts into space as possible as soon as possible.
    If you could, I would like to talk a little bit about the 
Webb space telescope. We are going to come back to that on May 
9th. I am really concerned, all of us are, with the slip, and 
they have already missed--they are going to miss their fall 
2018 launch window, they had earlier announced, slipped to May 
2019, and the revised launch date is now May 2020. The project 
is going to exceed its $8 billion cost cap.
    It is an extraordinary telescope and I know a lot of 
technology that has not been tried before, the unfolding of 
that mirror, and the solar shield is extraordinarily difficult, 
but I am really concerned that there are a lot of simple and 
costly mistakes being made at this critical juncture because I 
am concerned that the contractor doesn't have the right mix of 
skill sets for the folks that are working on this project.
    Talk to us about the delays, and where they are coming 
from, and does the contractor have the right skill set of 
employees on the project, and that as a result of the revised 
launch date and associated cost overruns that a breach 
reporting requirement has been triggered, and could you comment 
on that?
    Mr. Lightfoot. Yes, we have triggered the breach and we are 
working on the reports back to the Hill, and I think we have 
until around the end of June to finish all that up, but we have 
notified the Hill that there will be a breach there on 
schedule. We are still looking at cost. We think there will be, 
but we want to make sure we tell you one time, from that 
standpoint.
    The challenges, honestly, Mr. Chairman, have been around 
the integration of the sun shield and the spacecraft. Think of 
two pieces, there is the telescope. That is the thing we have 
been testing. We tested it at Goddard, we tested it at Johnson. 
You know, it was----
    Mr. Culberson. It passed with flying colors----
    Mr. Lightfoot. It was in the chamber during Hurricane 
Harvey, for instance. It never knew the hurricane hit.
    Mr. Culberson. And that is a great credit to the people at 
Johnson----
    Mr. Lightfoot. Unbelievable.
    Mr. Culberson [continuing]. Who did an extraordinary job of 
protecting----
    Mr. Lightfoot. Yes, the----
    Mr. Culberson [continuing]. that telescope during that 
hurricane.
    Mr. Lightfoot [continuing]. Goddard teams that were there 
and the Johnson teams were there continued testing during that 
whole time when they could.
    Anyway, that is the telescope with all the instruments. It 
has now arrived at Northrop Grumman. We have all the pieces at 
one time at Northrop. Northrop is working the spacecraft and 
the sun shield.
    Some of the things that we have run into, honestly are the 
sun shield deployment during the course of doing integration 
and test, I&T as well call it, we are going to deploy the sun 
shield and repackage it, I think, three times, if I remember 
correctly. What has happened, that has taken a lot longer on 
the ground than we thought it would. My comparison, it is 
probably a bad one, is to a parachute. You want to pack it 
right so that when it opens it works, and every time we open 
it, we have to go back and package it up. We had some trouble 
with some of the systems in that, some of the tensioning 
systems, and it is just costing us more time. We had some tears 
in the sun shield that we weren't anticipating, and these are 
the things you find when you get into integration and test.
    We have also had some workmanship challenges. We had a 
heater that got more power applied to it than it should. We had 
to replace that, and the big challenge for us now is making 
sure that the integration and test flow, the whole flow from 
now until the time we ship to French Guiana, is actually a flow 
we can do today.
    The standing review board that we have on all our projects, 
but we have one for James Webb, they looked at it and they kind 
of gave us a May 2020 is when they thought would be a 
reasonable date.
    What we had did on top of that is we chartered an 
independent review board led by Tom Young, who is, I guess I 
would say he does this for programs all the time, from all 
reviews a seasoned leader in not only NASA, but in industry. 
That team is now looking to confirm whether we agree with the 
date or not. They are also going to look at the workforce. Do 
we have the right workforce? Do we have enough workforce? That 
is what we are trying to do. I think----
    Mr. Culberson. And you are going to report back to us on 
that?
    Mr. Lightfoot. You will see that for sure. I think for us, 
the big challenge now is we have these instruments, as you 
said, passed with flying colors. We are ready to go. We don't 
want--I mean, as painful as it is, because none of us are happy 
about this. I want to be really clear, none of us are happy 
about that and we take all the accountability there is for what 
is happening, but we also want to make sure that we fly this 
thing and fly it well. I would rather fly a spacecraft that 
works, even if it is a little late, than one that we fly to 
rush to get into orbit. Our Science teams need to make sure we 
respect their work they get their instruments ready. Now we 
have to work with our spacecraft vendor and get this thing put 
together the right way.
    Mr. Culberson. You should have that report, I hope, before 
May 9th when we have our astrophysics hearing?
    Mr. Lightfoot. I don't think so. When is it? June? Yes, I 
think----
    Mr. Culberson. Four to 5 weeks?
    Mr. Lightfoot. Yes.
    Mr. Culberson. Because we all need to look at that and talk 
about it. We will have that--that is going to be a big part of 
the hearing. Thank you for the little extra time, gentlemen, 
but this is so important. The original launch date for Webb 
was, I think--we were just comparing notes, 2011?
    Mr. Lightfoot. That is when we re-baselined. I do not know 
when the original date was. I can get you that.
    Mr. Culberson. And, you know, the cost, original estimate 
versus today. It is a magnificent instrument----
    Mr. Lightfoot. Yes.
    Mr. Culberson [continuing]. And something that has never 
been attempted before, and you are trying to fold it into the 
Ariane fairing, which we are going to solve with SLS, but we 
just can't let this happen again. And it reinforces the 
question Mr. Cartwright--all of us are asking about the 
importance of following the decadel survey, and the importance 
of this committee writing into our bill to find a way to let 
NASA plan more than a year at a time out into the future, and 
to try to free you from OMB as much as possible, and unleash 
you, and let you be led by the scientists and engineers and 
great folks like yourself that can look far out into the 
future.
    Thanks for the extra time, gentlemen. I want to go to Mr. 
Kilmer.
    Mr. Kilmer. Thanks, Chairman. I want to echo the concerns 
around the Office of Education and the Space Grant program. And 
in doing that, it states there will be a small team at NASA 
headquarters and the mission directorates to take on the role 
that the Office of Education currently has to engage learners 
in NASA's work and to encourage educators, students, and the 
public to continue making their own discoveries.
    I would like some clarity on that. How many people will be 
on that small team at NASA headquarters, how much funding will 
they receive to carry out that mission, and what are we looking 
at in terms of presence of employees at the mission 
directorates to work on that too?
    Mr. Lightfoot. Yes, and as I told Mr. Jenkins, I would love 
to bring you guys the plan on what we are doing there, a more 
detailed than me and just two minutes, but what we are really 
looking for is a really small core group, and they are really 
integrators. They are not actually going to execute the 
education program, but they are going to integrate what we are 
doing from an education and public outreach perspective as an 
Agency, but include the mission directorates.
    Today, the Office of STEM Engagement works with the mission 
directorates, but it is a separate organization. Now, we are 
talking about integrating, kind of aligning those--together. 
More than happy to bring the story on what we would do in the 
event that we didn't have an appropriations for the Office of 
Education.
    Mr. Kilmer. Thanks. The other thing I wanted to ask about 
with the time I have got left is the budget proposes to 
privatize the International Space Station. I am concerned by 
what seems to be sort of a lack of planning and clarity on that 
transition, especially given that the budget proposal is to 
spend a billion dollars over the next five years essentially to 
figure out what the plan is. But setting that concern aside, 
even if the transition to privatize in the space station is 
successful, when we think about the value of the space station, 
the cornerstone of our integrated approach to exploration, as 
your testimony states, that cornerstone is research. That is 
why the ISS was designated as U.S. national lab.
    I would just like your sense of is NASA going to commit to 
a space based national lab that lives beyond the current 
construct of the ISS and includes a pathway for federally 
funded researchers to use commercially provided space research 
platforms if ISS is privatized?
    Mr. Lightfoot. Yes, let me clarify one thing really quick. 
We are not necessarily talking about privatizing the ISS. What 
we have said is we are proposing eliminating U.S. government 
funds for that. There are other things other than the ISS. 
Several of the commercial companies have talked about a 
standalone platform. What we really want to move toward is a 
service based, if you can think service, we want to buy a 
service in low earth orbit. We know we will still need to be in 
low earth orbit, and I believe other people want to be in low 
earth orbit. We want to see what folks will bring back to us.
    For us, the reason we did this now was 2025 is in the 
budget horizon for us. When we look at 2020, our next budget 
submit, we want to know is it going to be 2025 or is it going 
to be 2026? You will see us use this money to say, provide us 
back what is the plan, what is the business plan, who is your 
basis of research? We want the commercial industries to go out 
and say I can get other researchers to come to my place.
    Now, it could be that they want to use the Space Station. 
They may want to take the Space Station from us and operate it 
and that is fine too, but we are moving to where we really want 
to buy services in low earth orbit. Part of that buying 
services is actually trying to spur a commercial industry in 
low earth orbit. Today low earth orbit equals the ISS and we 
pay for it. If we can get a broader base than that I think you 
can have not just a national lab, but I think you can have 
different labs that people--that we just go to when we need to.
    That is our goal. We will see what we get back in this 
process. But we still have time now or we have got runway to 
work those issues since it is 2025 that we're talking about.
    Mr. Kilmer. Thanks, Chairman. I yield back.
    Mr. Culberson. And we are also going to really bore in on 
that too, look carefully at it because we want to make sure 
that NASA is keeping a foothold in the space station. Like the 
idea of commercial, but don't know about handing it all over 
lock, stock, and barrel. If you would please represent the 
gentle lady from Alabama, Ms. Roby.
    Ms. Roby. Good morning.
    Mr. Lightfoot. How are you?
    Ms. Roby. And let me first say, Administrator Lightfoot, I 
want to say thank you for your service to our country and your 
career working for and leading NASA to what it has become 
today. Your leadership and your expertise will certainly be 
missed. So we appreciate your time this morning. Under your 
vision and your management our nation is on the cusp of 
returning humans back to deep space and going further than we 
have ever been before.
    As Congress and this subcommittee continually has 
prioritized the funding and launch schedule of the Space Launch 
System, Orion crew vehicle, and their respective ground system, 
you spoke earlier this morning, and again, I apologize, you 
know, we have got a bunch of hearings going on at one time, but 
I understand----
    Mr. Lightfoot. Understand.
    Ms. Roby [continuing]. You said earlier this morning about 
the challenges of holding the 2019 launch date of EM-1. So how 
can this subcommittee help you keep the progress and the work 
on track as we get closer and closer to this initial launch of 
SLS?
    Mr. Lightfoot. Well, I think the main thing is what you did 
in the 2018 budget. The stability that is offered to us when we 
see, as I said earlier the committee has taken in my opinion a 
long term view of what we are trying to do, not just a one year 
at a time. That makes the planning much easier for us because 
we are working in a different mode because we know that we are 
going to get the support that we get. That continued support is 
what we need.
    Ms. Roby. Would you agree that NASA is prepared for 
scheduled mission launches of SLS continuously through the 
2020s with EM-2 and the first crewed mission in 2023?
    Mr. Lightfoot. Yes, we are right now working a plan that 
would show at least one mission a year after EM-2.
    Ms. Roby. OK. Great. I thank you for your answers on this 
incredibly bright future that we have of sending missions and 
humans again further--to further depths of deep space and in 
showing NASA's commitment to deep space exploration.
    So can we talk about infrastructure and capabilities of 
propulsion for just a minute? Can you speak about the need to 
advance the nuclear thermal propulsion technology in order to 
have safe, efficient, and reliable propulsion for missions in 
the future?
    Mr. Lightfoot. Yes, so we are working--there is a lot in 
that one. If you think about nuclear thermal propulsion, for 
instance, and the things it can do, if we can do that with low 
enriched uranium instead of the higher enriched uranium, it 
becomes kind of a game changer from overall perspective. Our 
teams are working that now. We got that in the appropriations. 
I think there is 75 million in this year approps for that.
    We are working with a couple of companies, BWXT and we are 
working with the DoE on getting indemnification around that 
activity. We will develop a system that will allow us to 
actually do the propulsion. The real question then becomes we 
also have to work on the cryogenic fluid management around that 
and the total system. It is definitely a technology that we 
want to develop and see if it can actually be the game changer 
that we think it can be. We will work the propulsion piece, but 
the bigger piece is going to be cryo fluid management and the 
entire package that all that gets put in. It is definitely a 
future activity that we think is important.
    Ms. Roby. I think you have already answered these 
questions, but do you feel it is necessary to commit to 
creating a multi-year plan now as we move closer to the 2020s 
for demonstration of this technology?
    Mr. Lightfoot. Yes. I think you will see once we get the 
technology demonstrated we need to look at where we can work it 
into our current architecture, where would it become kind of a 
piece that we would depend on as opposed--one thing we have 
learned lately is you can't really depend on the technology 
now. You need to make sure you prove it, at least get some of 
the risk mitigation done around that. That is what we are going 
to do with the money that we have gotten in this year's risk 
reduction around this technology. Then maybe you can talk about 
where does it inject in the architecture in the 2020s, right, 
where would we put it in that part of the total architecture we 
are doing.
    Ms. Roby. And I think you would agree that the money that 
has been appropriated above the President's request levels for 
SLS and Orion and the exploration ground systems, that it is 
helpful in the program's efforts to stay on schedule and 
maintain a proper workforce to get us to the initial operating 
capacity. And I guess building upon that does this expanding 
funding provided for by the appropriations allow for certain 
long lead buys, tests, standing up of suppliers in order to 
keep the program on track?
    Mr. Lightfoot. Yes. I think one of the big advantages to 
what we have gotten is this allows us to do some risk 
reduction. That is very important for the first mission. But it 
has also allowed us to emphasize to everyone we are not just 
building one mission, we are building multiple missions.
    Ms. Roby. Right.
    Mr. Lightfoot. We are already buying hardware for EM-2, 
starting to look at just the pure material we need for EM-3. So 
you can see that the teams are thinking longer term already and 
there is a sense of urgency around the cadence of missions now, 
as opposed to just being focused on EM-1. EM-1 is important, 
don't get me wrong, it is very important. What we are really 
building here is a long term program and I think that is what 
is going to be important for us to stay focused on and that is 
what the approps has allowed us to do.
    Ms. Roby. Well, these are certainly exciting times. And it 
is a true privilege as a member of Congress to be a part of 
this subcommittee to be a part of these historic things that 
are happening in our space programs. And so I just again want 
to thank you for your leadership, for NASA, for all the work 
that you do. And it is a real privilege to support everything 
that you have going on. So thank you, Mr. Chairman, I yield 
back.
    Mr. Lightfoot. Thank you.
    Mr. Culberson. Thank you very much. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. Mr. Lightfoot, 
Chairman Rogers was talking a little bit about the, you know, 
the competition with Russia way back when and all of that. 
Russia is still a relevant subject with space because we rely 
on Russian Soyuz rockets to get astronauts to the International 
Space Station. And it is pursuant to a contract, and that 
contract expires next year, right? Now, obviously Boeing and 
SpaceX have made great advances, but we only have one short 
year to get ready to transport our own American astronauts to 
the International Space Station. Will NASA be ready on time?
    Mr. Lightfoot. Well, I think we believe we will be. We have 
got margin today to the commercial crew providers being 
available. One thing we have is a great relationship with our 
Russian partners, and we are looking at other alternatives 
about potentially extending mission duration for the current 
missions that are there so that we don't gap the ability to get 
there.
    I will tell you that regardless of what is going on in the 
rest of the world, our space cooperation with the Russians has 
been very good. It is a good team. We are ready to get our 
flights from U.S. soil though. We are ready to get back to 
that. I think our commercial providers are making great 
progress, and we are going to do our best to protect that gap 
going forward.
    Mr. Cartwright. Right. And that is really the question. Are 
you satisfied and confident that we are not going to lose 
access to the space station because of an interruption like 
this?
    Mr. Lightfoot. I actually believe we will be OK there, just 
because we have got several mitigation alternatives we can use.
    Mr. Cartwright. What would the potential delays be in the 
certification process?
    Mr. Lightfoot. Well, both providers are going through their 
integration and test activities now and you learn things when 
you do that. That is why we do the integration and tests. 
Depending on what challenges they find as they go through that 
testing, that is something we are going to have to address and 
go forward. Our technical authority teams are watching those 
very closely, safety and engineering, to make sure we 
understand it.
    Mr. Cartwright. And that's my next question. Does NASA 
currently have sufficient funding and personnel to conduct all 
necessary testing on that?
    Mr. Lightfoot. We believe so. The challenge is going to be 
if it comes all in at once. If all the final certifications 
come in at once, we will have a bow wave that we'll have to 
deal with. Our teams are kind of thinking about how they do 
that now. I was just in a meeting yesterday with all my safety 
directors and they were talking about how to share resources to 
be able to address the bow wave that we know is going to come.
    Mr. Cartwright. And from the commercial partners do you 
have time tables and has NASA critically evaluated their time 
tables?
    Mr. Lightfoot. Yes. We look at it very routinely actually.
    Mr. Cartwright. Are you exploring any contingency measures 
just in case something goes wrong?
    Mr. Lightfoot. In terms of schedule, that is what I was 
talking about earlier. We are looking at ways to extend stays 
that we have currently on the station with the seats that we do 
have left through the Soyuz program.
    Mr. Cartwright. Well, good. Thank you for that, 
Administrator, and good luck to you.
    Mr. Lightfoot. Thanks. Thanks very much.
    Mr. Carwright. Yield back.
    Mr. Culberson. Thank you, Mr. Cartwright. Administrator, I 
wanted to ask about the sequence of launches for EM-1, 2 and 
for the Europa Clipper launch and the lander. I am absolutely 
confident based on the briefings I have had and you know the 
close attention I have paid to this, that the clipper mission 
will be ready for launch in 2022. Their best launch window is 
actually June of 2022 for an arrival at Europa in 2025 and 
2026. When will NASA--could you tell us about when EM-1 will 
launch and when are you planning for EM-2 to launch? And that, 
of course, will be a crewed mission. And where do you intend to 
fly the clipper?
    Mr. Lightfoot. Right now we are not picking which one goes 
first. It is going to be who is ready. If clipper is ready and 
from a risk standpoint we are willing to fly it on EM-2, we 
would do that. It has to be a risk discussion around the 
readiness.
    The thing that has changed probably, Mr. Chairman, in our 
calculus, and this is just in the last couple weeks since we 
got the appropriation, is the second mobile launcher. We know 
we can fly clipper with an ICPS.
    Mr. Culberson. ICPS for those watching?
    Mr. Lightfoot. I'm sorry. Interim cryogenic propulsion 
stage, the upper stage. Sorry.
    Mr. Culberson. You have got to have somebody work on the 
names of these missions. You know, have a contest or something.
    Mr. Lightfoot. I know. I know.
    Mr. Culberson. EM-1, 2, come on.
    Mr. Lightfoot. How about the Chairman Culberson Station? 
OK. All right. Anyway, we will----
    Mr. Culberson. Inspire the imagination of all those----
    Mr. Serrano. Let's break out the appropriation right now.
    Mr. Lightfoot. Anyway----
    Mr. Culberson. Something to inspire the imagination of all 
those young people out there.
    Mr. Lightfoot. I think with the second mobile launcher what 
we are allowed to do is actually keep the configuration that 
allows us to fly EM-2, whatever it is, whether it is clipper or 
crew.
    Mr. Culberson. So that second mobile launcher is really 
important?
    Mr. Lightfoot. It enables that opportunity because I 
don't----
    Mr. Culberson. ----
    Mr. Lightfoot. Today what happens is after I fly EM-1 the 
mobile launcher, I would then have to start modifying for the 
exploration upper stage, it has to----
    Mr. Culberson. Which makes the----
    Mr. Lightfoot [continuing]. Grow in length.
    Mr. Culberson [continuing]. Rocket considerably taller.
    Mr. Lightfoot. Yes. It has to grow in length. While I am 
doing that modification I can't fly. Right, I am just down, and 
there is a 33-month time period there. Now knowing we are going 
to build the second mobile launcher, I can keep this mobile 
launcher in place, buy another interim cryogenic propulsion 
stage, ICPS, and still fly. We have done the numbers and we 
think clipper can fly on the SLS with an interim cryogenic 
propulsion stage.
    Mr. Culberson. On EM-2.
    Mr. Lightfoot. It could be EM-2. If clipper is ready or if 
Orion is ready, we are really just going to see. We are not 
going to battle now----
    Mr. Culberson. Sure.
    Mr. Lightfoot [continuing]. Over who goes. I think we will 
pay attention to that. Both options is what it boils down to.
    Mr. Culberson. But this committee is funding with Chairman 
Shelby's strong support, the second mobile launch platform 
gives you that freedom and ensures that there will be no gap.
    Mr. Lightfoot. It allows us to have the ability to fly SLS 
when we are ready with whatever payload is ready to go. As long 
as the ICPS--obviously the value of the exploration upper stage 
is it gives us a lot more throw, a more mass to orbit and the 
volume.
    Mr. Culberson. And we funded that too.
    Mr. Lightfoot. Yes, and the volume. What the challenge was 
going to be was, we just flew EM-1 and now we can't fly again 
until the mobile launcher is modified with the----
    Mr. Culberson. We don't have to worry about that.
    Mr. Lightfoot [continuing]. Exploration upper stage, and 
that took that off of it. You are going to have to give us a 
little time because that was just a couple weeks ago, that we 
found out we were getting that, and to be able to understand 
the flow, but what we are not saying----
    Mr. Culberson. Fired up.
    Mr. Lightfoot. We are not saying EM-2 is Orion. Its 
baseline is Orion, we know that. If clipper came in and was 
ready to go, we could easily fly that, it is not that big of a 
difference to us.
    Mr. Culberson. You understand we are all fired up to make 
sure the American space program is the greatest on earth and 
that we return American astronauts on American built rockets as 
fast as possible, in a safe manner, of course.
    Mr. Lightfoot. Yes.
    Mr. Culberson. The mobile launch platform I have heard some 
concern that it might be damaged or couldn't withstand the 
force for the launch of EM-1.
    Mr. Lightfoot. I don't----
    Mr. Culberson. You look puzzled. I guess that is one 
concern.
    Mr. Lightfoot. No, I am not worried about that. Our team--
--
    Mr. Culberson. That is not a concern.
    Mr. Lightfoot. Only because I know what areas that we are 
paying attention to from an analysis perspective, but we are 
ready to go.
    Mr. Culberson. It survived the Saturn 5, so you know.
    Mr. Lightfoot. Well, this is all new on there, I----
    Mr. Culberson. All new stuff. But nevertheless----
    Mr. Lightfoot. Yes
    Mr. Culberson [continuing]. It is a pretty robust 
structure.
    Mr. Lightfoot. All of the structures and all of the arms 
are there now. We are getting pretty confident that we are 
ready to go.
    Mr. Culberson. Most important thing is, as you said, is 
this gives you the freedom and the assurance that there won't 
be a gap between EM-1 and 2, because you don't have a second 
platform----
    Mr. Lightfoot. Right.
    Mr. Culberson [continuing]. That can handle the additional 
weight and height of the exploration upper stage.
    Mr. Lightfoot. That's correct.
    Mr. Culberson. So this ensures that the SLS launch system, 
Orion will continue on track, on target and it won't be slowed 
down as a result of lack of mobile launch platform.
    Mr. Lightfoot. No, I want to be really clear though. We 
will change the mission profile if we fly humans for the first 
time and we use the interim cryogenic propulsion stage. If EM-2 
flies that way we would have to change the mission profile 
because we can't do what we could do if we had the exploration 
upper stage. That still gets humans in orbit and it stills 
allows us to check out all the systems that we wouldn't check 
out on EM-1.
    Mr. Culberson. Again, December 2019 probably going to slip 
into early----
    Mr. Lightfoot. I believe it is December 2019 with that four 
to six months risk. I think we have realized a couple of months 
of that risk trying to get it back, I just don't know if we 
will or not.
    Mr. Culberson. So EM-2, the manned mission, will launch 
when?
    Mr. Lightfoot. Let's see, the crewed mission for EM-2 our 
commitment is 2023, but that is with the 33-month bar because 
we were going to have to modify the mobile launcher.
    Mr. Culberson. But you are not going to have to do that 
anymore.
    Mr. Lightfoot. I know. That was two weeks ago. Mr. 
Chairman, you have got to give us a little while to do the 
analysis and go back and see how far we can pull that date 
back. I think that is what the teams are looking at now.
    Mr. Culberson. So that 2023 launch date is obviously going 
to move up quite a bit. You are going to be able to move that--
--
    Mr. Lightfoot. We think it should, but, we have----
    Mr. Culberson. Yes.
    Mr. Lightfoot [continuing]. We have some runway in front of 
us still.
    Mr. Culberson. Yes. OK. Very good. That is why we funded it 
now so you had room. Mr. Serrano.
    Mr. Lightfoot. That is important, by the way.
    Mr. Culberson. Yes, sir, good point.
    Mr. Serrano. I think to resolve this problem of what to 
call the mission, just call it J&J, John and Jose, and you will 
be all settled. I have no further questions. Just once again to 
thank you for your service----
    Mr. Lightfoot. Sure.
    Mr. Serrano [continuing]. To our country and wish you the 
best of luck.
    Mr. Lightfoot. Thank you very much, I appreciate it.
    Mr. Culberson. Thank you. I would like, if I could, talk 
about in closing ask you to focus on the far future thinking 
about planning. We are going to work together to find a way to 
give you the ability to plan for more than a year at a time and 
to unleash you and unshackle you as much as we can to let you 
think long term because one of the great things about NASA is 
that you are one of the few agencies that actually has the 
ability, one of the few parts of the federal government to look 
into the far future is I think one of the great things that 
inspires young people. What is over the horizon? What is on 
that next world?
    The committee, the Congress has enacted language in the 
2018 CJS appropriations bill mapping out a 51-year roadmap for 
the future exploration of space. Obviously we strongly support 
that human part. We are going to look closely at and we are 
going to visit with you about another conversation, we will put 
this on the record, I am going to speak to you privately about 
the cost of the human gateway. We were looking at $500 to $600 
million additional, you know, an add to the NASA budget for 
that gateway, the moon, which is I think a great idea, but we 
have got to sit down and kind of think that through very 
carefully.
    In addition to that to help ignite that, restore that magic 
that Chairman Rogers was talking about that is so important 
that is why we included this 51-year roadmap that is designed 
to begin with the search for life in other worlds, following 
the decadal survey. A high priority mission of the decadal 
survey last decade was the mission to Europa. The decadal 
survey asked, ``are there habitats elsewhere in the solar 
system with the necessary conditions, organic matter, water, 
energy and nutrients to sustain life and do primitive organisms 
of any kind live there now?'' And the consensus of the decadal 
survey scientists was the best place to look for that is in the 
ocean world of Europa.
    So as soon as I became Chairman in 2015 we also created, 
Joe, the Ocean Worlds Program to direct NASA to focus on those 
outer planets beginning with the Europa mission to search for 
life in primitive life forms. Because that's the sort of 
civilization level of discovery that is going to ignite renewed 
passion and magic in the minds of the American people and the 
world in support of NASA. That is why we enacted it, and asked 
either start with that search for life on other worlds, 
beginning with Europa, and then begin to look for and use 
WFIRST or whatever next telescope it needs to be. That is what 
we are going to talk about on May 9th. Identify the nearest 
Earth-like planet around the nearest star using that telescope 
and star shade technologies.
    This is all enacted into law by Congress. We have got a 
2018 bill with strong support of Chairman Shelby for using star 
shade and that next telescope to identify the nearest Earth-
like planet, fingerprint its atmosphere looking for the 
fingerprint of life, carbon dioxide, oxygen, methane, perhaps 
even industrial pollution. And then we funded I think a nuclear 
thermal propulsion program at 175 million dollars. Excuse me, 
75 million we funded this year's 2018 bill, nuclear thermal 
propulsion. We have given you the money that you need to 
develop other types of propulsion and directed NASA to at the 
same time you are searching for that nearest Earth-like planet 
with that next generation of telescope to develop interstellar 
rocket propulsion to go we hope no less than ten percent of the 
speed of light, and to launch that mission so that it would be 
the United States of America that launches humanity's first 
mission to the nearest Earth-like planet. The first 
interstellar mission would be launched by the United States no 
later than 2069, the 100th anniversary of Neil Armstrong's 
heading for the moon. So that is the 51-year plan that this 
subcommittee recommended to Congress, enacted with Chairman 
Shelby's strong support that I was proud to help put together 
based on the best recommendations of the decadal survey.
    So I want to ask you to talk about that here. You are going 
to be putting a report together. That was in our 2017 bill, it 
was also in our 2018 bill. So the report is due very soon on 
NASA mapping out that 51-year plan. Could you talk to us about 
that and begin with the discussion of what is necessary and how 
soon we can get the announcement of opportunity out for the 
instruments on the lander.
    Mr. Lightfoot. Yes. Let me see if I can peel that one back. 
The 2017 report on the propulsion, the interplanetary 
propulsion, we owe you that I think next month, and I believe 
you will see it next month. I know it is going through a review 
inside the technical teams now. We should get that, I think it 
is--we will have it on time. I can't remember when exactly that 
due date was.
    Mr. Culberson. Interstellar.
    Mr. Lightfoot. Yes, interstellar. I am sorry. Yes, not 
interplanetary. We are already doing that. The 51-year that we 
got in 2018, we will be working on that and we will get you a 
report on that. The advantage, as I said earlier, is having a 
longer term goal. We always had--you know, Chairman Rogers 
said, you know, we went to the moon and we stopped, right. Now 
we have got a set of stepping stones to move out frankly 
through the universe. We will get that report done as well.
    As far as the lander, the request for instruments for the 
lander, we are actually looking at maybe a different way than 
an AO, but we are going to look at all different kinds of 
solicitations to actually do it quicker and get things started 
quicker. We will know where we need to do risk reduction, 
because as you know, that is going to be a tight fit inside 
that particular activity. We are looking at probably June 
releasing that, maybe even sooner. That is what the teams are 
working on, and we can have Dr. Zurbuchen come up if you need 
and get an update on what we are thinking----
    Mr. Culberson. Thank you.
    Mr. Lightfoot [continuing]. From that perspective.
    Mr. Culberson. He is doing a superb job.
    Mr. Lightfoot. Yes, he is. He is thinking different ways to 
do these things and that is important for us. I think that is 
where we are on that because we would like to get the lander 
technologies, as much risk reduction as we can behind us before 
so we know if they are going to package well in the spacecraft 
because as you know that is going to be a challenging 
spacecraft design, but a fascinating mission. They all are.
    Mr. Culberson. The one that is most likely to find 
primitive life.
    Mr. Lightfoot. That is what based on the decadals for sure. 
Yes.
    Mr. Culberson. Yes.
    Mr. Lightfoot. I will say, as you said, we look to the 
future, you know, we also look at the past. We look back in 
time. We are probably the only Agency that looks back to the 
beginning of time and tries to go out into the future as well.
    Mr. Serrano. Of course, we are assuming primitive life, but 
that is your wording. I don't know.
    Mr. Culberson. We are not sure what we are going to find in 
that ocean.
    Mr. Lightfoot. Exactly.
    Mr. Culberson. Or what we are going to see at those nearby 
Earth-like worlds.
    Mr. Lightfoot. Yes.
    Mr. Culberson. I had a chance, if I could very briefly, you 
guys will enjoy this story, when I was at a briefing at the Jet 
Propulsion Laboratory (JPL) last Friday on the Europa mission, 
on the Mars 2020 mission, all of which are on track, on time. 
The March 2020 mission will be collecting four samples on the 
surface of Mars and then depositing them in an area where we 
can go pick it up and return it to Earth for the first samples 
from another world. That is all coming together beautifully.
    There is a young engineer named Nassar Chad (phonetic) at 
JPL, just graduated, just got his master's degree from Cal 
Tech, and as in the movie The Martian where there is some young 
engineer who figured out the orbital dynamics problem of 
returning the Mars mission back to rescue in the fictional 
story that to rescue the man stranded on Mars, that actually 
happens throughout NASA. But this young man is someone I want 
to make sure you showcase and we need to recognize him because 
I think he is a great example of what makes America the 
greatest country on Earth and how extraordinary a place NASA is 
to work.
    There is a young woman from Burma who came here with her 
family as a young girl with almost no money and she worked her 
way through school. Graduated from Cal Tech and is now 
designing and heading the design team for the helicopter that 
will fly on Mars on the Mars 2020 mission--this young lady from 
Burma who came to the United States penniless as a 12-year-old 
girl is heading that up.
    Nassar Chad, an engineer at JPL happened to be in his 
office and overheard a conversation outside his door that the 
Europa landing team was trying to figure out how to design a 
transmitter, radio transmitter, solid state, that would survive 
intense radiation of Jupiter, survive the super cold 
temperatures of 70 to 100 degrees kelvin. He just overheard 
this conversation in the hallway, and Nassar that is his 
specialty, and Nassar came up overnight with a design for a 
solid state radio receiver and transmitter that will enable 
direct to Earth transmissions from the surface of Europa. This 
young man overheard a conversation and came up with it 
overnight.
    NASA is full of brilliant, capable scientists, engineers, 
astronauts, dedicated fiscal experts, like your new CFO in the 
back. We really appreciate the work that you do and we want to 
showcase the work that you do, and reignite the passion that 
all Americans have always had for space exploration, for 
learning what is on the other side of the mountain, what is on 
the other side of the hill and what lies beyond in outer space 
exploration. You will continue to have the support of this 
committee and the Congress. We just deeply appreciate your 
service of 30 years to the people of the United States and to 
the American space program for making this the best on earth. 
We are going to do our part to help ensure that, just as 
President Eisenhower was remembered as the father of the 
interstate highway system, we will certainly do our part so 
President Trump and Vice President Pence be remembered as the 
fathers of the interplanetary highway system, and then through 
this committee the interstellar highway system.
    We really appreciate your work----
    Mr. Lightfoot. Thank you.
    Mr. Culberson [continuing]. Administrator Lightfoot. Thank 
you very much, and we will have other questions we will submit 
for the record as well.
    Mr. Lightfoot. That is good. Thank you very much, and 
thanks for the time, sir. I appreciate you highlighting those 
two folks. As you said, I see folks like that every day 
throughout the entire Agency, not just within NASA, but our 
industry team too. This nation is in pretty good shape with the 
youth coming up and they are going to take over one day. They 
are a heck of a lot smarter than I am. It is fun to watch their 
enthusiasm and passion, and someday you can come over here and 
testify. You can do the NASA testimony is what I have 
determined, you could do it for us.
    Thank you for the time, and I appreciate all the kind words 
from everybody on the committee. Look forward to watching you 
guys continue to support from the outside.
    Mr. Culberson. Thank you. We are going to be moving very 
quickly on the 2019 bill, so we appreciate you coming in.
    Mr. Serrano. Europa is also Spanish for Europe. So let's 
make sure we give proper instruction so they don't make the 
wrong turn and end up in----
    Mr. Lightfoot. Will do.
    Mr. Serrano [continuing]. Spain.
    Mr. Culberson. Thank you very much, Administrator. The 
hearing is adjourned.
    Mr. Lightfoot. Thank you.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    

                                            Tuesday, April 17, 2018

                              MEMBERS' DAY

    Mr. Culberson. Good morning and welcome to the 
Appropriations Committee Subcommittee on Commerce, Science, and 
Justice. We are delighted to have our Members' Day hearing 
today. Members have an opportunity to come in and present their 
best ideas and suggestions to us for our 2019 appropriations 
bill.
    I am very grateful to you for coming in, particularly my 
good friend Jose Serrano here today.
    Mr. Serrano. Thank you, Mr. Chairman. I am also happy to 
see that we will have Members come before us.
    Members have a direct line to their districts, as we all 
do, and I think they can give us a lot of help as we prepare 
the bill for the needs that exist in our communities. And so it 
is good to see Gwen, but it is also good to see the other 
Members that will be here today. Thank you.
    Mr. Culberson. Thank you. Thank you, Mr. Serrano.
    This has been an ongoing tradition in the subcommittee and 
it is extraordinarily helpful, and we are very grateful for you 
taking the time.
    And please recognize the Congresswoman from the 4th 
District of Wisconsin, Congresswoman Gwen Moore, for her 
testimony.

 STATEMENT OF HON. GWEN S. MOORE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Ms. Moore. Thank you so much, Mr. Chairman Culberson and 
Ranking Member Serrano, and I am so pleased that you have this 
tradition of listening to Members.
    I realize that you have lots of choices, really not 
choices, but a lot of difficult choices to make about 
appropriations, and so I am happy to be here to support the 
notion of investing in the Violence Against Women Act and the 
Victims of Crime Act. And I appreciate the subcommittee's 
ongoing support for these lifesaving programs and I urge you to 
continue robust Federal investment in the successful, cost-
effective Violence Against Women Act in the fiscal year 2019 
budget.
    Now, you know, crimes of domestic and sexual violence are 
not building of some infrastructure or necessarily a direct 
job-creator type activity, so you sort of wonder about the 
efficacy of doing it, but these sexual violence problems are 
life-threatening and they also are expensive.
    Domestic violence affects more than 12 million women and 
some men every year, and, additionally, 15.5 million children 
are exposed to domestic violence every year. And these figures 
only reflect those who make the difficult choice to report 
these crimes.
    Victims of sexual assault are more likely to struggle 
professionally and academically, suffering from depression, 
post-traumatic stress disorder, substance abuse, and suicide 
contemplation. And the problem with exposing children to 
domestic violence is that they often repeat the cycle inter-
generationally and pass that affliction on to the next 
generation.
    We are experiencing a real watershed moment in our country 
as survivors of gender-based violence are coming forward after 
living in the shadows for so many years. The Me Too movement is 
an example with high-profile cases, and the national focus on 
domestic and sexual violence have increased the need for 
comprehensive community responses to meet the needs of 
survivors. And our message has got to be really clear, Mr. 
Chairman and Mr. Ranking Member, when survivors come forward 
for help and support that the help and support is going to be 
there. I mean, if you pick up a phone, you are a victim of 
domestic violence, and there is nobody answering the phone, 
then they don't have access.
    And our Nation has made progress in addressing violence 
against women, because this Congress has made a commitment on 
an annual basis to support VAWA and VOCA. And perpetrators 
are-- but they need to be, when appropriate, arrested and 
prosecuted, and of course those require resources as well. So 
it is the services, but it is also the law enforcement end of 
it as well.
    VAWA has improved our Nation's response to these horrendous 
crimes with unprecedented coordination between police officers, 
victim service providers, and criminal and civil justice 
systems. And it is complemented by VOCA, who funds direct 
services to victims of all types of crimes.
    So, the infusion of VOCA funding is leading to the creation 
and growth of innovative programs, and so together VAWA and 
VOCA have fueled undeniable national progress toward addressing 
this violence.
    Now, VAWA has saved our country and employers an estimated, 
listen to this, $12.6 billion in net averted costs in its first 
6 years alone. So, between VAWA's implementation in 1994 and 
2011, serious victimization by an intimate partner declined by 
72 percent for women and 64 percent for men. Funding cuts would 
erode our Nation's progress on this critical issue. I suppose 
if you are one in three women who die every day from domestic 
violence, I suppose that that 72-percent decrease doesn't mean 
a lot to you, but think about what those numbers would be were 
it not for these interventions.
    The National Network to End Domestic Violence took a 24- 
hour national snapshot of domestic violence services, revealing 
that in just one day 72,245 victims of domestic violence 
received services because of what we do here, while 11,441 
requests for services went unmet due to lack of funding and 
resources. Sixty five percent of these requests were for 
housing.
    And the terrifying conclusion of domestic violence is often 
murder. Again, every day in the U.S. an average of three women 
are killed by a current or former intimate partner.
    In addition to this terrible cost to victims and families, 
again, this costs the communities and taxpayers; the cost of 
intimate-partner violence exceeds $5.8 billion every single 
year. U.S. employers estimate $3 to $13 billion annually that 
they lose because of domestic violence. And without funding, 
law enforcement officers, prosecutors, and judges would not 
have the training and the tools they need to ensure victims' 
safety.
    So I am going to end this, wrap this up to say that when a 
coordinated response is developed and immediate services are 
available, victims can escape from life-threatening violence 
and begin to rebuild their lives.
    And I do thank you, Mr. Chairman, Mr. Ranking Member, for 
listening to me, realizing, again, many Members will come in 
and everyone has legitimate concerns and budget requests, and I 
just don't want you to forget the women who are relying on 
this.
    [The prepared statement of Ms. Moore follows:]

                PREPARED STATEMENT OF HON. GWEN S. MOORE

    Chairman Culberson, Ranking Member Serrano, and 
distinguished members of the Commerce, Justice, Science 
Appropriations Subcommittee, thank you for this opportunity to 
provide testimony on the importance of investing in Violence 
Against Women Act (VAWA) programs and the Victims of Crime Act 
(VOCA). I appreciate the subcommittee's ongoing support for 
these lifesaving programs. On behalf of Wisconsin's Fourth 
Congressional District, I am pleased to have the opportunity to 
testify before you to urge your continued support of robust 
Federal investment in the successful, cost-effective VAWA ($571 
million) and release of the average of the last 3 years 
deposits from the Crime Victims Fund (CVF) administered by the 
U.S. Department of Justice in the fiscal year 2019 Budget.
    The crimes of domestic and sexual violence are pervasive, 
insidious and life-threatening. Domestic violence affects more 
than 12 million women and men every year.\1\ Additionally, 
nearly 15.5 million children are exposed to domestic violence 
every year.\2\ In Wisconsin, more than 1.8 million individuals 
have been raped or sexually assaulted.\3\ The 2017 Wisconsin 
Youth Risk Behavior Survey found that by the time females hit 
12th grade, nearly 13 percent have been raped, over 19 percent 
have experienced any form of sexual violence, and 10 percent 
have experienced physical dating violence. More broadly, over 
10 percent of students report having been forced into sexual 
activity. Victims of sexual assault are more likely to struggle 
professionally and academically while also suffering from 
depression, post-traumatic stress disorder, substance abuse, 
and suicide contemplation.
---------------------------------------------------------------------------
    \1\ National Center for Injury Prevention and Control, Nation 
Intimate Partner and Sexual Violence survey, available at https://
www.cdc.gov/violenceprevention/pdf/nisvs--report2010-a.pdf
    \2\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137 142.
    \3\ These are prevalence estimates using randomized, anonymous 
telephone surveys. Respondents did not necessarily report the crime to 
law enforcement. National Intimate Partner and Sexual Violence Survey: 
2010 Summary Report. Centers for Disease Control and Prevention. 2011. 
http://www.cdc.gov/violenceprevention/pdf/nisvs--report2010-a.pdf
---------------------------------------------------------------------------
    We are experiencing a watershed moment in our country as 
survivors of gender-based violence are coming forward after 
living in the shadows for years, even decades. The #MeToo 
movement, high profile cases, and the national focus on 
domestic and sexual violence has increased the need for 
comprehensive community responses and increased investment in 
resources to meet the needs of survivors. Our message to 
survivors must be clear: when you come forward for help and 
support, it will always be available. Our nation has made such 
phenomenal progress in understanding and addressing violence 
against women because Congress committed to make an ongoing, 
annual investment. Victims of these degrading and life-
threatening crimes rely on critical services funded through 
VAWA such as shelter, rape crisis services, legal assistance, 
counseling, and more. Communities across the country depend 
upon federal prevention funding to protect our young people. 
Federal funding of VAWA underpins our nation's improvements to 
the community-based response to domestic and sexual violence.
    Before the passage of VAWA, domestic violence was primarily 
seen as a ``family matter,'' sexual assault was in the shadows, 
and perpetrators were rarely arrested or prosecuted. VAWA has 
improved our nation's response to these horrendous crimes with 
unprecedented coordination between police officers, victim 
service providers, prosecutors, judges, and the criminal and 
civil justice systems. Professionals in all capacities are 
collaborating to reduce violence and meet the needs of 
survivors. VAWA fosters innovation and promotes best practices 
across the nation. Additionally, VAWA funds enable states to 
maximize their resources to have a huge impact on these 
efforts.
    VAWA's work is complemented by VOCA, which funds direct 
services to victims of all types of crimes, including domestic 
violence, sexual assault, dating violence and stalking. The 
infusion of VOCA funding is leading to the creation and growth 
of innovative programs. Together, VAWA and VOCA have fueled our 
undeniable national progress towards addressing violence 
against women. VAWA saved an estimated $12.6 billion in net-
averted costs in its first 6 years alone.\4\ Between VAWA's 
implementation in 1994 and 2011, serious victimization by an 
intimate partner declined by 72 percent for women and 64 
percent for men.\5\ A study has also demonstrated that an 
increase in the number of legal services available directly 
correlates to a decrease in intimate partner homicide.\6\ 
Another study found that VAWA funds, particularly the ones 
supporting law enforcement, were associated with a reduction in 
rape and aggravated assault.\7\
---------------------------------------------------------------------------
    \4\ Kathryn Andersen Clark et al., A Cost-Benefit Analysis of the 
Violence Against Women Act of 1994, 8 Violence Against Women 417 
(2002).
    \5\ FY 2017: Congressional Justification. (2016). United States 
Department of Justice, Office on Violence Against Women. https://
www.justice.gov/jmd/file/821736/ download; see also Catalano, S. 
(2013). Intimate partner violence: Attributes of victimization, 1992-
2011 (NCJ 243300). Washington, DC: U.S. Department of Justice, 
available at https://www.bjs.gov/content/pub/pdf/ipvav9311.pdf.
    \6\ Reckdenwald, A., & Parker, K.K. (2010). Understanding gender-
specific intimate partner homicide: A theoretical and domestic service-
oriented approach. Journal of Criminal Justice, 38, 951-958.
    \7\ Rachel Lilley, A Nationwide Assessment of Effects on Rape and 
Assault, http://journals.sagepub.com/doi/abs/10.1177/
1077801208329146?journalCode=vawa
---------------------------------------------------------------------------
    Funding cuts would erode our nation's progress on this 
critical issue. NNEDV's Domestic Violence Counts (the Census), 
a 24-hour national snapshot of domestic violence services, 
revealed that in just one day, 72,245 victims of domestic 
violence received services; while 11,441 requests for services 
went unmet due to lack of funding and resources. 65 percent of 
these requests were for housing. According to a survey by the 
National Alliance to End Sexual Violence, half of the Nation's 
rape crisis centers have a waiting list for counseling services 
and almost 40 percent of programs had a waiting list of a month 
or more for prevention programming. A study found that when 
sexual assault victims have the support of an advocate in the 
aftermath of an assault, they receive more helpful information, 
referrals and services, and experience less secondary trauma or 
revictimization by medical and legal systems. They also fare 
better in the short and long term and are more likely to file a 
police report than those without such support.\8\
---------------------------------------------------------------------------
    \8\ (Campbell, R. (2006). Rape survivors' experiences with the 
legal and medical system: Do rape victim advocates make a difference? 
Violence Against Women, 12, 30 45.
---------------------------------------------------------------------------
    For those individuals who are not able to find safety, the 
consequences can be dire, including homelessness, continued 
exposure to life-threatening violence, or death. The terrifying 
conclusion of domestic violence is often murder, and every day 
in the U.S. an average of 3 women are killed by a current or 
former intimate partner.\9\ In my home State, preliminary 
estimates of the most recent domestic violence homicide data 
shows that there were at least 54 lives were lost due to 
domestic violence. These are all deaths that will echo in those 
families, communities, cities, and the state. Thankfully, with 
the support of VAWA funding, my home district of Milwaukee is 
working to upend the tragic trajectory of needless death by 
implementing a domestic violence lethality assessment project, 
but not all victims get this life saving assessment.
---------------------------------------------------------------------------
    \9\ Bureau of Justice Statistics (2013). Intimate Partner Violence: 
Attributes of Victimization, 1993-2011 (Special Report NCJ243300)
---------------------------------------------------------------------------
    In addition to the terrible cost to individual victims and 
families, these crimes cost taxpayers and communities. 
According to the Centers for Disease Control, based on 1999 
figures, the cost of intimate partner violence exceeds $5.8 
billion each year, $4.1 billion of which is for direct health 
care services.\10\ Translating this into 2016 dollars, the 
annual cost to the nation is over $9 billion per year. In 
addition, domestic violence costs U.S. employers an estimated 
$3 to $13 billion annually.\11\ Without funding, law 
enforcement officers, prosecutors and judges would not have the 
training and tools they need to ensure victim safety and to 
hold perpetrators accountable. Over 20 years of progress, 
learning and investment is threatened if we don't continue to 
invest in these essential programs.
---------------------------------------------------------------------------
    \10\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003
    \11\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385.
---------------------------------------------------------------------------
    We know that when a coordinated response is developed and 
immediate, essential services are available, victims can escape 
from life-threatening violence and begin to rebuild their 
lives. To address unmet needs and build upon their successes, 
VAWA programs and the VOCA fund release should reflect the 
needs of victims. The progress and promise of these bills can 
only be fulfilled if the programs receive continued significant 
investment. I urge you to support full funding for all VAWA 
programs as you work on the fiscal year 2019 CJS bill. 
Additional VOCA funds are critically needed to respond to the 
crisis caused by the dangerous lack of available services for 
victims of domestic and sexual violence. Additionally, I urge 
you to continue to provide federal funding stream from VOCA for 
tribes.
    These programs work together to prevent and end domestic 
and sexual violence. We need to maintain our investment to 
build upon our successes and bring our progress to scale. Our 
federal resources create vital, cost-effective programs that 
help break the cycle, reduce related social ills, and will save 
our nation money now and in the future.
                              ----------                              

    Mr. Culberson. Thank you very much.
    There is strong support for both of these programs in the 
subcommittee and we have always done our very best to make sure 
to support them strongly, because we know how important the 
work is that they do and how vital it is for the well being and 
health of victims of crime, and for women that have suffered as 
a result of a crime or domestic violence.
    So, thank you very much for your testimony. We will do all 
we can to support these programs.
    Ms. Moore. Thank you so much, Mr. Chairman.
    Mr. Culberson. Mr. Serrano?
    Mr. Serrano. I agree with the chairman, there is bipartisan 
support for it.
    I just wanted to take a second, if I may, to ask you a 
quick question, because we have other folks who want to 
testify, but you say we have made progress and we have made 
progress, but where have we not made progress, or is it just in 
general that we have made progress and then left some things 
behind?
    Ms. Moore. I just really want to thank you for raising 
that. Our last reauthorization, for example, in the Violence 
Against Women Act ran into a little bit of a kerfuffle, because 
we were not as responsive to LGBTQ folks, we were not as 
responsible to people who were held hostage by their immigrant 
status, and also Native American women. And so we were able to, 
by extension create some opportunities for those women to be 
served, but we need to do better.
    I don't believe that we adequately increased the visas for 
immigrant women who were being held hostage, and beaten and 
bruised, by their immigration status. There are many fixes that 
need to be done to ensure that Native women are protected when 
they are on reservations to give tribal agencies and officials 
the authority to enforce laws against domestic violence for not 
only their intimate partner, but for other folks in the family. 
We have provided protections for the intimate partner, but if 
there were a daughter or a son who was also being abused, the 
law does not cover them.
    And, again, housing is one of the most critical services 
that we need. When someone is trying to escape their abuser, 
they need a place to go. And often we had housing problems for 
LGBTQ persons, because many of the shelters want to try to 
maintain a shelter environment for just safer families or just 
for women. And so we need to do better at having multi-use 
housing opportunities for folk.
    Mr. Serrano. Well, thank you so much.
    Mr. Chairman, I wanted to ask that question, because she 
was gracious enough to tell us that we have made progress and 
we have made. This committee has played a major role, your 
leadership has played a major role, but every so often we 
forget some people in the mix, and she made it very clear which 
are the people we have to concentrate on, and that is 
important.
    Thank you.
    Mr. Culberson. Thank you, Mr. Serrano. Every victim of a 
crime deserves to be protected.
    Mrs. Roby, any questions?
    Ms. Moore. Hi, Mrs. Roby.
    Mrs. Roby. Hi.
    Mr. Culberson. Thank you very much for joining us today.

 STATEMENT OF HON. BONNIE WATSON COLEMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Culberson. Thank you for joining us this morning. We 
are pleased to recognize Representative Bonnie Watson Coleman 
of the 12th District of New Jersey for your testimony.
    Ms. Watson Coleman. Thank you, Chairman.
    Mr. Culberson. Thank you very much for joining us.
    Ms. Watson Coleman. Thank you, Chairman Culberson and 
Ranking Member Serrano. And good morning to you, Mrs. Roby.
    I really appreciate the opportunity to speak on this 
important and bipartisan topic, reducing the prison population 
and offering effective reintegration programs to all people in 
BOP custody.
    The United States has seen a steady decrease in the Federal 
population in our system. In 2013, there were 220,000 people in 
BOP custody; today, there are 183,937. However, this positive 
trend has also highlighted a problem: roughly 40 percent of 
Federal inmates released are rearrested within 3 years.
    Fortunately, there are already established methods for 
changing this, including the use of residential reentry 
centers. Studies show that former inmates who are employed in 
high quality jobs and have close ties with family members are 
less likely to become part of this statistic and recidivate. 
Reentry centers help build those skills and experiences.
    Unfortunately, in 2017, the Department of Justice announced 
that it would cut funding for 16 residential reentry centers. 
These cuts mean that instead of participating in programs that 
are designed to help ease a person's transition into post-
prison life, they are instead kept in a prison environment, in 
a prison routine, away from the social support of family and 
friends, and left with zero training or assistance when they 
walk out on day one.
    Depriving people of the opportunity to obtain job and life 
skills not only further punish and hamstring the individual, it 
also threatens public safety by increasing the likelihood that 
the individual re-offend.
    Over the past few years, we have noted the inadequacies of 
the DOJ Federal Bureau of Prison's Release Preparation Program, 
RPP, including a 2016 review that showed a low RPP completion 
rate across the board and highlighted the poor coordination 
between BOP and other Federal agencies, and concluded more must 
be done to ensure that the RPP meets the needs of its inmates.
    The Federal Government cannot afford to take a step back in 
the important progress we have been making to improve outcomes 
in reentry.
    In addition to making the investments in effective 
programs, both the Administration and Congress alike would 
benefit from a better understanding of our prison population to 
maximize effectiveness, target services, and limit waste. This 
is why I am requesting that this subcommittee include report 
language in its fiscal year 2019 appropriations bill that would 
require the Department of Justice to evaluate the prison 
population, disaggregated by race, gender, age, and 
nationality, as well as the location of the person's custody. 
With this information, we can better assess our continued 
effectiveness at reducing the Federal prison population.
    In addition, I request the inclusion of language that would 
require the DOJ to produce guidelines and policies on effective 
reintegration programs in all of its reentry centers.
    This type of investment in people will help to further the 
committee's efforts to support programs that not only reduce 
the ballooning costs of keeping so many people behind bars, but 
also improve our public safety.
    I will submit additional comments for the record, but want 
to be respectful of the committee's time today.
    Again, thank you to Chairman Culberson and Ranking Member 
Serrano for allowing this testimony.
    Mr. Culberson. Thank you, Ms. Watson Coleman. I appreciate 
your testimony here today. And of course we are always 
interested in and focused on doing all we can to reduce 
recidivism, and encourage people to become productive members 
of society again once they have paid their debt to society.
    So, we thank you very much for coming in today.
    Ms. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Serrano?
    Mr. Serrano. Yes, I also want to thank you for your 
testimony and for the numbers you gave us.
    We are all committed, those of us that we deal with these 
issues like you and myself and others, to make sure that we 
lower our prison population and we also lower the number of 
people who go back into prison, and that is something we have 
to say. This country has too many people in prison, and for a 
country that is so advanced, it is a sort of mark that we 
cannot figure out, and we have to work on it, and we are 
committed to it.
    So, thank you for your testimony.
    Ms. Watson Coleman. Thank you, Mr. Serrano. Thank you very 
much.
    Mr. Culberson. Thank you, Mr. Serrano.
    Any questions, Members?
    Thank you very much for your testimony.
    Ms. Watson Coleman. Thank you for allowing my testimony.
    Mr. Culberson. Absolutely.
    Ms. Watson Coleman. Have a nice day.
    Mr. Culberson. We look forward to hearing from you. Thank 
you very much.
    [The prepared statement of Mrs. Watson Coleman follows:]

            PREPARED STATEMENT OF HON. BONNIE WATSON COLEMAN

    Thank you Chairman Culberson and Ranking Member Serrano for 
allowing me to speak on this important and bipartisan topic--
reducing the prison population and offering effective 
reintegration programs to all people in BOP custody.
    The United States has seen a steady decrease in the federal 
inmate population. In 2013 there were 220,000 people in BOP 
custody. Today there are 183,937. However, this positive trend 
has also highlighted a problem: roughly 40 percent of Federal 
inmates released are rearrested within 3 years. But there are 
already established methods for changing this. Studies show 
that former inmates who are employed in high quality jobs and 
have close ties with family members are less likely to become 
part of this statistic and recidivate. Federal inmates nearing 
the end of their release are eligible for reintegration courses 
in residential re-entry centers. It is here that inmates can 
receive employment counseling, job placement and financial 
management assistance to prepare them for productive lives 
after their sentences.
    Unfortunately in 2017, the Department of Justice announced 
that it would cut funding for 16 residential re-entry centers. 
These cuts mean that instead of participating in programs 
designed to help ease a person's transition into post-prison 
life, they are instead kept in a prison routine, away from the 
social support of family and friends and left with zero 
training or assistance when they walk out on day one. Depriving 
people of the opportunity to obtain job and life skills not 
only further punish and hamstring the individual, it also 
threatens public safety by increasing the likelihood that the 
individual will reoffend.
    In 2016 the Department of Justice reviewed the Federal 
Bureau of Prison's Release Preparation Program (RPP). The 
department concluded that more must be done to ensure that the 
RPP meets the needs of inmates. The review also showed a low 
RPP completion rate across the board, and it highlighted the 
poor coordination between BOP and other federal agencies. Mr. 
Chairman, more must be done ensure that there is a standardized 
RPP curriculum, and that RPP courses target specific risk 
factors for each inmate.
    The Federal Government cannot afford to take a step back in 
the important progress we have been making to improve outcomes 
in reentry. In addition to making the investments in effective 
programs both the Administration and Congress alike would 
benefit from a better understanding of our prison population to 
maximize effectiveness, target services, and limit waste. An 
important way for the Bureau of Prisons to measure its 
effectiveness in reducing recidivism is to have an accurate 
accounting of the prison population. With this information, we 
can better provide people who are re-entering society with 
effective programs that give them the confidence and tools to 
succeed once they have served their time.
    That is why I am requesting that this subcommittee include 
report language in its fiscal year 2019 Appropriations Bill 
that would require the Department of Justice to evaluate the 
prison population, disaggregated by race, gender, age, and 
nationality, as well as the location of the person's custody. 
With this information, we can better assess our continued 
effectiveness at reducing the Federal prison population. In 
addition, I request the inclusion of language that would 
require the DOJ to produce guidelines and policies on effective 
reintegration programs in all residential re-entry centers.
    This type of investment in people will help to further the 
committee's efforts to support programs that not only reduce 
the ballooning costs of keeping so many people behind bars, but 
also improve public safety.
    Thank you again Chairman Culberson and Ranking Member 
Serrano for allowing this testimony.
                              ----------                              


STATEMENT OF HON. J. FRENCH HILL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARKANSAS

    Mr. Culberson. We are pleased to recognize the gentleman 
from Arkansas, Congressman French Hill, for his testimony 
today.
    Thank you for joining us.
    Mr. Hill. Thank you, Mr. Chairman, thank you, Ranking 
Member Serrano, for letting me appear today to talk about a 
similar-theme subject that you just heard from my colleague. I 
want to talk about our historically black colleges and 
universities and their impact on curbing recidivism in our 
prison population.
    Today in America, according to the Federal Bureau of 
Prisons, we spend an average of $32,000 a year per inmate on a 
prison population that dwarfs, as you all very well know, the 
rest of the world. Each year, more than 600,000 people leave 
our prisons, but three quarters of them recidivate within 5 
years. This is detrimental to American families, American 
communities, and to our economy.
    How do we hold offenders accountable for their actions 
without denying them a return as a contributing member of 
society?
    In Arkansas, Arkansas Baptist College, a historically black 
college in my district, along with the only 2-year private 
historically black college and university in my district, 
Shorter College, both have worked hard on this subject. ABC has 
partnered with the Arkansas Department of Community Correction 
to provide an entrepreneurship program for prison inmates 
during their last 6 months of their sentence. The program 
serves as a transitional phase for inmates to gain academic and 
spiritual development, and encourages them to continue in their 
education at the school after their release.
    Last year, I introduced legislation that would establish a 
pilot program at the U.S. Department of Justice to provide 
grants to HBCUs to implement educational programs for eligible 
offenders and help them successfully transition back to their 
communities.
    The average cost of attending an HBCU is around $16,000 a 
year. We spend upwards of $80 billion every year on warehousing 
inmates when we could be saving valuable taxpayer funds.
    I believe we must look at this as not only a matter of 
financial cost, but one of human cost, and that is why I urge 
your committee to include the following language in its bill 
report to support the efforts of our HBCUs to address this 
critical need. The language reads, ``The committee supports the 
U.S. Department of Justice's coordination and collaboration 
with historically black colleges and universities to provide 
educational programs for recently released and soon to be 
released criminal offenders to assist them in obtaining skills 
that will help them successfully transition back into their 
communities and reduce recidivism rates.''
    I met for the last 3 years consistently with people in 
Little Rock and the surrounding area about this topic, about 
how do we increase transition in our prison system, both in 
Community Corrections and in the Department of Corrections, and 
it is a huge challenge for every governor and every community.
    Each year, in the State prison system, we release about 
10,000 people in the State. And I would say 30 percent of them 
maybe have a plan due to a previous life, so 60 percent don't. 
They all have drug and alcohol abuse issues, they all need to 
raise the scale of what we are doing to get them ready to 
transition and have a transitional plan, and I think the HBCUs 
in our country are a major contributor to that.
    The second and final thing I would like to address to the 
committee today is on the subject of mental health. As you 
know, the Congress has been quite active on this topic since we 
passed 21st Century Cures and there is no doubt, on a 
bipartisan basis, this is an important issue that we are all 
concerned about. I would like to discuss the Mentally Ill 
Offender Act.
    Today in America, a behavioral health epidemic has 
manifested in bigger, more increased drug usage, rising suicide 
rates, and a nationwide life expectancy that has fallen for the 
second year in a row.
    Too many times, Americans suffering from mental illness 
turn to self-medication, using alcohol, prescription 
painkillers, and illegal substances. On average, opioid use 
kills 115 Americans a day. We must take strong steps to address 
this epidemic through comprehensive strategies and work to 
ensure that our State and local governments are equipped to 
care for our nonviolent offenders that have mental health and 
substance abuse disorders, which in my survey of Arkansas 
inmates is all of the above.
    I hope you will give full and fair consideration to funding 
the Mentally Ill Offender Act, which provides grants to those 
overburdened State and local governments to support mental 
health courts, training to staff, and mental health and 
substance abuse treatment services, with the purpose of better 
addressing the needs of nonviolent offenders. By supporting 
these entities and addressing the substance abuse and mental 
health issue of nonviolent offenders, we can lower the impact 
of the opioid epidemic and decrease recidivism.
    I appreciate the committee in your consideration of these 
requests and the opportunity to appear before you today. Thank 
you very much.
    [The prepared statement of Mr. Hill follows:]

               PREPARED STATEMENT OF HON. J. FRENCH HILL

    Chairman Culberson and Ranking Member Serrano thank you for 
the opportunity to testify this morning.

                          HBCUs and Recidivism

    Today, in America, according to the Federal Bureau of 
Prisons, we spend an average of $32,000 a year per inmate on a 
prison population that dwarfs that of the rest of the world.
    Each year, more than 600,000 people leave our prisons, but 
three-quarters of them recidivate within 5 years. This is 
detrimental to American families, American communities, and to 
the American economy.
    How do we hold offenders accountable for their actions 
without denying them a return as contributing members of 
society?
    In Arkansas, Arkansas Baptist College has partnered with 
the Arkansas Department of Community Correction to provide an 
entrepreneurship program for prison inmates during the last 6 
months of their sentence. The program serves as a transition 
phase for inmates to gain academic and spiritual development 
and encourages them to continue in their education at the 
school after their release.
    Last year, I introduced legislation that would establish a 
pilot program at the U.S. Department of Justice to provide 
grants to Historically Black Colleges and Universities (HBCU) 
to implement educational programs for eligible offenders and 
help them successfully transition back into their communities.
    The average cost of attending an HBCU is around $16,000 per 
year. We spend upwards of $80 billion every year on warehousing 
inn1ates, when we could be saving valuable taxpayer funds. I 
believe that we must look at this as not only a matter of 
financial cost, but also as one of human cost.
    That is why I urge your committee to include the following 
language in its bill report to support the efforts of our HBCUs 
to address this critical need:

    The Committee supports the US. Department of Justice's 
coordination and collaboration with Historically Black Colleges 
and Universities to provide educational programs for recently 
released and soon to be released criminal offenders to assist 
them in obtaining skills that will help them successfully 
transition back into their communities and reduce recidivism 
rates.

    Thank you for your consideration of this request.

                             Mental Health

    I would also like to discuss mental health and support for 
the Mentally Ill Offender Act. Today, in America, a behavioral 
health epidemic has manifested in increased drug usage, rising 
suicide rates, and a nationwide life expectancy that has fallen 
for the second year in a row.
    Too many times, Americans suffering from mental illness 
turn to self-medication using alcohol, prescription 
painkillers, and illegal substances. On average, opioid use 
kills 115 Americans a day. We must take strong steps to address 
this epidemic through comprehensive strategies and work to 
ensure that our State and local governments are equipped to 
care for non- violent offenders with mental health and 
substance abuse disorders.
    I hope that you will give full and fair consideration to 
funding the Mentally Ill Offender Act, which provides grants to 
these overburdened state and local governments to support 
mental health courts, training to staff, and mental health and 
substance abuse treatment services with the purpose of better 
addressing the needs of non-violent offenders. By supporting 
these entities in addressing the substance abuse and mental 
health issue of non-violent offenders, we can lower the impact 
of the opioid epidemic and decrease recidivism
    I appreciate your consideration of this request and thank 
you for the opportunity to testify.
                              ----------                              

    Mr. Culberson. Thank you very much for joining us today. 
They are both very worthwhile ideas. And I appreciate very much 
your authoring this legislation and bringing it to our 
attention, helping to do all we can to encourage inmates to 
rejoin society after they have paid their debt and this is a 
particularly good way to do that.
    So, thank you very, very much.
    Mr. Serrano?
    Mr. Serrano. Thank you for your testimony. And we take very 
seriously on a bipartisan basis on this subcommittee the idea 
of reducing prison population and also making sure that people 
reintegrate into society properly, and so your words resonate 
with us and we take them very seriously. We will be working on 
that in a joint fashion as time goes on during the months 
ahead.
    We thank you.
    Mr. Hill. I thank the ranking member.
    Mr. Culberson. Members, any questions?
    Congressman Hill, thank you very much.

    [Additional material submitted for inclusion in the record 
follows:]

 Submitted Statement of Hon. Jacky Rosen, a Representative in Congress 
                        from the State of Nevada

    Chairman Culberson, Ranking Member Serrano, and Members of 
the Commerce, Justice, Science, and Related Agencies 
Subcommittee, thank you for the opportunity to submit written 
testimony for the record in support of STEM programs at the 
National Science Foundation (NSF).
    As a former systems analyst, I know that STEM and computer 
science are central to our country's economic growth, 
employment, and commitment to innovation. In Nevada and across 
the country, we are continuing to see a huge demand for workers 
in STEM fields, with software developers, mathematicians, and 
health aides among the fastest growing occupations. Many Nevada 
businesses are facing a worker shortage, unable to find the 
talent they need to continue to grow the local economy.
    That is why my top two requests in the fiscal year 2019 
Commerce, Justice, Science, and Related Agencies Appropriations 
bill are:

     1. Fully funding NSF's Computer and Information Science 
and Engineering (CISE) research directorate
     2. Ensuring that NSF focuses on engaging our Nation's 
children in STEM education as early as possible.

    CISE supports research in computing, communications, 
information science, and engineering. Through their NSF-
supported work, our Nation's scientists have been able to 
develop innovative solutions in energy, advanced manufacturing, 
national security, healthcare, and personal communications.
    CISE also provides advanced cyber infrastructure for all 
areas of science and engineering, and it contributes to the 
education and training of computer engineers--ensuring our 
future generations are well-equipped with the skills they need 
in an increasingly competitive global market.
    In order for our workforce to continue to push the 
boundaries, we must invest in research and training programs at 
NSF. CISE is particularly important because it provides funding 
for cutting-edge computing and information science research--
which is critical to innovation in nearly all lines of work 
from business to government.
    Another successful NSF program is the Discovery Research 
PreK-12 program, which seeks to enhance the learning and 
teaching of STEM and address the immediate challenges that are 
facing PreK 12 STEM education. However, the majority of its 
current research focuses on students in middle school and 
older.
    Studies have found that children who engage in scientific 
activities from an early age develop positive attitudes toward 
science and are more likely to pursue STEM careers later on. In 
fact, interviews with current graduate students and scientists 
found that the majority of them reported that their interest in 
science began before middle school.
    That is why I urge this subcommittee to include language in 
your appropriations bill to direct NSF to consider age 
distribution when awarding Discovery Research PreK 12 grants, 
in order to more equitably allocate funding for research on 
early childhood. Since having access to hands-on STEM 
experiences as early as possible is important for continued 
interest, including this language below will ensure that NSF 
focuses on engaging our Nation's children in STEM education 
even younger.
    Members already expressed their strong support for such a 
policy when similar language unanimously passed the House as 
part of my bipartisan Building Blocks of STEM Act (H.R. 3397), 
which is now awaiting action in the Senate.
    Thank you for your consideration of these proposals to make 
greater investments in STEM and help us meet the demands of our 
21st century economy.
                              ----------                              


Submitted Statement of Hon. Judy Chu, a Representative in Congress from 
                        the State of California

    Chairman Culberson, Ranking Member Serrano, and members of 
the committee;
    Thank you for considering my testimony in strong support of 
the National Aeronautics and Space Administration (NASA). 
Specifically, I request $2,234,700,000 in funding for the 
Planetary Science Mission Directorate and support for all 
ongoing and upcoming missions taking place at the Jet 
Propulsion Laboratory (JPL). JPL, operated by the California 
Institute of Technology (Caltech), has represented the vanguard 
of American space exploration and research since 1958--the 
first time an American craft reached space--and continues to 
make groundbreaking discoveries that pave the way for mankind's 
exploration of our solar system and beyond.
    This year marks the 60th anniversary of Explorer 1, 
America's first entry into space, built by JPU/Caltech before 
the establishment of NASA. The satellite carried history's 
first science experiment to occur in space, confirming the 
existence of the Van Allen radiation belt around Earth. Since 
then, JPL has been responsible for many of mankind's most 
impactful achievements in space exploration. The Voyager 
Mission--humanity's deepest venture into the universe--
continues to provide data from interstellar space over 401 
years after its launch. Galileo, which plunged into Jupiter's 
crushing atmosphere on Sept. 21, 2003, changed our 
understanding of the solar system when it discovered the 
possibility of a vast ocean beneath the icy crust of the moon 
Europa--a body JPL will explore in the next decade. In 
September 2017, we witnessed the ``grand finale'' of the 
Cassini mission to Saturn and its moons. The spacecraft 
discovered seven moons, measured Saturn's rotation, and became 
the first craft to orbit the planet.
    Robust Federal funding is critical to JPL's mission of 
continuing their groundbreaking Mars exploration missions. When 
JPL's Pathfinder rover landed on the surface of Mars in 1997 as 
part of NASA's Mars Exploration Program, the United States 
became the first country to successfully navigate the surface 
of the red planet. Since then, JPL has conducted over twenty 
years of uninterrupted Mars exploration. Mars exploration 
missions study the planet's climate and geology, and have even 
found evidence that water once flowed abundantly. These 
discoveries lay the groundwork for a manned mission to Mars in 
the future. In May 2018, the InSight spacecraft will take the 
pulse of Mars, drilling below the planet's surface to measure 
heat flow and listening for quakes with the first seismometer 
to travel beyond Earth. Mars 2020, NASA's next Mars rover 
mission, will collect surface samples to cache in advance of 
the future Mars Sample Return mission.
    JPL's discoveries are not limited to our planetary 
neighbors. The Gravity Recovery and Climate Experiment (GRACE) 
mission tracks water flows from Earth's orbit by measuring 
gravitational pull of water. Its data was instrumental in 
helping California monitor subsidence and water usage during 
one of the State's worst droughts in history. The twin 
spacecraft gathered precise data about glaciers, aquifers, and 
other water sources by measuring how the water's fluctuating 
mass affected passing satellites. GRACE's data increased the 
accuracy of environmental forecasting and monitoring worldwide, 
and its successor, GRACE-FO, promises to continue and deepen 
that legacy.
    Federal investment in space exploration results in wide-
reaching impacts far beyond NASA. Technologies developed at JPL 
have applications here on Earth, spurring development through 
spinoffs and technology transfers. Here are some examples:

     1. The complementary metal oxide semiconductor (CMOS) 
image sensor, developed by JPL scientist Eric Fossum, would 
become NASA's most used spinoff technology. The technology now 
dominates the digital imaging industry and is responsible for 
cell phone cameras and high-definition video.
     2. JPL's Airborne Snow Observatory (ASO) provides accurate 
estimates of the amount of water in California's Sierra Nevada 
snowpack, and measures the rate of water runoff using remote 
sensing technology. The technology provides real-time, high 
resolution maps to complement manual measurements.
     3. JPL's FINDER, or Finding Individuals for Disaster and 
Emergency Response, enables first responders to rescue victims 
trapped beneath rubble after disasters like earthquakes. The 
suitcase-size device uses low-power microwave radar to detect 
breathing and heartbeats, even beneath several feet of debris 
and rubble. FINDER can even distinguish between humans, 
animals, and mechanical movement.
     4. JPL's development of precise GPS measurements enabled 
John Deere to build the first autonomous tractors for 
consumers. Self-guiding tractors now work an estimated one- 
third of all farmland in North America.
     5. JPL developed the technology behind the infrared 
thermometer while building the Infrared Astronomical Satellite 
(IRAS). The thermometer technology resulting from that mission 
is now ubiquitous in doctors' offices and households worldwide.

    Your continued support for NASA science missions will 
ensure American leadership in space, science, and exploration. 
The next generation of discoveries depends on strong funding, 
so I urge you to recognize the important work being done at JPL 
and NASA space centers across the country by appropriating the 
funds they need to carry out their work.
                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 26, 2018.

                         DEPARTMENT OF JUSTICE

                                WITNESS

HON. JEFF SESSIONS, ATTORNEY GENERAL
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order.
    Attorney General Sessions, it is my pleasure to welcome you 
to testify today on your fiscal year 2019 budget request. This 
committee has always made it a priority to support the work of 
the Justice Department. We honor our Federal, state, and local 
law enforcement officers for their tireless and invaluable 
service to our country, to protect our communities, and we will 
continue to work together on this committee to do everything we 
can to ensure that law enforcement officers across the country 
and the Department have the money and the resources they need 
to protect this great Nation.
    In the final fiscal year 2018 appropriations bill, this 
subcommittee provided the Department significant increases 
above your request to be sure that you had the resources that 
were necessary to conduct the investigations and prosecutions 
of terrorism, human trafficking, gun crimes, and immigration 
crimes, and to fight the growing epidemic of opioid abuse. 
However, the fiscal 2019 budget request was submitted prior to 
the budget agreement and, therefore, as a result, Office of 
Management and Budget (OMB) submitted a request for 2019 for 
Federal law enforcement that would actually result in 
significant cuts for all of these critical law enforcement 
agencies, and I want to make it clear that this committee will 
not support OMB's proposal to cut the resources available to 
our law enforcement officers that are so important to protect 
this country and our communities.
    Mr. Attorney General, you and I have discussed many times 
the treatment of sanctuary cities. I have worked with the 
previous administration to ensure that Department of Justice 
(DOJ) policy was changed in the summer of 2016, so that state 
and local law enforcement agencies understood very clearly that 
if they expect to receive federal dollars, they must follow 
federal law and cooperate with Federal law enforcement agencies 
in identifying and deporting individuals in the country 
illegally who have been convicted of a crime and are housed in 
a state prison or county jail, so that they can be deported 
immediately upon their release.
    That is just common sense. These agencies, these local 
governments and states should not ask for federal dollars 
unless they comply with Federal law. And, as we all know, the 
most fundamental tenet of good law enforcement is cooperation. 
Sharing information, working together as a team is the only way 
to really fight crime and protect this great Nation.
    So I look forward to working with you to effectively 
implement the policy that I succeeded in persuading your 
predecessor to implement in the summer of 2016 for the Edward 
Byrne Memorial Justice Assistance Grants (Byrne JAG) programs 
for State Criminal Alien Assistance Program (SCAAP) and 
Community Oriented Policing Services (COPS), and I want to 
ensure that this is done as promptly as possible, so that those 
state and local law enforcement agencies that are doing their 
job and are cooperating receive their Federal grant money as 
quickly as possible, and those that refuse to cooperate 
understand that you cannot ask for Federal money unless you 
comply with Federal law.
    As the fiscal year 2019 appropriations process moves 
forward, the committee will work together to ensure that 
Federal law enforcement agencies have the support, the 
resources they need above what the Administration proposes, so 
they can sustain the activities funded in the fiscal year 2018 
bill and build on them.
    I in particular, Mr. Attorney General, want to encourage 
the Department to do all that you can to fight human 
trafficking and drug trafficking. I am very grateful to see 
your initiative to implement a zero-tolerance policy on the 
border, so that the border is secure. I have found that the 
most zealous supporters of border security are the people who 
live right on the river, right on the border, because they 
suffer the most from gangs and drugs and thugs coming across 
the border, and interfering with the peace and safety and 
security of their communities. And we also have to do it, 
frankly, on a humanitarian level. It is a catastrophe and it is 
heartbreaking to see the human trafficking and the dangers that 
people face in coming to the United States. If we enforce the 
law, the problem will resolve itself.
    So, I am very grateful to you, Mr. Attorney General, for 
the work that you are doing, and we will look forward to 
working with you to provide you the resources that you and your 
officers need to protect this great Nation.
    And I am at this time glad to recognize my good friend Mr. 
Serrano from New York for any opening comments he would like to 
make.
    Mr. Serrano. Thank you, Mr. Chairman, and welcome, Mr. 
Attorney General.
    Although you have been in office for 15 months, this is 
your first time testifying before this subcommittee. Last year, 
you broke tradition by refusing to appear before us, the first 
time in decades that an Attorney General declined to appear 
before this committee. I would note that during the same period 
you managed to testify before the authorizing committees, as 
well as the Senate Intelligence Committee. Suffice it to say, 
you are operating with a deficit of goodwill on this side as a 
result.
    Unfortunately, this treatment has been par for the course 
in this committee's dealings with the Administration. Just 
recently, the Department ignored clear direction from Congress 
by bringing to an end the Legal Orientation Program and the 
Immigration Court Helpdesk programs. As announced yesterday, it 
appears that your views on this subject have changed, but I 
remain concerned that such an action was contemplated despite 
clear instructions from this committee.
    That announcement was just one in a long line of troubling 
actions taken by this Department and this Administration to 
undermine fairness, due process, and civil rights in this 
Nation. The announcements of the past 16 months are almost too 
many to comprehend: efforts to undermine public safety in 
sanctuary cities by reducing law enforcement funding, attempts 
to impose case quotas on our immigration judges, proposing to 
eliminate the Community Relations Service in this year's 
budget, ending police/community collaborative reform efforts, 
the list goes on and on.
    A clear theme emerges from all of this, an intentional 
effort to minimize and ignore the concerns of large segments of 
the American population: minorities, immigrants, LGBTQ 
community, and those that have suffered discrimination in this 
country.
    For generations, the Department of Justice has been at the 
forefront of the fight to prevent discrimination and to uphold 
the constitutional values of all Americans. This proud legacy 
is under threat from the choices you make in your budget.
    Looming over all of these issues are the ongoing 
investigations by the Special Counsel and now the U.S. 
Attorney's Office for the Southern District of New York into 
Russia's interference in our 2016 elections and possible 
collusion by the Trump campaign. Our country needs a full 
accounting of Russia's actions to undermine our democracy, so 
that we can effectively work to prevent interference in the 
2018 election and beyond. You and a small group of senior level 
officials in the Department stand at the nexus of ensuring the 
White House does not interfere further in these investigations.
    I am worried that the President's ongoing attacks on the 
Department, in tandem with the retreat from some of the core 
missions of the agency, are doing a terrible disservice to the 
tens of thousands of DOJ employees that maintain justice, at 
the Federal Bureau of Investigation (FBI), the Drug Enforcement 
Administration (DEA), and the Bureau of Alcohol, Tobacco, 
Firearms and Explosions (ATF), and elsewhere. These individuals 
are committed to the hard and selfless work of serving and 
improving our Nation. There is a real fear there and throughout 
this Nation that many of the norms of our democracy are falling 
by the wayside, and that your agency's leadership is doing 
little to stop this decline.
    I look forward to discussing these issues with you today, 
Mr. Attorney General, and I thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    It is my pleasure to introduce the full committee chairman, 
the gentleman from New Jersey, Mr. Frelinghuysen.
    The Chairman. Good morning. Thank you, Mr. Chairman, for 
the time and for your strong leadership in the committee, 
working very closely with your ranking member, Mr. Serrano of 
New York.
    I also want to welcome our Attorney General to the 
Appropriations Committee. I look forward to your testimony, and 
hearing your frank and candid views on a wide range of issues.
    I say at every meeting, the power of the purse lies in this 
building. It is the constitutional duty of Congress to make 
spending decisions on behalf of the many people we represent at 
home, and certainly I would obviously urge your continued 
active engagement with the bill payers, which this committee 
represents.
    And I work very closely with Mrs. Lowey from New York, who 
I assume will join us shortly, and we look forward to getting 
our appropriations bills through. I think you may know, we did 
your bill in July of last year and it was packaged up in 
September, and then there was a huge hiatus. We like to blame 
it on the other body, but we did come together, and hopefully 
have given you the resources that you need.
    Mr. Attorney General, I am pleased you are sitting here 
this morning as the 84th Attorney General of the United States, 
representing the people of the United States. It is your 
responsibility as our Nation's chief law enforcement officer to 
enforce the laws and defend the interests of the United States 
against all threats, foreign and domestic, ensuring a fair and 
impartial administration of justice for all Americans.
    I am especially proud of the work of your Department's law 
enforcement agencies, which the chairman has invoked, including 
the FBI, the good work of the DEA, the U.S. Marshals Service, 
and others. I have gotten to know and respect those in the New 
York/New Jersey region that do some remarkable things, 
sometimes under the radar screen, and they do it well and we 
are hugely proud of their professionalism.
    It is abundantly clear our Nation needs you and the men and 
women of your Department to protect our Nation as we face 
mounting and complex challenges, some of which the chairman has 
mentioned: the opioid epidemic; cyber-related attacks on 
private and public information technology (IT) infrastructure; 
human trafficking, which the chairman has mentioned; and 
heightened threats. I come from a 9/11 community where New 
Jersey lost 700 of its citizens on September 11th. We are 
acutely aware, even though time has passed, of the 
vulnerabilities we have.
    I would like to focus on and applaud your dedication to 
attacking the opioid epidemic. In the fiscal year 2018 spending 
bill, this committee has made a substantial investment, 
actually the largest to date--and this is not only in your 
committee, but across a variety of different committees--
providing your Department, along with many other agencies 
across the Federal Government, with increased funding to 
respond.
    Further, as you are fighting the deadliest drug epidemic in 
our recent memory, I share your concerns that our Nation will 
face additional consequences with the growing availability of 
marijuana. As we march down that road, it appears, of greater 
legalization, and I know it is not without controversy, really 
in direct contradiction of current law, I fear and certainly I 
speak for myself primarily, we don't fully understand the 
consequences and impacts of actions we take on our children and 
potentially our grandchildren. I am concerned about that very 
much, sir, as you are.
    Saying that, Mr. Attorney General, Mr. Chairman, thank you 
for having this hearing. I want to thank you and your staff for 
the remarkable work you have been doing to pull this bill 
together and provide the Department of Justice the resources 
they need, and I yield back.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Attorney General, we are pleased to have you here 
today, and your statement will be entered into the record in 
its entirety, if there is no objection. And we would welcome 
your summary of your testimony and we look forward to hearing 
from you, sir. Thank you.
    Mr. Sessions. Thank you very much, Mr. Chairman, and I 
appreciate very much the opportunity to be with you.
    And, Chairman Frelinghuysen, I thank you for your support 
and for the committee in the 2018 budget. You are correct, it 
was a strong affirmation of the efforts we have on opioids and 
other matters.
    It is an honor of a lifetime to serve as Attorney General 
of the United States, to sit here representing the men and 
women of the Department of Justice. You can be sure I 
understand the importance of the office I hold and the 
responsibilities I face, and that I strive every day to be 
worthy of that challenge.
    Every single day, the 115,000 men and women of the 
Department work to protect national security, defend civil 
rights, reduce violent crime, stop deadly drug dealers and 
their organizations, and to strengthen the traditional, 
important, critical rule of law in our country.
    I would like to lay out some priorities that are reflected 
in our budget request.
    First, the Department has rapidly moved to improve 
partnerships with our State and local officers. If you want to 
reduce crime in America--and the President, in his first 
executive order to us, said reduce crime in America--you have 
to work with the 85 percent of the law enforcement officers who 
are State and local, the people in your communities. That is 
where the action really is and we can help them in many ways.
    And just recently we were reminded of their sacrifice and 
all of the sacrifices we ask of our men and women in blue. 
Officers Crystal Almeida and Rogelio Santander responded to a 
routine call at a Home Depot in Dallas, but they did not return 
home, and today we mourn with the families of Santander and 
Almeida, and the men and women of law enforcement who suffer 
with them. They deserve our support. They are out there every 
day, they are the key to reducing crime in America, their 
morale and affirmation that we give them are critical to the 
success of their work.
    So, after two decades of declining crime in our country, we 
have done some really good things and it takes time to alter 
the dynamics, the crime rate went up by nearly 7 percent in 
2015 and 2016, the violent crime rate did. Assaults went up 
nearly 10 percent, rape went up nearly 11 percent. Murder 
increased in this country in '15 and '16 by 20 percent, the 
highest increase as we have seen since 1968. So, President 
Trump, our Federal officers, our local law enforcement 
partners, are determined this increase will not continue.
    Our prosecutions of illicit gun, gun violators, violent 
crime, gangs, opioids, and immigration offenses are going up. 
In 2017, we brought cases against more violent criminals than 
in decades. We charged the most Federal firearm prosecutions in 
a decade. We convicted nearly 500 human traffickers, 1200 gang 
members.
    Your strong support, your strong support for our work is 
appreciated and it means that we can sustain our Project Safe 
Neighborhoods Program where our United States Attorneys out in 
America, where crime is occurring every day, will meet with 
local police and law enforcement and community leaders to 
develop crime-reduction plans based on local needs. This is the 
program that has been proven scientifically in the past to 
work, we believe, and know really it will be successful again.
    Indeed, there are some good signs that we are seeing 
already in the preliminary data for 2017. The increases in 
murder and violent crime appear to have slowed, and violent 
crime may actually have gone down in 2017.
    We also embraced the President's goal of reducing 
prescription drugs. Too many are out there. He proposes that we 
reduce the amount of prescription drugs actually being moved 
into our country by one third. I believe that is a reasonable 
amount and we are determined to do our part to achieve it; it 
will reduce addiction, it will reduce overdose deaths. We are 
simply prescribing too many.
    This Department is going after drug companies, doctors, 
pharmacists, and others who violate the law using civil, 
criminal, and sound regulatory powers.
    I have directed that every United States Attorney establish 
an opioid coordinator to focus on this deadly activity. Indeed, 
we have already charged hundreds of people suspected of 
contributing to the ongoing opioid crisis, including over 50 
doctors, for opioid-related crimes. Sixteen of these doctors 
prescribed more than 20 million pills illegally.
    Our Organized Crime and Drug Enforcement Task Forces 
(OCDETF) have also arrested more than 6,500 defendants in 
opioid-related investigations and forfeited more than $150 
million.
    And let me just note, I think you probably all know that 
the leading cause of death in America for people 50 and below 
is drug overdoses. This is a stunning statistic. The leading 
cause of death for people 50 and below. So I think you are 
correct, the President is correct, to declare this a national 
health emergency and say we have got to do something different. 
And we are not waiting 3, 4, 5 years down the road, we need to 
get moving now to change these trends.
    Amazingly, in the last month alone the DEA has seized a 
total of more than 90 kilograms of suspected fentanyl, 2.2 
pounds per kilogram. They were seized from Detroit to New York 
to Boston. Fentanyl is 50 times more powerful than heroin. It 
is so powerful that an amount equivalent to a pinch of salt is 
enough to be deadly.
    We must acknowledge the vast majority of fentanyl, 
methamphetamine, heroin, and cocaine first come across the 
Southern Border, that is where it is all coming from. It used 
to be many sources, now almost all is coming across the border. 
And we are working with our Department of Homeland Security 
partners to reduce and ultimately end illegal immigration, 
which also will help us take on transnational criminal 
organizations and reduce the drugs pouring across the border.
    We are streamlining and increasing prosecutions, we are 
targeting criminal aliens, and Congress provided enough funding 
for 100 new immigration judges in the recent omnibus. It will 
help us reduce the backlogged caseload that is out there. We 
needed that, thank you for that.
    Mr. Chairman, I would like to address another matter I know 
is important to the committee, the Legal Orientation Program. I 
have expressed some concerns about the program and the 
Executive Office for Immigration Review has expressed its 
intent to pause two parts of that program pending the results 
of a formal review of the program. I recognize, however, that 
this committee has spoken on the matter. I have reviewed your 
report language and, out of deference to the committee, I have 
ordered that there be no pause until that review is conducted 
and completed. And I look forward to evaluating the findings 
with you and communicating with you about that.
    Our explicit goal at the Department of Justice, let me be 
clear, is to reduce violent crime, not to preside over 
increases; to reduce the surging increase in homicides, to 
reduce drug overdose deaths, and reduce opioid prescriptions, 
among other things. I believe these priorities are your 
priorities, I believe they are the American people's 
priorities.
    So, finally, let me say with all the strength I can muster 
that no nation has a finer group of law officers than those who 
comprise the FBI, the DEA, the ATF, and United States Marshals 
Service (USMS). They are right now, 24 hours a day, in every 
corner of America, working courageously and faithfully to 
protect this Nation and our people. And when we face criticism, 
and it is a free country, we will not be defensive when 
questions arise. Even if misplaced, we will take necessary 
action to establish that the concerns are either not true or 
take strong action against any wrongdoing.
    This Department, above all others, can never get too big 
for its britches or think itself in any way above the law, as 
we must apply the law to others, so we know the Government 
always wins when justice is done.
    Mr. Chairman, I look forward to discussing the matters with 
you today that are on your mind.
    [The information follows:]

                                INSERT 1

    Mr. Culberson. Mr. Attorney General, thank you very much 
for appearing today and for your work to enforce our laws on 
behalf of the American people.

                          OPERATION STREAMLINE

    I am particularly interested in and supportive of your work 
to expand Operation Streamline across the Southern Border, and 
I have visited with you before about this, but I am going to 
bring to your attention in particular, Judge Alia Moses in Del 
Rio sector, who has had great success in enforcing existing 
law, trusting the good hearts and instincts of the law 
enforcement officers there on the border. And this is 
fundamentally a law enforcement issue. By simply enforcing the 
laws that we have on the books, you can make a dramatic 
difference in reducing illegal immigration, stopping the flow 
of drugs and gangs across the Southern Border. In the Del Rio 
sector, Judge Moses implemented existing law, called in all the 
law enforcement officers in that sector and, as a result, the 
border crossings at the Del Rio sector are at the lowest level 
they have seen since they started keeping statistics. She has 
also been innovative in creating a system of loading her docket 
with those that were picked up by the Border Patrol.
    And the great thing about this, again, is that we have 
wonderful young men and women in uniform defending this 
country, and by trusting their good hearts and their instincts 
as law enforcement officers in enforcing existing law, you 
restore respect for the rule of law, the border becomes secure, 
you protect communities. And it is also the humanitarian thing 
to do, because she is also able to help fight the scourge of 
human trafficking and keep these poisonous and dangerous drugs 
out of our country. As you pointed out, almost all the fentanyl 
and heroin and all these poisons that are coming across the 
border are coming across the Southwest border.
    On April 6th, Mr. Attorney General, you notified all U.S. 
Attorneys on the Southwest border of a zero tolerance policy 
that you had begun to implement and I wanted to ask you, what 
are your plans to enforce this zero tolerance policy, and to 
further deploy law enforcement assets and ramp up prosecutions?
    Mr. Sessions. Thank you, Chairman Culberson, and thank you 
for introducing me or urging me to meet Judge Moses. She is a 
remarkable person who fully understands what is happening. She 
provided me outstanding information on how they have been 
successful in a number of techniques that you have championed 
and she is executing, really. So I felt that to be helpful.
    We are determined to make a difference. We believe that we 
have the capacity under existing law to do better than we are 
doing. And recently in Albuquerque and New Mexico we talked at 
length, they are achieving a zero tolerance policy there. Every 
case brought to them is being prosecuted. No longer are people 
entering the country illegally, given a pat on the back and a 
bus ticket and a sack of lunch and sent back home; they are 
prosecuted. Probably the first offense is a misdemeanor offense 
and they are required to plead guilty. And if they come back, 
reenter, they are facing a felony charge. And if they are a 
coyote or a hauler or transporter or enabler, they will be 
charged for that, which is an additional felony. And we are 
going to continue to send this message.
    Friends, the most important thing is that we send a message 
to South and Central America in particular, and the whole world 
now, because others are coming across the Mexican border, but 
you will not be successful. Don't come illegally; apply 
lawfully to enter America and wait your time. That is what 
America is all about. We admit 1.1 million people every year to 
permanent legal residency with a fast, few-year pathway to 
citizenship. No country is close to that.
    So we want to achieve this zero tolerance across the border 
and we are redirecting resources. I have personally talked with 
the United States Attorneys about it. The President has made it 
clear to me that is his agenda, which I knew from the beginning 
and I share, and we are going to make it happen if there is any 
way possible.

                            THE RULE OF LAW

    Mr. Culberson. One of the most important things that our 
President and you have initiated is to restore respect for the 
rule of law. It is fundamental to our prosperity and freedom. 
It is essential that the rule of law be respected on the 
Southern Border and so we sincerely appreciate that.
    In fact, in order to learn more about what was going on on 
the border, I volunteered as a law clerk in Judge Moses' 
courtroom under an assumed name. So they didn't know who I was 
for a couple of days, the U.S. Attorneys down there. You learn 
a great deal that way. They had no idea I was coming.
    I found out, for example, that human traffickers, the Judge 
cannot seize their assets; if you are smuggling humans, she 
cannot seize their assets. When someone is smuggling drugs, 
their assets can be seized. I mentioned this to you. We need to 
change that law, so we can hit them in the pocketbook.
    Anyway, we deeply appreciate the work you are doing. I 
think it is essential for the safety and security and 
prosperity of this country to restore respect for the rule of 
law.
    Thank you, Mr. Attorney General.
    I am pleased to recognize my friend Mr. Serrano from New 
York.
    Mr. Serrano. Thank you, Mr. Chairman. You know that you and 
I have a very good relationship, but I can't help myself in 
your comment that we want to restore the rule of law. We just 
need to remind ourselves that the rule of law has to be in 
every State, in every territory, in every agency, and inside 
the White House, not just at the border. If we do it just at 
the border, then we would do a great disservice to the rule of 
law.

                           IMMIGRATION JUDGES

    Mr. Attorney General, the Department recently notified 
immigration judges that their job performance will be evaluated 
based on how quickly they close cases. I am not aware of any 
court in the Nation that has instituted this model of judicial 
evaluation and this decision raises serious due process 
concerns.
    Can you name any other court or judges that have been 
subjected to quotas as a basis for their personal performance 
evaluations?
    Mr. Sessions. Mr. Serrano, we had conferences with the 
judges, and they agreed that metrics were appropriate for the 
Department of Justice to establish. The metric that we 
established was 700 cases per year. It does not mean, if you 
don't achieve that, you are fired. There may be good reasons 
why those caseloads are down. We have got people doing over a 
thousand a year and we have got people doing less than 700 a 
year, which I think is around the average. So we would like to 
see a certain degree of productivity.
    The taxpayers are not paying for people who don't perform 
every day. We need high-performing judges; I don't apologize 
for it. I think this is a reasonable standard or request or a 
metric for them to achieve, but certainly if they have--when 
they are evaluated in their performance, if they have good 
reasons for not meeting that goal, we would consider it.
    Mr. Serrano. Well, I am certainly not going to change your 
mind. I just want you to remember what you already know, that 
on a daily basis--not a daily basis, but every so often we hear 
of cases where a person spent 20, 30 years in prison for 
something they didn't do. And so when you begin to pressure 
people, not you, but the Department, to come up with results--
to me the word ``judge,'' juez, in Spanish, has the same 
meaning, it is a wonderful word that says that you will judge 
what the outcome shall be, and if that judgment takes a while, 
then so be it in a democracy. So I get worried about the fact 
the Department is basically saying you must complete it by a 
certain time.
    I am not running away from the fact that you need 
productivity, of course, and maybe productivity is more judges 
in certain cases to handle the caseload, but the idea of ``do 
it by a certain time,'' it is also--Touching on another 
subject, I may be the only person who thinks gridlock is not a 
bad thing in Congress. Do you know why? Because there are 
countries where the budget is always on time because somebody 
says the budget will be on time. When you have two parties, 
when you have philosophies, when you have a democracy, gridlock 
means people are trying to figure out what to do. It is the 
same thing here, judges are trying to figure out what to do. It 
is a big caseload. And just keep that in mind that some people 
are worried that we may not do what we are supposed to do.

                       LEGAL ORIENTATION PROGRAM

    In the issue with the Legal Orientation Program (LOP), I am 
glad that we seem to have made a change, which will be good for 
everybody. Has the contractor providing the LOP service 
provided DOJ with any data or other information on the cost-
effectiveness of the program? Can you please submit that 
information for the record?
    How will your planned cost-benefit analysis differ from 
what has already been done?
    Mr. Sessions. This is what I understand about that. We have 
asked them for various bits of information, which has not been 
provided. They may well have provided the data you have 
mentioned; if we have it, we will provide it to you. The 
program should help make the system work better. It costs 11 or 
so million dollars a year and we would like to make sure it 
produces the results the taxpayers are paying for.
    Mr. Serrano. On a local level--if I may, Mr. Chairman? I am 
over the time? OK.
    Mr. Culberson. Thank you, Mr. Serrano. We will come back, 
we will come back.
    Chairman Rogers is chairing the committee hearing next 
door, so it is my pleasure to recognize----
    Mr. Serrano. Well, you should have told me Chairman Rogers 
was here, I would have stopped 10 minutes ago. [Laughter.]
    Mr. Culberson. I am pleased to recognize the gentleman from 
Kentucky.
    Mr. Rogers. Mr. Chairman, thank you very much for the 
privilege. My subcommittee is meeting next door with testimony, 
but I wanted to come here, briefly at least, and salute the 
Attorney General for his position on the drug problem.

                            OPIOID EPIDEMIC

    Mr. Attorney General, you could not do a better job, in my 
opinion, than elevate this issue in the minds of the public and 
law enforcement especially, because the opioid epidemic, as the 
Centers for Disease Control and Prevention (CDC) calls it, it 
is a calamity, as you have said. We are losing more people to 
opioid deaths than car wrecks and gun violence combined, and 
yet it seems the country just doesn't grasp this or want to 
admit to it. That is part of the problem is in the past there 
has been a stigma attached to addiction. We now know it is a 
disease and has to be treated as such, but the law enforcement 
end of the problem is a huge piece of the puzzle.
    My district, East Kentucky, was ground zero for the 
Oxycontin explosion 15 years ago. I suddenly found myself going 
to emergency rooms and seeing kids dying of overdoses, and it 
just blossomed, unfortunately, there. I started a group called 
UNITE, Unlawful Narcotics Investigations, Treatment, Education, 
a holistic, three-pronged attack on the problem, and it works. 
Drug courts, law enforcement officials, treatment centers, 
addiction control centers, and so on. That holistic approach is 
what you are doing here on a major scale and it is the exact 
right way to go, it has been proven.
    And the Congress, as you know, passed the Comprehensive 
Addiction and Recovery Act (CARA Act), as well as the Cures 
Act, both of which provide huge grant opportunities for local 
communities to do things like UNITE in their area, where 
citizens grab hold of the problem and seek an answer. But an 
essential part of it, of course, is law enforcement; it is not 
the only piece, but it is very, very important.
    We are making progress on prescription pills. The UNITE 
organization I mentioned now puts on an annual national summit 
in Atlanta. We had 3,300 people there a month ago. The CDC, 
National Institutes of Health (NIH), Food and Drug 
Administration (FDA), DEA, drug czar prosecutors, treatment 
people, all aspects of the problem in one big, 4-day meeting, 
the seventh in a row annual summit, and the enthusiasm there 
for what you are doing on the drug problem was palpable.
    So I am here to tell you that from all aspects of the 
problem, whether it be treatment and prosecution, or research 
and whatever, the three-pronged effort that the Government is 
spearheading is the right way to go. Cutting off the supply of 
illicit drugs, reducing demand here at home, and then treatment 
for those who are addicted, that is the proven way and you are 
on to it, and you are elevating the issue publicly and that is 
all important.
    There is still a stigma that people attach to addiction, 
even though science says that it is a disease. The head of the 
NIH that deals with drugs tells us that there are physical 
changes in the brain with addiction, making it a disease and 
which we have to treat it that way, but we have made some 
progress on reducing the prescription pill abuse some, not 
much--in my state, in my district quite a bit--but it is being 
replaced by heroin, which is cheaper, in many cases easier to 
obtain now that we are cracking down on pills.
    But the real problem, Mr. Attorney General, as you know, 
with heroin and now fentanyl, an elephant sedative from China 
by way of Mexico, as you say, one speck of salt-sized piece of 
fentanyl is fatal. And the heroin users now are realizing that 
the heroin they are perhaps using is laced with fentanyl, so 
the users don't know the dosage and die. And the fentanyl 
problem with heroin is the new fatal twist.
    What can you tell us about trying to stop the flow of 
fentanyl from China through Mexico, through the drug cartels in 
Mexico, into the distribution system in the U.S., what can you 
tell us about that and are we making any progress on fentanyl 
prevention?
    Mr. Sessions. Mr. Chairman, I think you have summed up that 
very well. That is basically the situation we are facing today 
in America and around the world.
    China is the main source of fentanyl. The President has 
raised it with the Chinese leaders personally. Deputy Attorney 
General Rod Rosenstein has been to China and talked to them, 
DEA and FBI have presence there, and I have raised it with two 
different Chinese delegations to the United States and they 
have made promises. They have actually taken some steps, it has 
not I don't think yet impacted us successfully, but we are 
urging them and I think we have a right to expect them to be 
cooperative in a matter of this importance to the United 
States.
    It does come through Mexico. I understand we can have soon 
a situation in which labs can be built in Mexico. It is harder, 
I am told, than building a meth lab, which are all over Mexico. 
So we could have fentanyl made there.
    In Boston, I understand that you have inert substances and 
basically pure fentanyl, even heroin, it is not being mixed 
with heroin now, and it does remain a deadly disease. We are 
cracking down, the FBI has doubled its team. They have figured 
out a way to handle these dark websites where people order it 
through the mail. I am more confident now that we can make 
progress in that area than I was a few months ago. We have had 
some real success, but it is going to be a continuing problem.
    So, I believe you are correct, there are three prongs of 
this effort. You have got to prevent, people need not to start. 
This is a powerful addiction. Any thought that you can get 
addicted and just walk away from it easily is just totally 
false. We need for people not to start these drugs, good 
prevention can help us do that. Then we have got our role is 
primarily enforcement and Congress, under your leadership, Mr. 
Chairman, under the President's leadership, this is the biggest 
expenditure we have probably ever had to deal with treatment 
and prevention in the $6 billion that Congress has set aside 
for the project.
    So I think our goal should be clear. I think our goal is 
reduce this problem; not just preside over a continuing 
problem, but to go at it hard. And based on my experience as a 
prosecutor and on the judiciary committee, I think we can do 
it.
    Mr. Rogers. Mr. Chairman, I thank you very much for being 
so nice to me to allow me to do this.
    Mr. Culberson. Thank you.
    Mr. Rogers. And I think, Mr. Attorney General, when the 
history books are written, this fight that you are leading will 
be the most important part of your career and I thank you for 
what you are doing.
    Thank you, sir.
    Mr. Culberson. Thank you, Chairman Rogers.
    I am pleased to recognize the ranking member of the full 
committee, the gentlelady from New York, Mrs. Lowey.
    Mrs. Lowey. Thank you. And I want to thank Chairman 
Culberson and the Ranking Member Serrano for holding this 
hearing.
    Attorney General Sessions, thank you for joining us. There 
are multiple hearings this morning, as you probably know, so I 
am really sorry that I missed your testimony, but thank you, 
thank you for being here today.

                   ATTORNEY GENERAL SESSIONS' RECUSAL

    Attorney General Sessions, you recused yourself from the 
Russia investigation led by Special Counsel Mueller; however, 
it is my understanding that this week you decided not to recuse 
yourself from the investigation into President Trump's personal 
lawyer, Michael Cohen. The investigation into Mr. Cohen was 
opened in part on a referral from Mueller's team. In fact, 
Deputy Attorney General Rosenstein approved an FBI raid of Mr. 
Cohen's home, office, and hotel room.
    We know that President Trump had a very strong reaction to 
the raids, denouncing them, quote, ``as an attack on what we 
all stand for.'' He also took that opportunity to reiterate 
what a terrible mistake it was for you to recuse yourself from 
the Russia investigation.
    I am a little puzzled. Why have you decided not to recuse 
yourself from the Cohen investigation when it appears to be so 
closely linked, if not rooted in, the Russia investigation.
    Mr. Sessions. Presumably, you read that in the media 
somewhere. The media are often----
    Mrs. Lowey. Not Fox 5.
    Mr. Sessions [continuing]. It is often inaccurate and much 
of what I see in the print is inaccurate.
    Let me just say this quite clearly to you: I will honor the 
commitment I made to recuse myself from matters that I should 
recuse myself from and I intend to do that faithfully. I have 
made that commitment and I have done so. I have not violated 
any commitment in that regard.
    I am not able to comment about any ongoing investigation or 
investigations, certainly that are within the ambit of the 
Special Counsel.
    Mrs. Lowey. Well, I appreciate your response, and I will 
assume that the news reports are not true and you have not 
recused yourself from this investigation, and you have not 
decided that you will not recuse yourself from the 
investigation into President Trump's personal lawyer. But I 
will just . . .
    Mr. Sessions. I am just not able to discuss any of the 
details, because the policy of the Department I think is 
correct that when you start talking about matters detailed and 
you are talking about investigations, and our policy is not to 
discuss investigations until it is appropriate.
    Mrs. Lowey. Well, I will read the paper more carefully and 
I hope I can get some additional information, because I think 
this is very important and important for our democracy, 
important for you, important for the agency and, if I am 
mistaken and the news reports are mistaken, I will accept that 
response.
    Mr. Sessions. Can I say one thing to the whole committee? 
One of the things that I felt we should do is to reestablish 
discipline in the Department. I feel like the Attorney General 
has to set the example.
    When I was prosecuting cases, corruption cases, a number of 
them, quite a number of them in Alabama, and I was attacked 
every day or somebody on my staff was, and we just adhered to 
the view you don't respond every day even if they are false. 
The more you get into this, the deeper you get embroiled in it, 
and the harder it is to conduct an objective and fair 
investigation. If charges are brought, you take your case to 
the jury.
    So I just would say, we are not going to be in the business 
of responding to every allegation in the media that may not be 
accurate. I think that is a mistake, and it is contrary to our 
traditions and policies.
    Mrs. Lowey. Well, I thank you for your response and I will 
check the media. And in fact then I am assuming that the 
information is wrong concerning your recusing yourself from one 
part, but not recusing yourself from the investigation into 
President Trump's personal lawyer. I will go on.
    Mr. Sessions. You will have to choose to decide and believe 
what you decide. I am just telling you, I know what the recusal 
means and I am complying with it, as I promised to do.
    Mrs. Lowey. I am not sure what that means, but does that 
mean you have not recused yourself from the investigation into 
President Trump's personal lawyer, Michael Cohen?
    Mr. Sessions. It means that I will not be able to describe 
any matters, the parameters of matters that might be under 
investigation, the subjects of any investigation, because it is 
an ongoing investigation and I am not at liberty to discuss it. 
And it is the policy of the Department that delineating or 
talking about recusals in fact does reveal that and you 
shouldn't talk about it publicly. That is all I am saying.
    Mrs. Lowey. Why don't I move on and I hope we get just an 
accurate response, whether it is private or publicly. I think 
the public is entitled to understand how this very important 
investigation is proceeding and your involvement in the 
investigation. So I will move on to another question. Thank 
you, sir.
    Mr. Culberson. Thank you. Thank you, Mrs. Lowey.
    Mrs. Lowey. If I may ask one other question, Mr. Chairman, 
since we had such a busy day?

                    CONCEALED CARRY RECIPROCITY ACT

    The House passed H.R. 38, known as the Concealed Carry 
Reciprocity Act. This bill mandates national reciprocity for 
concealed carry permits issued under state law. Now, while all 
States allow some form of concealed carry, legal standards 
vary. If this misguided, in my opinion, and dangerous provision 
were to become law, a State's ability to consider important 
factors like age or criminal history would be compromised by 
other States' weaker requirements. And, as I understand it, 11 
States grant permits to people who have not undergone safety 
training, 20 States grant permits for people convicted of 
violent crimes, and a dozen States do not require any kind of 
permit or license to carry a concealed firearm. These weak laws 
would particularly harm New York State.
    If you can discuss that with me, I would be most 
appreciative. You are the top law enforcement officer in the 
country. Do you agree with the Major Cities Chiefs, 
International Association of Police Chiefs, and 17 State 
Attorney Generals that Concealed Carry Reciprocity would be a 
dangerous threat to safety for the public and law enforcement 
alike?
    Mr. Sessions. Look, Congress has opined and written past 
statutes in that regard, so in substance it is in your hands. I 
would just say that in the past I have been sympathetic to 
these rules, but I am not prepared to express any new view 
today.
    Mrs. Lowey. Well, Mr. Chairman, I just want to conclude and 
I thank you for your time, because we simply, in my judgment, 
cannot have a system wherein concealed guns from Kansas or 
Arizona can be freely carried in Times Square, in any other 
densely populated destination. That is in part why the Law 
Enforcement Partnership to Prevent Gun Violence opposes this 
measure. And I don't know if you have been in Times Square 
lately, it is people-to-people, it is beautiful all over the 
world, all over the country, but I wouldn't want to see 
concealed carried weapons.
    Thank you very much for your generosity.
    Mr. Culberson. Thank you.
    Mrs. Lowey. Thank you.
    Mr. Culberson. Thank you, Mrs. Lowey.
    And please recognize the gentleman from Texas, Judge 
Carter.
    Mr. Carter. Thank you, Mr. Chairman. And, General Sessions, 
welcome.
    Mr. Sessions. Thank you.
    Mr. Carter. We are really glad to have you here.

                           JUSTICE SERVED ACT

    I want to first talk about something I call the Justice 
Served Act, it is something I have introduced in Congress. We 
have spent $1.5 billion working on the backlog of the rape kits 
and DNA evidence. It is a national tragedy. Your office has 
addressed it and gone aggressively into getting rape kits 
processed, but what we have discovered is it is overloading our 
prosecutors with additional cases, some of those are old, cold 
case files going back a long time, and they need more 
resources.
    So I am basically raising the issue that we need to get 
more resources for the local prosecutors once these rape kits 
are processed and in their hands. I want to ask if you are 
satisfied that they are getting enough resources, and do you 
think these Debbie Smith grants and the sexual assault kit 
initiatives of DOJ are doing enough to reduce the DNA evidence 
backlog across the country, and are prosecutors going to have 
the resources they need to add that to their currently 
overwhelmed docket?
    Mr. Sessions. It is a challenge, when crime rises, then 
everything is stressed. It is much better to be on the virtuous 
cycle of a declining crime rate.
    Mr. Carter. You bet.
    Mr. Sessions. I think it is really important for us to 
understand that. So then when crime rate rises, homicides rise 
20 percent and you have the same number of prosecutors, same 
number of forensic scientists, then you have got a problem.
    Judge Carter, thank you. You and I have talked about this 
and some other matters that I believe are notable. I have been 
one that favors assistance to forensic sciences from the 
Federal Government. Often across our state the criminal justice 
system is in a bottleneck waiting on scientific reports for the 
prosecutor. The case can't go forward until you get the report. 
And for a smaller amount of money, you may get bigger bang for 
your buck by fixing that bottleneck. So I definitely appreciate 
your leadership on it and look forward to working with it.

                          GOLDEN STATE KILLER

    We just saw the arrest, what, yesterday----
    Mr. Carter. Yes.
    Mr. Sessions [continuing]. Of the California 40-year-old 
case solved by DNA.
    Mr. Carter. It is a great example.
    Mr. Sessions. Yeah.

                   JUVENILE JUSTICE ON MILITARY BASES

    Mr. Carter. Another question. We have discovered at Fort 
Hood that there is a loophole in our law, of juvenile sexual 
assault claims are coming up on Fort Hood and yet the Federal 
Government does not have juvenile law, does not have a juvenile 
law section in their code. The military code of justice does 
not address civilians on posts. And we have done some research 
and discovered this is a clear issue all over, at every base 
and post, military post. And, therefore, the consequences are 
something as serious as aggravated sexual assault, there are no 
consequences.
    I am one who believes that there is a real deterrent factor 
in having consequences for bad behavior and illegal behavior. 
This is a loophole. We came up with a solution back in '15 when 
I found out about it. I made a deal with our local prosecutors 
and we worked with your Department, transferred jurisdiction 
over to local prosecutors at the State level and, therefore, 
they are going forward, although they are now saying we are 
overloading their caseload and they are worried about funds on 
that issue.
    But the real issue is, we need to figure out how to fix 
this. I have got a bill that suggests that everybody look at 
making a contract with local prosecutors to cover these 
uncovered criminal activity. I would like your opinion on that.
    Mr. Sessions. That may be the best solution, some sort of 
contract, even some sort of compensation to them for picking up 
what would normally be a Federal crime prosecuted in Federal 
court.
    Most of you may know, but it is a long-established and 
understandably practical solution that Federal prosecutors 
seldom prosecute juvenile cases. We always defer to locals, 
because we don't have enough juvenile criminals to justify 
having a juvenile prison in Montgomery, Alabama. And so that is 
the big problem and it creates a real problem. I years ago 
dealt with it in foreign countries where the prosecution had to 
go to the German government, because we didn't have the 
military jurisdiction over non-military people.
    So my people have worked on it, have heard your proposal. 
We think we have got that cleared with support from the 
Department of Justice and maybe we can get something done, 
Congressman.
    Mr. Carter. Well, let me know, because I am real serious 
about this.
    Thank you very much.
    Mr. Sessions. Thank you.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Judge. Thank you, Mr. Attorney 
General.
    I recognize the gentleman from Washington State, Mr. 
Kilmer.
    Mr. Kilmer. Thank you, Chairman.
    And thanks, Mr. Attorney General, for being with us. It was 
a pleasure to get to meet your family out in Washington State. 
I know they were residents of my district for a spell.
    Mr. Sessions. And they did love it, I have got to say.
    Mr. Kilmer. It is a great place.

                      MARIJUANA ENFORCEMENT POLICY

    I want to actually follow up on something that Chairman 
Frelinghuysen touched on in his opening comments. He referenced 
marijuana policy and some of the complexities around this issue 
where you now have states, including Washington State, where in 
our state voters passed an initiative to legalize adult use, I 
know there are other states that are in a similar circumstance.
    The last Administration issued what was known as the Cole 
Memo to try to set some rules of the road, to provide some 
certainty not just to States, but to small business owners in a 
state like mine, to tribal enterprises that have now started 
businesses. The decision to rescind that memo has created 
tremendous uncertainty.
    I read in a press release from Senator Gardner from 
Colorado that the Department's recision of the Cole Memo, that 
he was assured from the President that Colorado's legalized 
industry would not be targeted. I am hoping you can help us 
understand what accommodations are going to be made for States 
like Colorado and Washington. I am not clear on what the 
commitment from the President was to the Senator, but my 
constituents sure would like to know.
    Mr. Sessions. My view is that marijuana is not a healthy 
substance. Whenever we talk about legalization and other such 
issues, we need to make clear that we are not in any way 
suggesting that the consumption of marijuana is not harmful. 
The American Medical Association is crystal clear on it, the 
American Pediatric Association is, and the psychosis connection 
is clear, and we have got to determine some other matters.
    So, first, I think we want to say that. Secondly, the State 
of Washington and other States have either eliminated or 
virtually eliminated marijuana restrictions, some for medicine 
only and some for recreational, so-called recreational use. It 
remains a violation of Federal law. That is not off the books. 
The Federal law is still enforceable throughout the country and 
I have felt it not appropriate for me to somehow give a safe 
harbor or protection to areas around the country where it still 
remains a violation of Federal law.
    Now, you know, we know that the threats that we are focused 
on in the Department of Justice are fentanyl, heroin, 
methamphetamine, cocaine, prescription abuses in large amounts 
that are leading to addiction and death, those are clearly 
where we are moving. I think I saw like one percent of Federal 
prisoners might be in custody for marijuana, it is probably a 
plea bargain on that. So the United States Attorneys in your 
home State and every state have been instructed to use their 
financial resources and capabilities and their judgment, after 
meeting with local law enforcement and local leaders, to pursue 
the cases they think are important and worthy and I can't 
exclude marijuana from that, I don't think it is appropriate 
for me to do so.
    Mr. Kilmer. Based on the President's commitment to the 
Senator, is there any further guidance to states like mine that 
are just looking for clearer parameters?
    Mr. Sessions. I know--look, let's be frank, what they would 
like is a statement that they have been provided safety, a safe 
harbor, I don't believe I can give that. They will just have to 
look and make their own decision about how they conduct a 
marijuana enterprise.

                            OPIOID EPIDEMIC

    Mr. Kilmer. Let me shift gears, because you talked about 
where the Department's energy ought to be focused and that is 
battling the opioid epidemic. It is costing a tremendous amount 
of human suffering, human life, a tremendous amount of money.
    I would love to just get in the time that I have left your 
sense of where the Department's resources are best focused. Do 
you see it as primarily a public health issue, a criminal 
justice issue, both? And as someone who represents some areas 
that are often left behind in securing Federal resources, 
tribal communities, some rural areas where this is an enormous 
problem, but they struggle to apply for grant funds and things 
like that, can you talk about what steps you will take to 
ensure that some of these at-risk communities are getting the 
resources that they need to effectively fight this.
    Mr. Sessions. Well, I was appointed United States Attorney 
by Ronald Reagan in 1981 and drug use had been increasing 
steadily. It took more than a decade, but the University of 
Michigan study showed that over half of high school seniors in 
1981 acknowledged using an illegal drug. That dropped by 50 
percent in 10, 12, 13 years later. That was huge. I mean, we 
need to get the message out, don't start. This is dangerous 
business. You get addicted, it grabs you with a power that so 
many people are never able to break free, their lives are lost. 
It is a death sentence, one expert told me.
    So we start with that. This funding that you have passed 
will help us have a much more robust PR prevention campaign. 
Then you have got the treatment that many people can be saved 
and treatment can be helpful, there is a lot of money that you 
have passed to do that, and then we are going to do our part to 
focus on it.
    What are the key things we believe? The prescription drugs, 
the overuse of prescription drugs are addicting people and, 
when they can't get enough prescription drugs, they tend to go 
to heroin and fentanyl, and cocaine or other drugs too. And so 
we need to bring that down and we are going to succeed in that. 
We are going to tighten up dramatically the amount of 
prescription opioids out there that often create the addiction. 
And then we are going to focus heavily on fentanyl, because it 
is such a killer, it is a killer. One little mistake in how 
much you take and you are lost.
    Our Deputy Attorney General's staff was in another city in 
the country last week and they found a lady on the floor. Her 
face and lips were blue, she was not breathing. They were able 
to save her, a Narcan injection came quickly and they saved 
that lady. People are dying all over the country from fentanyl 
overdoses. So that is part of what we are doing.
    We have got to tighten up at the border. We have got to 
continue to press the Chinese and focus on precursor chemicals 
and the Chinese production system. They need to do more. We 
have every right to ask them to tighten up on what they are 
doing.
    So there a lot of things we can do on the opioid front, but 
the biggest and best thing, if we can convince more people to 
not start----
    Mr. Kilmer. Thank you.
    Mr. Sessions [continuing]. That would be the winner.
    Mr. Kilmer. Thank you, Attorney General.
    Mr. Culberson. Thank you, Mr. Attorney General.
    The gentleman from Alabama, Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Thank you, Attorney General, for being here.
    Mr. Sessions. Thank you.
    Mr. Aderholt. Welcome to the subcommittee. And 
Congresswoman Roby and I are happy to have a fellow Alabamian 
before us, especially as Attorney General. So we are glad you 
are here today.

                                 MS-13

    Let me focus a little bit on MS-13. You have taken strong 
and decisive action against MS-13 and certainly that has been 
the right decision to do, but your designation last fall as a 
target for the DOJ's Organized Crime and Drug Enforce Task 
Forces add an important component of how the criminal elements 
of MS-13 can be prosecuted and dismantled.
    What are your thoughts on deportation versus long-term 
prison sentences in the United States for these and other 
criminals who are not U.S. citizens? We deport them, but our 
unsecured borders, as you know, we seem to have a revolving 
door of the criminals coming in and out of our country. I would 
just like to hear your thoughts on that.
    Mr. Sessions. Thank you, Congressman Aderholt, and I 
appreciate the opportunity over the years to work with you and 
Congress on so many issues, and you know my admiration for you 
is so high.
    We have added about $147 million to the MS-13 and violent 
gang initiative. We believe that this gang is a finite number, 
that it can be attacked and reduced. In fact, it was reduced a 
number of years ago, and somehow we took the pressure off and 
they have come back. President Trump cares about it deeply. 
There was this brutal murder of two 16-year-old girls in New 
York and so we all probably know about that incident. So it is 
a priority of ours, it is a top priority. We intend to 
dismantle this gang and we have got prosecutions all over the 
country; they are not in every district, but many.
    So, we believe that focusing on MS-13, dismantling and 
prosecuting them vigorously. Many of them have been involved in 
murders, multiple murders, the murders are approved by the 
highest officials in the group. They are the most violent gang 
in America, I think by far, and it is incompatible with peace 
and safety and justice. Their philosophy involves murder and 
rape as an open statement of what they believe they are 
entitled to do, and it is an affront and a direct challenge to 
the rule of law and we intend to meet our responsibility to 
defeat that challenge.
    Mr. Aderholt. So you feel like long-term prison sentences 
would be probably----
    Mr. Sessions. Yes. On the specific question, that is a good 
question. What we found is that people can reenter the country 
and, if someone murders an American, it is not sufficient just 
to deport them and hope they don't come back. They have got to 
serve substantial prison sentences. We would like to think 
maybe we wouldn't have to do that, but we do. So it is a 
combination. Then when they serve their sentence, they will be 
deported.

                       OCDETF HEROIN TASK FORCES

    Mr. Aderholt. Can you expand on your testimony regarding 
the establishment of these co-located strike forces within the 
Organized Crime and Drug Enforcement Task Force?
    Mr. Sessions. We are having tremendous success forming task 
forces around the country to focus on these gangs, on drug 
distribution networks, cartels, and major distribution networks 
within cities, in areas like Kentucky or West Virginia or 
Dallas. And so we are focusing on that. And New York has 
proven, in my opinion, that if you smartly target the main 
criminals, the alpha criminals, they explained to me, and you 
do that over a period of years, and you take out these gang 
leaders and promoters and the people who seduce others to join 
the gangs and join these illegal enterprises, you can make your 
city safer. And they have a remarkably low, compared to other 
major cities, murder rate, for example.
    So these are proven policies and our Project Safe 
Neighborhoods and these task forces will be executing 
throughout the country similar principles.
    Mr. Aderholt. You mentioned in your written testimony about 
six heroin enforcement teams that were created in 2017 and that 
the Administration requests funding for eight more in this 
fiscal year. Offhand, where are the six existing teams located 
and where do you anticipate the eight new teams being located?
    Mr. Sessions. We are working hard to be rigorous about 
applying our resources to the most serious spots. For example, 
there are spots in the Northeast, Ohio, Kentucky, West 
Virginia, even Alabama has a high prescription abuse rate. And 
so we are trying to do that based on facts, not politics, but 
where the crisis is greatest.
    I could get you the information on----
    Mr. Aderholt. OK, yes, if you can forward that.
    Mr. Sessions [continuing]. Where we are now and what our 
plans are for the future.
    The information follows:

    The Department's current six heroin task forces are located 
in: New Bedford, Massachusetts; Charleston, West Virginia; 
Cincinnati, Ohio; Cleveland, Ohio; Raleigh, North Carolina; and 
Long Island, New York.
    The locations for the eight heroin task forces proposed in 
the FY 2019 budget are still to be determined. However, they 
will be based in communities facing significant challenges with 
heroin and fentanyl.

    Mr. Aderholt. That will be appreciated. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Aderholt.
    I am pleased to recognize the gentleman from Pennsylvania, 
Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    General Sessions, I come from Scranton, Pennsylvania, the 
birthplace of Vice President Joe Biden, and one thing that Vice 
President Biden loves to repeat is the line, people talk about 
values, but don't talk to me about your values, show me your 
budget and I will tell you what your values are.

                         CIVIL RIGHTS PROGRAMS

    We are here to talk about your budget request and the first 
part I want to talk about is there is a growing salience and 
bipartisan support, General Sessions, for a wide array of civil 
rights issues, but you have steered the DOJ away from 
prioritizing civil rights issues and this has led a number of 
states, including my own home state, the Commonwealth of 
Pennsylvania, to sue the Department of Justice. The most recent 
suit against you and your department came after you revoked 
legal guidance designed to protect the disabled, minorities, 
and the poor.
    At the time, Reuters quoted you as saying that this 
guidance was, quote, ``unnecessary, inconsistent with existing 
law, or otherwise improper,'' unquote. But part of this 
guidance was intended to ensure state and local governments 
accommodate disabled employees and integrate them into the 
workplace. In fact, I note your budget proposal makes no 
mention whatever of fighting discrimination against people with 
disabilities.
    As a matter of fact, your proposed budget request would 
eliminate 27 positions, including 11 attorneys, from the Civil 
Rights Division, and by incorporating the Community Relations 
Service into the Civil Rights Division with no additional 
funding, you are exacerbating the burden placed on the Civil 
Rights Division. You are doing all of this at a time when the 
FBI has reported a rise in hate crime in this country, 
incidents, in each of its past three annual reports.

                         BOP STAFF AUGMENTATION

    So I didn't want to let this day go by without commenting 
that I am troubled by that, but I want to move quickly to the 
Bureau of Prisons (BOP). General Sessions, it is about 
augmentation. As you know, augmentation is the Bureau of 
Prisons' practice of using administrative staff like nurses, 
plumbers, teachers, accountants, social workers, cooks as 
correctional officers when understaffed. In fact, Senator 
Manchin asked you about BOP augmentation in the Senate hearing 
you attended yesterday, and you said you think everybody who 
participates in augmentation is also trained in incarceration 
management and that eliminating augmentation completely would 
be highly expensive.
    Well, this is why it is important to me, General Sessions. 
I am from Northeastern Pennsylvania. A few years ago we had a 
fellow named Eric Williams and he was a correctional officer in 
the USP Canaan in Wayne County, Pennsylvania, he was stabbed 
over 200 times by a violent inmate, an attack that took over 10 
minutes. A friend of mine was the coroner's medical examiner 
and he talked to me about it on the phone, and he said as part 
of his investigation into the cause of death he had to watch 
the video from that and it turned his stomach. Not just the 
attack, General Sessions, but watching the other inmates stand 
around as this happened, as Eric Williams was brutally 
murdered.
    We have to talk about keeping our Federal prisons safe. 
There are other stories. Officer Alberotti who was shot 20 
times while traveling home to his children from the prison. Or 
Officer Rivera, an Iraq war veteran, who was murdered while 
simply doing his job trying to keep inmates safe.
    As the head of DOJ, it is your duty to keep our corrections 
officers and prison employees safe, and we have seen far too 
many correctional officers lose their lives in the line of 
duty. And the question is, why have you decided to ignore 
explicit congressional direction to end augmentation before 
eliminating even more corrections officers from our already 
overworked and understaffed facilities? Your budget proposes 
eliminating nearly 1,200 correctional officer positions. How 
does this make sense at all, General Sessions?
    Mr. Sessions. Well, first, let me assure you we have no 
intention to cease to protect the civil rights of the American 
people. The budget for the Civil Rights Division is the same as 
it has been for the last three years in our request and 
Congress has given additional funds also. So we are prepared to 
use whatever funds we are given and to protect the civil rights 
of all Americans.
    On the augmentation situation, non-correctional officer 
staff are all Federal law enforcement officers who have 
received law enforcement training, and so they can be utilized 
at times where you need extra staff like at a meal or some 
other event, and they augment the people who do it full time. 
Now, that has been done for many, many years. It would be 
exceedingly costly if you had to have full-time people just for 
maybe certain events that require extra staffing.
    We are going to protect our law officers, those in prisons, 
our Immigration and Customs Enforcement (ICE) officers who have 
to deal with the violent, illegal immigrants, and our police 
officers on the street will be protected by this Department of 
Justice.
    And one thing I would like to call everyone's attention to, 
you may not know that the BOP inmate population has decreased 
since 2013 by 35,000. The Federal prison has dropped from about 
220,000 to 183 or so thousand. And this is a dramatic change 
and it coincides, of course, with some increase in crime rate 
in America, but regardless, the BOP staffing level is the same 
today as it was in 2009 and there were 20,000 fewer prisoners 
then. So the Bureau of Prisons answered to the taxpayers too 
and when the prison population drops substantially, they need 
to figure out how to use the resources they have effectively, 
and we have got a lot of other money that needs to be spent.
    So I am prepared to review any situation that is dangerous 
and may need more than normal staffing, but we are talking 
about a 3 percent reduction in staff when the population of the 
prison has dropped 16 percent.
    Mr. Cartwright. Mr. Chairman, I would note that when you 
focus on high-security prisons, over 50 percent of them are 
still dangerously overpopulated, and I yield back.
    Mr. Culberson. Thank you, Mr. Cartwright.
    I am pleased to recognize the gentleman from Mississippi, 
Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Attorney General, thank you for being here today. Last 
month, I had the pleasure of meeting with you to discuss 
important topics that are affecting our Nation and I thank you 
for that.

                       PROJECT SAFE NEIGHBORHOODS

    Of those many issues, you mentioned how the Department of 
Justice is working to reduce gun and gang crime within America 
with Project Safe Neighborhoods. After seeing how weak the 
previous Administration was on crime, I am happy to see this 
Administration makes steps to toughen up on criminal and gang 
activity.
    When I speak with local police chiefs and sheriffs in South 
Mississippi, they all agree, we need to organize and deploy 
programs that fund street-level outreach, education, and 
employment opportunities to combat gun and gang violence.
    To that point, could you please tell me, what is your 
request for the Project Safe Neighborhoods Program, and how 
will it help to address the ongoing violence in neighborhoods 
throughout our country?
    Mr. Sessions. Well, thank you. It is $140 million. It will 
be money not going to the Federal Government, but be going to 
your local law officers in the form of a grant, and the goal of 
it would be to help our local grant recipients create task 
forces and partnerships to be more effective in their 
neighborhood. We have got professors who have reviewed the 
program in its previous existence and have established, to my 
clear conviction, that it worked and we are going to make it 
even better now.
    And the key to success in making our communities safer is 
this seamless partnership between the Federal resources. We are 
not bound by county and city jurisdictions or State lines, even 
sometimes we can go internationally, which the local police 
aren't able to do. So we have an opportunity to have 
partnerships in a good way.
    DEA, after you have given us 2018 additional money, we have 
met with Rob Patterson, the Acting Director, and he has already 
added 400 task force positions where we subsidize local law 
officers to participate in a task force to deal with that local 
community's problem. So we want to help South Mississippi deal 
with its problem and it might be quite different than a problem 
somewhere else in America, and we will help them deal with 
their problem.
    Mr. Palazzo. Well, thank you for that, and I think the 
Project Safe Neighborhoods is a great program.

                       NAVAL INTERDICTION EFFORTS

    And real quickly, I know you mentioned that a majority of 
the drugs entering our country is coming through our Southern 
Border, but the drugs aren't just being manufactured in Mexico, 
but it is coming from South and Central America. And we have 
National Security cutters out there every day. I think at least 
count the Coast Guard was responsible through the NSEs for 
taking off more than half of the cocaine seizures throughout 
our U.S. Government.
    Do you have any thoughts or ideas? I know we need to surge 
to the border, using every resource we have, National Guard, 
CBP, other agencies, Federal agencies collaborating, but how do 
we stop those drugs from making their way into Mexico perhaps 
from a naval perspective?
    Mr. Sessions. Thank you. I know you have raised that with 
us before and you are aware of some of the situations that are 
important.
    We believe the Coast Guard and perhaps the Navy too--not 
perhaps, the Navy also can play a big role in this. We know 
that a large amount of drugs is leaving from Colombia and south 
of Colombia and it is brought by boat, often, mostly--some 
comes directly to the United States, but mostly it is unloaded 
in Mexico and taken across our border unlawfully.
    And so we have an opportunity to really make a 
breakthrough, in my opinion, in focusing on that opportunity, 
and the main limitation of our ability to be successful in 
making even more big seizures is simply the number of boats and 
helicopters in the region. So they are coming up through the 
Caribbean, some from Colombia and Venezuela, and some is 
probably more coming up the Pacific side.
    So it is very much an opportunity, as you and I discussed, 
to make a breakthrough.
    Mr. Palazzo. Well, thank you for that as well.
    And, sadly, we know, we have visibility on a lot of the 
smuggling of drugs, but we don't have the resources to capture 
and take all of it off the water. And with more resources, we 
could do that, and once again making our neighborhoods safer 
here in America.
    Thank you, Mr. Attorney General.
    Mr. Sessions. Thank you.
    Mr. Culberson. Thank you, Mr. Palazzo.
    We recognize the gentlelady from New York, Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.

                      OFFICE OF ACCESS TO JUSTICE

    Mr. Attorney General, I wanted to ask about the Office of 
Access to Justice. It has played a vital role in proactively 
addressing barriers to justice and improving the criminal 
justice system, particularly for vulnerable communities. As a 
U.S. Senator, you supported resources for public defense.
    Do you still plan to close down this office and, if so, 
what is your plan to continue proactively addressing barriers 
to counsel for vulnerable populations such as veterans and low-
income individuals?
    Mr. Sessions. Thank you. We are doing everything we can to 
make the Department more productive and effective. That was a 
fairly new office, small office, that we believe better 
operates under the Office for Legal Policy (OLP). That is 
basically what it focused on and we think it would be better 
operated out of there.
    So we are committed to being creative in helping us deal 
with legal challenges that the Nation faces, but traditionally 
that has been the center of it in the Department of Justice and 
this was a small, stand-alone office that I think is better in 
the Office of Legal Policy.
    Ms. Meng. And that new office will continue to try to 
bridge the relationship between many of the organizations and 
the communities that we serve with the DOJ?
    Mr. Sessions. Well, one of the goals of that office, as I 
understand it, was to strengthen access to legal services and 
that will certainly be one of the OLP's goals.
    Ms. Meng. Thank you.

                      COMMUNITY RELATIONS SERVICE

    My other question you mentioned briefly was the Community 
Relations Service or CRS. It was created by the Civil Rights 
Act of 1964 and over the past 50-plus years it has been 
instrumental in addressing tensions associated with allegations 
of discrimination in communities across the country. CRS also 
helps communities develop the capacity to more effectively 
prevent and respond to violent hate crimes. I have had the 
privilege of having representatives from the Northeast Regional 
Office come to our district to talk to various communities who 
have been common targets of hate crimes, and they have provided 
government resources to victims and to even students who are 
dealing with discrimination and bullying at school.
    In your budget proposal and in your testimony you call for 
eliminating CRS and moving it to the DOJ's Civil Rights 
Division, but have provided no specifics as to how this will be 
accomplished. How will you reconcile combining the functions of 
CRS with the Civil Rights Division when statute prohibits the 
CRS from participating in investigative or prosecutorial 
functions?
    Mr. Sessions. We believe that moving that responsibility to 
the Civil Rights Division is the right step. We now have some 
eight, I believe, offices around the country--ten--with two to 
three or maybe even one CRS employee. There are only 39 CRS 
employees in the program. So we think that is rent and so forth 
that is probably not the best way to organize the resources, so 
we didn't ask for funding to continue it. It has been a matter 
that has been discussed for years.
    Sometimes it is helpful that representatives from the 
Department of Justice can enter into a community where there is 
some real tension and problems. I remember one time many years 
ago that it was helpful to have a CRS employee on the scene. 
But I think we have within each of our 94 U.S. Attorney's 
Offices civil rights-trained attorneys now that work with the 
Civil Rights Division out of main Justice and we think this 
activity can be better supported in that way.
    Ms. Meng. I am just concerned because the precise function 
of the civil rights division is investigative and prosecutorial 
function, statute prohibits CRS from participating in those 
functions. So I just want to make sure a lot of these needs are 
still being met, including the community work that had been 
done in the past.
    Mr. Sessions. Thank you. I think that is good advice. I 
mean to make sure that we do have people that can help calm 
waters in certain communities around the country.
    Mr. Culberson. Thank you, Ms. Meng.
    Mr. Meng. I yield back.
    Mr. Culberson. The Chair recognizes the gentleman from West 
Virginia, Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman. Mr. Attorney General, 
welcome. It is an honor to have you here.
    Mr. Sessions. Thank you.
    Mr. Jenkins. And thank you for the good work you do. One of 
the things I have learned in my short time here in Washington 
is a lot of people say one thing but they do another, or they 
don't follow up on what they promise. And if there is one thing 
I have seen from you and from President Trump is you do what 
you say.

                  OPIOID EPIDEMIC/ENFORCEMENT EFFORTS

    And have referenced several times recent raids. And one of 
those raids was in my hometown, a town I grew up in, a town 
that because of Mike Stuart, and Michael Baylous, and some 
great folks, whether it be U.S. Attorney, the Marshals 
Services, and others, working in a coordinated fashion just as 
you suggested, we rounded up over 40 drug dealers, drug king 
pins. The amount of heroin and Fentanyl that was taken in that 
raid was enough to kill every man, woman, and child five times 
over in my hometown of 50,000 people. Thank you.
    What I want to make sure of, because this is about 
resources and giving you and your team the resources you need, 
I want to make sure we keep this up. I want to make sure not 
only do we round them up, but we also lock them up. And there 
is a real concern, and I know it is in the hands of the courts, 
but I want to make sure that your prosecutors and your law 
enforcement officials have the resources to make sure that we 
put these people behind bars. Because I will tell you, there is 
a real concern from the public that the criminals get out 
faster than the reports are filed.
    We want them rounded up. We want them locked up.
    Mr. Sessions. Thank you. Revolving doors are not 
acceptable. I am hearing too much of that where people are 
being released too quickly. You catch a major criminal, a major 
drug gang member that has for years done nothing but move 
illegal drugs, maybe using intimidation and violence to carry 
out their schemes. These are not addicts, and users, and losers 
that we try to help in many ways. They need a certain amount of 
time in prison or you don't have respect and you don't break 
the trends that are out there.
    So I was so proud of Mike Stuart and his work. He sent me a 
letter the other day, you know, it just made my day. I mean, he 
is determined. His people are determined. The local law 
enforcement are great partners. And they are going after these 
gangs. Some say law enforcement doesn't make a difference. I 
disagree.
    You continue it, like you said, sustain this effort. And 
people who have committed very serious crimes get serious 
punishment. You can reverse these trends and make your hometown 
a safer and better place to live in.
    Mr. Jenkins. The President also made a bold statement when 
he was up, I think, in New Hampshire. He talked about the death 
penalty. And you have made comments in support of his reference 
to particularly heinous crimes, using the laws we already have 
on the books. And I want to join you and the President in 
saying let's prosecute to the fullest extent possible. And yes, 
the law already allows it. That could include the death 
penalty.
    Mr. Sessions. It can include the death penalty. And many of 
these gangs also responsible for just murder, murder of people 
who haven't paid them money, murder of people who try to come 
into their territory, murder of innocent people in shootouts. I 
am amazed how many innocent people have been killed in 
shootouts among some of these violent gangs.
    So you are correct. The President is right. We need to be 
tough. He said that several times in New Hampshire. He can be 
pretty clear in what he wants to say and I think he is correct 
about it. We are going to--we are sending a new message 
throughout the department that these violent gangs, these 
serious organized crime groups have to be taken down. They are 
a direct challenge to law, order, peace, security, and 
prosperity for America.

                      PHYSICIANS WHO OVERPRESCRIBE

    Mr. Jenkins. One final comment. The DEA and so many people 
in entities under your orb of influence, I have one community 
in the district I represent, a population of 392 people. Not 
thousand. Not 3,900. 392 people. During a period of time, we 
had 9 million highly addictive opiate painkillers pumped into 
that community. That is wrong.
    And I appreciate your work. And I challenge you to do 
exactly what you are saying. We must go after not only the drug 
thugs, but also after the pushers of these pills in our 
communities and eradicate them to free up the opportunity to 
have a healthy environment in our communities that will get our 
lives back in order.
    Mr. Sessions. Congressman, thank you for saying that. That 
can never happen again. That should never have happened. And we 
have the capability to do something about it before it gets so 
bad. We now have discovered or undertaken and developed a new 
method to identify over-prescribing, over-distributing opioids 
in America. And we have got a computer analytics program that 
pops out the numbers directly. And it shows the outliers. And 
we are seeing outlier physicians all over America with 
incredibly high numbers, where the normal physician is a 
fraction of that. And we are prosecuting more.
    We can identify that better using existing technology that 
our Department of Justice has figured out how to use last year. 
And we are going to keep using it and we can never let that 
happen again. What happened in southern West Virginia cannot 
happen again.
    Mr. Jenkins. It is criminal.
    Mr. Sessions. It is.
    Mr. Jenkins. Thank you, Mr. Attorney General.

                           HUMAN TRAFFICKING

    Mr. Culberson. Thank you, Mr. Jenkins. Mr. Attorney 
General, I want to direct your attention again to human 
trafficking which is such a terrible problem across the country 
and unfortunately, my hometown, Houston, Texas, is the worst in 
the country in terms of the number of people that have been 
sold into slavery. The scale of catastrophe is just--is really 
heartbreaking. It is a problem in public events at any large 
urban area, along major travel routes, and the internet 
compounds the problem here and abroad.
    And notwithstanding the takedown of trafficking 
organizations through efforts like the FBI's Operation Cross-
Country or seizures and prosecution of the notorious 
Backpage.com website, which we deeply appreciate, the 
traffickers just seem to be proliferating. And I note that the 
Bureau of Justice Assistance to date has funded at least 42 
human trafficking task forces to help bring together federal, 
state, and local authorities, Mr. Attorney General, including 
victim service providers to identify the perpetrators of these 
crimes, to assist victims, and prosecute offenders.
    Fiscal year 2018 appropriations bill increased human 
trafficking grant funding from 45 million to 75 million. If you 
could talk to us, Mr. Attorney General, about how many task 
forces is the department currently supporting, and what success 
you are having, and how do you measure it, and what--anything 
else can this committee do to help you fight human trafficking?
    Mr. Sessions. Mr. Chairman, as you know,--we submitted, the 
President did, a frugal budget and I supported it. And it did 
request 45 million for this project. I believe you are at 70 
now in 2018. We are going to use that money as wisely and 
aggressively as we can to achieve the goals this committee 
wants us to achieve.
    The human trafficking problem is too severe. It has 
happened too much. The American people are sick of it. They 
want it stopped and we are going to do so.
    Thank you for mentioning the Backpage thing. This was 
really an open, visible, illegal enterprise in many ways. It 
just laid out what they were doing involving minor--underage 
children and criminal activities. So we have returned an 
indictment on that. I believe it is some 94 counts and a number 
of seven individuals. So we have hammered that group.
    So we have some 290 positions working on this effort and I 
would be glad to answer any more questions on the details on 
it, either in writing. But we take it very seriously. The 
department made it a priority early on in my tenure and we are 
going to keep at it.
    Mr. Culberson. I would encourage you to expand the use of 
these task forces and encourage cooperation between federal, 
state, and local authorities. They are very effective in 
combating human trafficking. And it illustrates also the value 
of good communication between local, state, and federal law 
enforcement officers.

                      IMMIGRATIONN COURTS BACKLOG

    Let me also ask you, Mr. Attorney General, about something 
that Mr. Serrano had mentioned and that is the terrible backlog 
of cases in the Immigration Courts. We note that you had hired 
64 new immigration judges in fiscal year 2017, but that was 
offset by retirements and separations. So your net increase was 
just 43 and the case backlog has continued to grow.
    And in particular, we are concerned about the delay in 
hiring new immigration judges. And the committee has funded a 
significant increase in the number of judges to help reduce the 
backlog of immigration court cases. What are you doing to speed 
up the hiring of immigration judges and when will we begin to 
see meaningful results from your efforts to speed up the 
processing of immigration cases?
    Mr. Sessions. Thank you. It was taking way too long, as 
much as two years to get a judge brought on board. We have 
completely reordered that without cutting the training period 
that they undergo. So they get the same amount of training, but 
the process of starting, and announcing, and having this go on 
is way too long. We still are not as strong as I would like us 
to be, but Mr. Chairman, I know it is a matter you have been 
concerned about and we have made tremendous progress and we are 
going to keep making more. So that is a key for us.
    Mr. Culberson. What specific steps are you able to take to 
help speed up the processing of the cases and make sure, as Mr. 
Serrano said, that we protect everybody's due process right? I 
know that Judge Moses, for example, has had great success in 
bringing in a large number of defendants at a time and reading 
everybody their rights at the same time and processing them as 
a grouping. What could be done to speed up the processing while 
protecting everyone's due process rights?
    Mr. Sessions. There are all kinds of policies and a lack of 
intensity of interest in my view, even under the existing 
policies, it shouldn't have taken as long as it was taking. So 
we have eliminated procedures that do not aid in the selection 
process, do not help us quickly find a qualified judge, and be 
able to evaluate their capabilities and leadership and 
productivity. So we have made tremendous progress there.
    And now we know the number we we have got to meet, that you 
have told us to meet, and we will continue to work to be even 
more expeditious.
    Mr. Culberson. Thank you, Mr. Attorney General. Mr. 
Serrano.

                            ERIC GARNER CASE

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Attorney General, 
for years, many have looked to the department as a resource of 
last resort in addressing serious civil rights challenges 
involving law enforcement. This includes many in my hometown of 
New York where we are still seeking justice in the death of 
Eric Garner.
    Just last week, articles emerged that civil rights 
investigators, at the Department, are recommending charges 
against the officer involved in Mr. Garner's death. But the top 
Department officials were not sure about whether to proceed. 
Will the Department move forward on charges against the officer 
at fault for Mr. Garner's death, as recommended by 
investigators? And have you been briefed on this case and what 
are your thoughts?
    Mr. Sessions. Thank you. We take these matters very 
seriously and have wrestled with quite a number of them. And I 
would just say that we intend to do the right thing as we are 
given the ability to decide on this matter as ongoing--I am not 
able to comment on ongoing investigations.
    Mr. Serrano. I understand. Let me just ask you a question 
because I am not a lawyer and I don't understand some of these 
things. So the investigators are members of the department who 
recommend to the higher ups, if you will, that there should be 
a proceeding. Is that what is going on now, without getting 
into a----
    Mr. Sessions. In general, investigators investigate cases. 
They consult with the local prosecutors, state and federal, and 
decisions are made. Sometimes it can reach the level of main 
justice in Washington and then whatever division, the criminal 
division, the civil rights division, evaluates the evidence and 
can make a recommendation also.
    Mr. Serrano. All right. Thank you. Well, there are a lot of 
folks in New York and in other places that would like to see 
some conclusion that speaks about justice and the--you are the 
Justice Department and I can tell you that a local level--this 
is interesting. And I don't know if you know this, and you 
probably do.
    Whenever there is a rally somewhere about justice, people 
don't denounce the Justice Department. They usually say let's 
bring this to the Justice Department, because they feel they 
can get justice. They get fairness. And so keep that in mind 
with this and other issues because you are still--your 
department, you are still seen as the place where folks at the 
local level, the have nots in many cases, can have justice. 
That is important.
    Mr. Sessions. Thank you for sharing that and we value that. 
Thank you.

                    EMINENT DOMAIN SOUTHWEST BORDER

    Mr. Serrano. Thank you. Let's talk about something that is 
not--doesn't get much publicity these days, the border wall. 
The issue of eminent domain is going to come into play. People 
are going to be, I guess, forced to sell land, or give it up, 
or so on. Some people, like myself, claim the wall may never 
get built because it would take a long, long time to resolve 
those cases. How do you see that picture? What does the 
Department think will happen?
    Because I hear, and I am not familiar with Texas, but I 
hear just along, the Texas area alone, the wall would take so 
much land that is privately owned now. And we, in this country, 
try not to force people out of their places.
    Mr. Sessions. Well, thank you. Of course, eminent domain is 
used by state and local governments for highways everyday. This 
is, I believe, a critical matter of national security. We have 
certain properties on the border now that we might need more, 
but at this point, I don't believe there are any eminent domain 
cases that have been filed. So obviously, it is a possibility. 
To protect the United States and we certainly can't be 
prohibited from obtaining property at our border if it is 
necessary to defend the border.

                   CITIZENSHIP QUESTION ON THE CENSUS

    Mr. Serrano. OK. Very briefly, I have just a few seconds 
left here. The big issue on the census is the citizenship 
question. A big question is why are we asking this time if a 
person is a citizen. And for me, personally, I am a little 
troubled, a lot troubled, since I was born in a territory, in 
Puerto Rico, that it also goes on--the possibility exists that 
it will go on to say, ``Are you an American citizen?'' And then 
say, give you a choice, ``Born in the United States.'' We 
thought it was all the United States. Then it says, ``Born in 
Puerto Rico, Guam, the Virgin Islands,'' and so on. Why would 
you--first of all, why would you ask the question? And why 
would you separate the territories from the United States, if 
you will?
    I have spent a whole career, 44 years, telling people, and 
the Chairman knows this, that the territories are part of the 
United States. And this question kind of allows for people to 
say, you see those 10 million people, or whatever that number 
is, are not part of this country.
    Mr. Sessions. I am not familiar with the territory part of 
it. I will look at that.
    Mr. Serrano. It is a possible question. It has been----
    Mr. Sessions. Possible, OK.
    Mr. Serrano [continuing]. Put in the box and so on, and I 
don't know how far they have gone with it. But please keep in 
mind that they don't ask you on the census, ``Were you born in 
Texas? Were you born in California? Were you born in New York, 
Florida?'' Why in the territory?
    Mr. Sessions. I will look at that. Fundamentally, we 
believe that it is helpful for the government to know the 
number of citizens in the country. I am a bit baffled by the 
push back that that has received. It is one of a number of 
questions. It was on the census for many years. Then it is now 
on the survey census that is done periodically now and not the 
10 year census. So it will go back on that. The Department of 
Commerce has put it on there.
    We are now--by the way, it is the last question on the 
list, I understand, but it--we are in litigation now. I am not 
prepared to really discuss the details of it. Before we get 
started, lawsuits have been filed. So we will be going to court 
and defending the Department of Commerce.
    Mr. Serrano. Just a question. Was it you or was it someone 
else in the Department who said if you don't fill that question 
out, you will still be counted?
    Mr. Sessions. Well, I think that is what the policy is on 
other questions that are not filled out. So I believe that 
would be so. And, of course, you know that an answer on that 
question can't be used to prosecute you or anybody who is here 
unlawfully. And it is a statistical data, informative question. 
But I do note that I suggested it because as I understand it, 
you will fill out a lot of questions before you get to this 
one. So if it scares somebody, they have already filled out 
most of it.
    Mr. Serrano. Yeah, well, that is the problem----
    Mr. Sessions. I don't see any need for people to be 
concerned about it. Frankly, I think it is a perfectly normal 
thing to ask.
    Mr. Serrano. And I will close with this. That is the 
question that a lot of people in this climate we are living 
today, these last X amount of years with the immigration issue, 
and the Deferred Action for Childhood Arrivals (DACA) children, 
and everything else that is happening around immigration, the 
question of are you a citizen scares a lot of people into not 
replying. And we have spent too many years convincing certain 
communities, I have, and many others, to fill the census form. 
And we are still saying that, but that question scares people 
because they don't know the motives behind it.
    Mr. Sessions. Thank you. Well, we should----
    Mr. Serrano. And the other one scares me. The territory 
one.
    Mr. Sessions. We need to convince more people to apply to 
enter the country lawfully and not come unlawfully, in my 
opinion.
    Mr. Culberson. That is absolutely true. Thank you, Mr. 
Serrano. As we restore respect for the rule of law, I am 
confident that is going to happen.
    Mr. Serrano. Yeah, but there is rule of law in the 
territories too.
    Mr. Culberson. I am pleased to recognize the gentlelady 
from Alabama, Ms. Roby.
    Ms. Roby. Thank you Mr. Chairman, Attorney General 
Sessions, thank you for being here this morning. And thank you 
and your family for your service to this country and all you do 
for our great country.
    I am proud to see that under your direction, the Department 
of Justice has taken a strong stance to uphold and protect the 
laws of this nation. Specifically, the Department of Justice 
has been active in defending against sanctuary city policies 
around our country for localities that fail to impose and 
enforce our nation's immigration laws.
    And I think you would agree that Congress, and only 
Congress, has the power to change or alter our immigration 
laws, and not various local and state governments acting on 
their own beliefs. Having said that, I want to discuss another 
issue regarding the actions of States and local governments 
interfering with private companies who are only following 
federal contracts.

                  BLACKLISTING OF FEDERAL CONTRACTORS

    Specifically, state and local government discrimination 
against Federal contractors undermining the constitutional 
supremacy clause of the federal government. As has been widely 
reported, city and State governments are passing laws and 
ordinances to blacklist Federal contractors for doing their 
jobs. It is these companies from our State of Alabama, and all 
across the country, who have the opportunities to work on 
Federal contracts, whether it is bolstering infrastructure for 
our southern border, maintenance on an Army Corp. of Engineer 
project, or new construction on a military base.
    And I know you agree with me that it is vital that we 
secure our southern border and put an end, as you just stated, 
put an end to individuals crossing into our country illegally. 
We must also have a qualified workforce and experienced 
businesses that can operate without discrimination or 
retaliation for simply following Federal government contract 
directives of building a secure system, including a wall, along 
our southern border.
    Unless checked, emboldened State and local officials will 
further discriminate against companies that perform any number 
of critical national security tasks for the federal government. 
Similarly, discriminatory measures could easily multiply as 
State and local officials seek to deter the construction of 
anything they consider offensive to their own beliefs. So 
threatened by discrimination with these various types of 
legislation, private companies would understandably hesitate to 
play the many roles that the Federal government ask them to 
play in delivering on the goods and services necessary to 
protect national security interests, specifically securing our 
southern border.
    So my question to you this morning, Attorney General 
Sessions, is when and how does the Department of Justice plan 
to respond to State and local governments on this issue of 
discriminatory behavior?
    Mr. Sessions. We made clear that is not acceptable. We will 
not accept it. Your letter, I appreciate it very much and the 
other members who signed it with you is valuable to us, and we 
will get a response to you shortly. I guess we have had it 
within a week maybe.
    And, but no this is an unbelievable assertion of power that 
a government of the United States, city, county, or State can 
refuse or blacklist the United States of America to make the 
country safer. I mean, how can this possibly be? We don't 
believe it is sustainable legally and we will challenge it 
wherever there is a case to be proven. A lot of talk about 
passing these laws, but some have passed. And so it cannot be 
accepted.
    We are looking at what the legal remedies would be.
    Ms. Roby. We appreciate your work on that. And the last 
thing I want to say to you in my short time left, I just want 
to thank you for your openness and willingness and desire to 
want to focus on sex and human trafficking in our country. As 
we know, this is not a Third World country problem, although it 
is happening globally, it is also happening in our own 
backyards.
    And so I just want to thank you here today at this hearing 
for the work that you continue to do with the Congress to do 
everything that we can to eradicate this modern day slavery. 
And so thank you again for your service to our country. It is 
great to have you here today.
    Mr. Sessions. Thank you.
    Mr. Culberson. Thank you, Ms. Roby. I am going to recognize 
Mr. Kilmer.

                            OPIOID EPIDEMIC

    Mr. Kilmer. Thanks, Chairman. I just wanted to follow up, 
even with the Chairman's indulgence. I went a little over last 
time, but I didn't get a chance to follow up on the specific 
issue of-- for communities as they grapple with the opioid 
crisis, we have got some communities that are, as Mr. Jenkins 
said, real small towns who don't have a lot of capacity to 
navigate the Federal grant system to try to figure out how they 
get these resources to combat this problem.
    Can you give us a little bit of insight into how the 
department is going to work with at-risk communities, small 
towns, tribal communities that are really suffering from this 
opioid epidemic, and need those resources but might not have 
tremendous capacity to navigate the grant making and whatnot?
    Mr. Sessions. Mr. Kilmer, it is a very important issue. Of 
course, fundamentally, the Department of Justice and our DEA, 
and FBI, and ATF investigators and marshal officers, they do 
focus on where the problem is biggest and where the gangs are 
the business. So if the network is in Seattle and it goes out 
to a smaller town, but those small towns, I am very familiar 
with it in Alabama. They can be devastated by this, like the 
little town in West Virginia.
    And so we just have to use good judgment. Often, the 
evidence discovered in a small town can help take down a gang 
in a big city or even a cartel. So the Project Safe 
Neighborhoods and our grant program that creates task forces 
does help meet that need. A small town could dedicate one of 
his officers to DEA's task force, which would deal with the 
whole region. They would have the intelligence and the 
information that could help them understand where the drugs are 
coming from that impact their community and maybe even work out 
arrangements so that the whole team could focus on that group.
    It does work. It is part of the essential improvement in 
law enforcement we have seen over the last two or three 
decades.
    Mr. Kilmer. Thank you.
    Mr. Sessions. So there is no perfect solution, but that is 
the best answer I think I can give you.
    Mr. Kilmer. Well, I am hoping maybe the committee can, you 
know, put our heads together and think about how we can be a 
partner to the department as you acknowledged. There are small 
towns that really need the attention too.

                        STOP SCHOOL VIOLENCE ACT

    Let me ask, with the time I have got left, Congress did 
something, I think important and unique in passing bipartisan 
legislation focused on the issue of school violence, the Stop 
School Violence Act, which was a bill I was one of the lead 
sponsors of, was incorporated into this spending bill. I met 
with a lot of school kids. You know, I have got little kids. 
When I drop them off at school, I want them to be excited about 
the day ahead, not fearful for their safety.
    What role do you see yourself and the DOJ playing in our 
national effort to make our schools and our community safer? 
And what steps are you prepared to take to help prevent mass 
shootings?
    Mr. Sessions. Thank you. We have altered our COPS grants to 
encourage the use of COPS grant money for school resource 
officers. We have taken a number of other steps. We have 
tightened up our National Instant Criminal Background Check 
System (NICS) system, where you--before you get a firearm, you 
have to check the computer system. But some cities aren't 
putting in information. The military was not doing so prior to 
the shooting in Texas and now they are. Some are putting in the 
arrest but not the final conviction. So you can't deny them a 
gun without that. So there are a lot of things we have done 
there.
    But I would say to you the most difficult thing, and when 
you talk to law enforcement officers about it and I have, it 
comes back to this situation. Some people are mentally ill and 
dangerous. And if they go to juvenile court, often those 
records are kept secret in the juvenile court. If they are 
taken to a mental health hospital, the regulations keep the 
doctors from telling anybody. If they are found even 
adjudicated mentally defective or needing some short term 
incarceration or detention, I guess is the right--better word, 
then that is often held close.
    The schools feel like they can't talk about their students 
to the police, even if they have concerns. And the school 
resource officers also feel some constrictions on them. 
Resource officers in schools tend to break that down, but there 
are silos out there that-- if we put this information all 
together, we could say this young person is really troubled. 
They are really dangerous. And somehow, we need to intervene. 
And you talk to law enforcement and mental health 
professionals, school people, I think that is one of the things 
they would like to see us do. And they are afraid to be sued if 
they make a mistake. And they develop policies that don't share 
information.
    So if we could make a breakthrough there, it might be 
really important.
    Mr. Kilmer. Thank you.
    Mr. Culberson. Thank you, Mr. Attorney General.
    Mr. Kilmer. Thanks, Chairman.
    Mr. Culberson. Mr. Jenkins.

                         SECOND SPECIAL COUNSEL

    Mr. Jenkins. Thank you very much. Mr. Attorney General, 
there has been a considerable amount of attention paid to the 
question of second special counsel relating to everything from 
the Hillary Clinton e-mail scandal to--abuse and so many 
issues.
    I am referencing in particular your letter of March 29th to 
Chairmen Grassley, Goodlatte, and Gowdy. And I want to say, I 
could not agree with you more on the sentence on the first page 
that reads, ``It is important that Congress and the American 
people have confidence in the Department of Justice.''
    My concern, however, is while we share the same goal, the 
question is do we have the same path to get to that goal? As a 
representative of the people of West Virginia, to be able to be 
here 20 feet from you, I feel like I am compelled to just raise 
this question--and I know you can't talk much about it because 
of the ongoing investigation, but West Virginians are 
frustrated. They are proud of this President. They see what has 
happened and the evidence regarding Uranium-1. They see the 
evidence and are concerned about FISA warrant abuses. They see 
what is happening and are frustrated about raids on lawyers' 
offices. They are frustrated and see the evidence of top FBI 
officials involved with the Clinton e-mail scandal. They are 
concerned and frustrated about FBI officials having 
communications with foreign agents and former foreign agents. 
And we are frustrated that we have had a special counsel in 
Mueller investigating supposed collusion for over a year with 
not a scintilla of evidence of collusion between the Trump 
campaign and Russia.
    And you came to the conclusion that a special counsel was 
not warranted. But you set forth here when a special counsel 
should be established and it says, ``in extraordinary 
circumstances.''
    Again, I know you can't comment much, but I just wanted to 
share with you the deep-seated frustrations and concerns that 
the people of my district and of my state See regarding what 
occurred and happened. And I understand this has been referred 
to the Inspector General for investigation, and understand we 
have a prosecutor from Utah looking into it. But at the very 
root of this, I think my constituents are frustrated, and 
angry. They see a double standard and want justice.
    And as the head of the Department of Justice, I just hope 
you will reassure us that the path that you have decided to 
take, that a special counsel is not warranted at this point, 
that maybe in the future as the Inspector General and others 
find more information, that if we feel it is necessary that 
yes, we can cross that bridge, that a special counsel can be 
appointed. While I think it is needed now, can we get to that 
point if you, through your process and your investigators and 
your Inspector General, deem it necessary?
    Mr. Sessions. Look, I think the American people are 
concerned and the President is concerned. He is dealing with 
France, and North Korea, and Syria, and taxes, and regulations, 
and border, and crime every day. And I wish this--this thing 
needs to conclude. So I understand his frustrations and I 
understand the American people's frustrations.
    I would say to you that we are being very open in the 
Department, more open than we have ever been. We are allowing 
some 12 members of Congress staff to look through records; I 
don't know if we have ever done anything like that before. I am 
sure we haven't. And so if there is wrongdoing, we are going to 
take action about it. I have already taken action.
    I would say to you that the American people need to know, 
we have entirely new top leadership at the FBI. We have got a 
highly competent, capable man of integrity in Chris Wray, the 
director. We have got a new deputy director. We have got a new 
legal counsel. We have got a new press person, a new chief of 
staff. So if there is wrongdoing uncovered, we will act on 
that.
    But we have got to be careful we don't smear everybody if 
somebody made some errors. And some of the errors, it could be 
disciplinary matters rather than prosecutorial matters. But I 
would just say to you we are determined to be disciplined. Stay 
within our classical procedures and rules. I do not think we 
need to willy nilly appoint special counsels. And as we can 
see, it can really take on a life of its own.
    So I think that we are going to evaluate it, the facts as 
they go forward. The Inspector General will have a report 
before long, a few weeks maybe. And we will do our duty at the 
Department of Justice to ensure that justice is done as the 
Lord gives me the ability to do so.
    Mr. Jenkins. Thank you.
    Mr. Culberson. Thank you, Mr. Jenkins. Mr. Attorney 
General, as you know, the Proverbs tell us our good name is our 
most valuable possession, worth more than all of the gold and 
silver in the world. And you have an impeccable reputation for 
fairness for justice, for honesty and integrity, and the FBI 
has always had superb reputation for being independent----
    Mr. Sessions. Yes.
    Mr. Culberson [continuing]. And trustworthy. And an 
essential part of the restoration of respect for rule of law is 
to ensure its fair and impartial administration. That is why 
Lady Justice is blindfolded holding the scales. So I think Mr. 
Jenkins raises an important point. I do hope that the--I know 
that my constituents are concerned about the open-ended nature 
absolutely seemed wide open and unending open-ended nature of 
the special counsel's work. And I think that anyone who would--
that you discover in the course of your investigation, anyone 
under the Department of Justice or the FBI that would use the 
legal processes of the United States for political purposes has 
to be prosecuted and brought to justice.
    And I hope you will do all that you can to reassure the 
American people that these investigations are not open-ended 
and they are not searching for anything under the sun they can 
find. But we are going to narrow this down and be sure that we 
are looking for actual evidence of any collusion. We are 
looking for actual evidence of anyone using the legal processes 
of this country for political purposes will be prosecuted to 
preserve and protect the respect for the rule of law, to 
preserve and protect the respect for the good name of the FBI 
and the Department of Justice. It is very, very important.
    And we deeply appreciate your service to the country. 
Deeply appreciate the commitment of the men and women of law 
enforcement who work every day quietly and tirelessly to 
protect us. Every day that goes by and we don't have another 
terrorist attack. Every day that goes by and ends quietly and 
safely, we are grateful to you and the men and women of the 
Department of Justice, and the FBI, and the ATF, and the DEA, 
and the Marshals Service, and the Bureau of Prisons, and 
everyone that is responsible for protecting us. We are grateful 
to you for your work to ensure the impartial and fair 
administration of justice to keep us safe.
    I know you have got the support of this committee in 
helping you do your job and protecting the most precious 
possession you have and the department has, and that is the 
good name that all of the men and women in law enforcement have 
worked so hard for so long to preserve. And I hope you will 
continue to do so.
    Mr. Serrano, if you have any closing remarks, we will go 
ahead and wrap up.
    Mr. Serrano. Yes, I do. I want to thank the Attorney 
General for coming before us today. As we wrap up, I can't help 
but maybe sound a negative note again. You know, it is not 
something I enjoy doing, but it has to be done. I am amazed at 
how many members of Congress go to the House floor and single 
out some newspaper article that may indicate that some lady or 
some fellow somewhere misused properly, improperly, on purpose 
or not on purpose, by mistake, $50 in food stamps. And that 
becomes a big, big issue.
    And yet what I keep hearing is that an investigation that 
may talk about collusion, an investigation that may talk about 
people in this government and in this country helping the 
Russians hack us and interfere with our elections, and 
everything else that has come from that, that that should be 
shut down. That that should be put away. That that should not 
grow anymore.
    And it just troubles me, but it shouldn't amaze me by now 
in the years that I have spent in Congress that some people go 
crazy over some things that we should pay attention to, but 
certainly want to make sure that person who took $50 somewhere 
and misused it in government funds gets the full extent of the 
law on their shoulders. But whatever happened over here with a 
foreign government interfering in our elections, well that we 
should shut down as soon as possible. Thank you.
    Mr. Culberson. I know Mr. Serrano joins me, as all the 
committee members do, in praying for their safety and security 
of the men and women in law enforcement and how much we 
appreciate the great work that you do.
    Mr. Sessions. Thank you. Mr. Chairman, I just know and I 
think when I said the BOP has the same staff today as in 2009 
when they had 20,000 more inmates than today, I inadvertently 
said fewer inmates. We actually had 20,000 more inmates in 2009 
than we have today.
    Thank you all for your support. I really do feel it. I 
think our men and women in law enforcement know that Congress 
has been supportive and we will do our best to use the 
resources you give us wisely. And we recognize that we have to 
account to you for the wise utilization of those resources.
    Mr. Culberson. Thank you, Mr. Attorney General, for your 
service to the country and the hearing is adjourned. Thank you.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
</pre></body></html>
